<html>
<title> - ASSESSMENT OF RISKS AT THE NORTHERN BORDER AND THE INFRASTRUCTURE NECESSARY TO ADDRESS THOSE RISKS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                  ASSESSMENT OF RISKS AT THE NORTHERN
                     BORDER AND THE INFRASTRUCTURE
                    NECESSARY TO ADDRESS THOSE RISKS

=======================================================================


                             JOINT HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
                        SECURITY, INFRASTRUCTURE
                     PROTECTION, AND CYBERSECURITY

                             joint with the

                       SUBCOMMITTEE ON EMERGENCY
                         PREPAREDNESS, SCIENCE
                             AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 8, 2006

                               __________

                           Serial No. 109-95

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                     U.S. GOVERNMENT PRINTING OFFICE

35-564 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                               __________

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity



                Daniel E. Lungren, California, Chairman

Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Mike Rogers, Alabama                 Zoe Lofgren, California
Stevan Pearce, New Mexico            Sheila Jackson-Lee, Texas
Katherine Harris, Florida            James R. Langevin, Rhode Island
Bobby Jindal, Louisiana              Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex          (Ex Officio)
Officio)
                               __________

     SUBCOMMITTE ON EMERGENCY PREPAREDNESS, SCIENCE, AND TECHNOLOGY



                 Dave G. Reichert, Washington, Chairman

Lamar S. Smith, Texas                Bill Pascrell, Jr., New Jersey
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Rob Simmons, Connecticut             Norman D. Dicks, Washington
Mike Rogers, Alabama                 Jane Harman, California
Stevan Pearce, New Mexico            Nita M. Lowey, New York
Katherine Harris, Florida            Eleanor Holmes Norton, District of 
Michael McCaul, Texas                Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Ginny Brown-Waite, Florida           Islands
Peter T. King, New York (Ex          Bob Etheridge, North Carolina
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress 
  from the State of California, and Chairman, Subcommittee on 
  Economic Security, Infrastructure, Protection, and 
  Cybersecurity..................................................     1
The Honorable Loretta Sanchez, a Representative in Congress from 
  the State of California, Ranking Member, Subcommittee on 
  Economic Security, Infrastructure, Protection, and 
  Cybersecurity..................................................     2
The Honorable Mark Asmundson, Mayor, Bellingham, Washington......     1
The Honorable Norman D. Dicks, a Representative in Congress from 
  the State of Washington........................................    21
The Honorable Sheila Jackson-Lee, Representative in Congress from 
  the State of Texas.............................................    23
The Honorable Dave G. Reichert, a Representative in Congress from 
  the State of Washington........................................     4

                               Witnesses
                                Panel I

Mr. Thomas Hardy, Director of Field Operations, Seattle Field 
  Office, U.S. Customs and Border Protection:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Ronald Henley, Chief Patrol Agent, Blaine Sector, U.S. 
  Customs and Border Protection:
  Oral Statement.................................................     9
  Prepared Statement.............................................     8
Major General Timothy J. Lowenberg, The Adjutant General General, 
  Washington National Guard:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11

                                Panel II

The Honorable Dale Brandland, Washington State Senator, 42nd 
  Legislative District:
  Oral Statement.................................................    33
  Prepared Statement.............................................    35
Ambassador Martin Collacott, Former Canadian Ambassador to Syria 
  and Lebanon:
  Oral Statement.................................................    37
  Prepared Statement.............................................    39
Mr. David B. Harris, Senior Fellow for National Security, 
  Canadian, Coalition for Democracies:
  Oral Statement.................................................    42
  Prepared Statement.............................................    43
Mr. Gregory Johnson, President, Chapter 164, National Treasury 
  Employees Union:
  Oral Statement.................................................    55
  Prepared Statement.............................................    57
Mr. K. Jack Riley, Director, Homeland Security Center, RAND 
  Corporation:
  Oral Statement.................................................    46
  Prepared Statement.............................................    48

                        Submitted for the Record

Mr. Donald K. Alper, Director and Professor, Center for Canadian-
  American Studies, Border Policy Research Institute, Bellingham, 
  Washington, USA:
  Prepared Statement.............................................    76
The Honorable Maria Cantwell, a Representative in Congress from 
  the State of Washington:
  Prepared Statement.............................................    79
The Honorable Rick Larsen, a Representative in Congress from the 
  State of Washingtono:
  Prepared Statement.............................................    82
Mr. Davis S. McEachran, Prosecuting Attorney, Whatcom County, 
  Bellingham, Washington:
  Prepared Statement.............................................    84


   ASSESSMENT OF RISKS AT THE NORTHERN BORDER AND THE INFRASTRUCTURE



                    NECESSARY TO ADDRESS THOSE RISKS

                              ----------                              


                        Tuesday, August 8, 2006

             U.S. House of Representatives,
                    Committee on Homeland Security,
                         Subcommittee on Economic Security,
              Infrastructure Protection, and Cybersecurity,
                                             joint with the
                                  Subcommittee on Emergency
                       Preparedness, Science and Technology
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:02 p.m., at 
Bellingham City Council Chambers, 210 Lottie Street, 
Bellingham, Washington, Hon. Dan Lungren presiding.
    Present: Representatives Lungren, Reichert, Sanchez, Dicks 
and Jackson-Lee.
    Mr. Lungren. Well, good afternoon. My name is Congressman 
Dan Lungren from California. I'm chairman of the Subcommittee 
on Economic Security, Infrastructure Protection and 
Cybersecurity of the Committee on Homeland Security, joining 
with my colleague, Chairman Reichert, who is chairman of the 
Subcommittee on Emergency Preparedness, Science and Technology. 
This is a joint field hearing that was called by Congress to be 
held here.
    And before go any further, I'd like to turn it over to the 
mayor of this fair city, who has been gracious enough to allow 
us to use the chambers.
    Mr. Asmundson. You're very welcome, and thank you, Mr. 
Chairman and members of the Committee.
    In Bellingham, we have hosted congressional hearings in 
this room before, and we're very happy to have you here today. 
We hope that it is a productive meeting; hope that you enjoy 
the community while you're here. The sockeye are great around 
Lummi Island right now, and there are lots of them, if you have 
time to stay and do a little fishing.
    But most importantly, I just wanted to ensure that you knew 
that Bellingham and the community has enjoyed a wonderful 
relationship with our Canadian neighbors for all of my life, 
and for, you know, as long as Bellingham has been around. 
Appreciate your efforts in ensuring that we continue to have 
the great relationship and partnership with our Canadian 
brother. Thank you.
    Mr. Lungren. Thank you very much, Mr. Mayor. It is a 
pleasure for us to be here. We thank you for allowing us to be 
here, and we--many of us hope that we can have another visit 
back to this wonderful place.
    Let me just say at the very beginning, under the rules of 
the House of the Representatives and the rules of the 
Committee, visitors and guests are not permitted to make undue 
noise or to applaud or in any way show their pleasure or 
displeasure as to the actions of the members of the House and 
this Committee.
    In other words, we're trying to have this as a field 
hearing to gather information from those who have been invited 
to testify, and the members will have an opportunity to 
question those two panels of witnesses, and we will go forward 
from there.
    The joint field hearing of the Committee on Homeland 
Security, Subcommittee on Economic Security, Infrastructure 
Protection and Cybersecurity, and the Subcommittee on Emergency 
Preparedness, Science and Technology will come to order. The 
two Subcommittees are meeting today to hear testimony on the 
risk of a terrorist attack against the United States emanating 
from Canada, and to evaluate the proper response to secure our 
borders while maintaining a steady flow of commerce.
    As many of you may know, the issue of border security, the 
issue of immigration, the issue of the threat of terrorism and 
its implications for both of those first two subjects has 
garnered a lot of attention in the Congress and throughout the 
country. There are a number of hearings being held around the 
country on these subjects.
    Our Subcommittees believed it was important for us to 
ensure that the northern border not be left out, that we have 
an opportunity to look at the unique circumstances that we find 
on our northern border, that we understand in all of its facets 
the seriousness of attending to the issue of securing our 
border on the north, and at the same time trying to understand 
even better the relationship that exists between our country 
and our neighbors to the north and attempt to come up with 
solutions to the problems that are presented without, as we 
suggested, unduly interfering with the steady flow of commerce 
with our northern neighbors.
    We have had two days here--or this culminates two days in 
this part of the country. We had an opportunity to have a 
firsthand look at the Port of Seattle, to look at the 
particular circumstances that exists there with respect to 
securing our border. We had an opportunity to go to several of 
the points of entry to the United States, had an aerial view of 
a good portion of this sector of our northern border, an 
opportunity in closed session to speak with a number of the 
experts who are working on a daily basis in the professional 
fields to secure our border.
    I must say right here and now that I thank all of you who 
are doing that. We've been immensely impressed with the quality 
of the leadership and the quality of the membership of your 
units as they are doing their job here on the northern border.
    And with that, I would now recognize the ranking minority 
member of the Subcommittee, the gentlelady from California, Ms. 
Sanchez, for any statements she may have.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you to the 
mayor of Bellingham for having us here today.
    I'm really happy to be here in Washington State today. I 
didn't get a chance yesterday to go on some of those field 
trips that we took, but I do know that we're in my colleague 
Congressman Rick Larson's district, and it's been critically 
important for us to talk about the challenges that we face on 
the northern border. I know Congressman Larson was disappointed 
that he couldn't be here, but did have a prior commitment that 
is keeping him from joining us today, especially given that he 
has consistently worked very hard in the Congress to get the 
resources that we need, especially patrol agents on the 
northern border, and to enhance the security here in the state 
of Washington. And of course I would like to thank you, our 
witnesses, for joining us here and for sharing your expertise 
on the issues that we are going to be discussing today. Okay. 
So the issue of border security, I think this is a very, very 
hot topic around the nation. Certainly the people in my 
district in Orange County, California, which is about two hours 
away from the southern border, contact me on a daily basis 
talking about what's going on at the border and what the grand 
plan really is from a security standpoint.
    And nationwide, there have been endless discussions about 
what is being done at the border or what is not being done, 
what works, what hasn't worked, and what we really need to do 
to secure our borders, especially since September 11th. But 
these discussions have been largely incomplete because to a 
large extent they have ignored the unique characteristics that 
we have on our northern border. We have to remember that the 
northern border of the United States and Canada is about a 
twice as long, or more, than the southern border, and we always 
hear people talking about the southern border. We watch the 
television and people have pictures of the southern border, but 
very little is said about what's going on up here. I remember 
about three or four years ago we went to Niagara Falls on this 
committee. I don't know if any of the members were here-- I 
think you were, Ms. Lee--and we had the same discussion about 
what's happening and what's going on with respect to the 
northern border, but nothing's really been done. And if 
Congress and the President want to really deal with the border 
security, it's got to get serious about our northern border, 
and it has to get serious about ports of entry, airports, about 
the ports that we went to see this morning. So I'm really 
interested to hear, in particular because technology keeps 
coming up, I'd like to hear about the problems because a lot of 
money has been spent here with respect to how do we secure the 
board with technology. And some of it, from what I know or have 
gathered, has not worked. So we want to learn the lessons from 
that as we further explore how to protect these land borders we 
have.
    And, you know, I guess I would like to say that prior to my 
being in the Congress, I worked on a lot of issues in 
government because I was an investment banker and had to look 
at a lot of different issues. And one of the things we know is 
that people--people, criminals, whether they be terrorists or 
drug traffickers or traffickers of people, they look to the 
least resistance in getting their job done.
    So if we've got 10,000 people working on the southern 
border, and all of the attention is there, then one of the 
places people are going to look is to come in from the north 
because, from what I'm told, we have less than 1,000 people 
really working on the northern border, again twice as long as 
the southern one. So unless we get serious about what's 
happening here on these borders, then what's going to happen is 
the more we plug other places, people and drugs and terrorists 
and other things will come through this border. So I think it's 
incredibly important that we take a look and that we begin to 
craft a solution. I look forward to the witnesses' testimony, 
and Mr. Dicks, I think--
    Mr. Dicks. Would you yield to me just briefly? I just would 
want to ask and have consent to put into the record the 
statement of Congressman Rick Larson who represents this 
district.
    Mr. Lungren. Without objection.
    Mr. Dicks. And Senator Maria Cantwell's statement, as well.
    Mr. Lungren. Without objection. They'll be included in the 
record.
    Ms. Sanchez. Thank you, Mr. Chairman, and I yield back my 
time.
    Mr. Lungren. I thank the gentlelady, and the Chair now 
recognizes the Chairman of the Subcommittee on Emergency 
Preparedness, Science and Technology, the gentleman from the 
state of Washington, Mr. Reichert.
    Mr. Reichert. Thank you, Mr. Chairman. I am pleased to be 
here in a little bit different capacity, as most of you might 
know me as the sheriff of King County just a year and a half 
ago. So it's a pleasure to be here today.
    And I don't know how many of you have ever attended a 
hearing that's held by members of Congress. It's probably one 
of the most boring things you can do. So I don't know how many 
people up there are planning to stay for the next three hours, 
but have fun. The second thing is, you know, it sometimes gets 
serious, and this is serious business, but we want to keep this 
kind of casual, but we want to also--e're here to collect 
information. You know, we want to hear from the witnesses.
    So you'll see a lot of speeches by us, and then you'll see 
a lot of speeches by the witnesses, and there are a lot of 
questions and a lot of answers. And hopefully by the end of the 
hearing, we have answers to questions so we can go back, and we 
can begin to work with people and make a difference.
    So I thank the Chairman and thank the members who are here 
today to take the time out of their busy schedule to be with us 
here in the Northwest to talk about how we keep our borders 
safe, the northern border here between Washington State and 
Canada, and the Canadian border and all the rest of United 
States. But before I start, it's important to highlight the 
unique characteristics of this region.
    Yesterday we had the opportunity to visit the Port of 
Seattle. The Port of Seattle, together with the Port of Tacoma, 
represents the third largest container port in the nation. 70 
percent of the cargo that comes through these two ports move 
across the country. So we like to say we're the Port of 
Chicago. 30 percent of the products stay here. Protecting the 
Port of Seattle truly represents a national interest, and 
that's one of the reasons we were there yesterday. In addition, 
Washington State is home to many national and international 
businesses such as Boeing and Microsoft, PACCAR, PSE, and 
countless others. The focus of this hearing is to assess the 
risks of terrorism associated with the northern border and to 
evaluate the proper response for securing our borders while 
maintaining a steady flow of commerce.
    Far too often Congress focuses solely on the southern 
border, as has been said, and it's important to understand the 
challenges represented here in Washington State and the rest of 
the northern border. For example, excluding Alaska, the 
northern border is twice as long as the southern border, yet we 
have only one-enth of the Border Patrol agents. For many across 
the country, September 11th signaled the need for stronger 
border security protecting against terrorism. However, here in 
the Northwest, we witnessed the threat of terrorism much 
earlier. In 1999, Ahmed Ressam, the so called ``millennium 
bomber,'' was apprehended in Port Angeles trying to smuggle 
explosives in an attempt to bomb Los Angeles International 
Airport. It is clear that terrorism organizations acknowledge 
our weaknesses along the northern border, and it's imperative 
that we take action to protect our borders. At the same time 
while protecting the borders, it is important that we must not 
lose sight of the importance of close relationship with our 
friends in Canada. We must take a balanced approach to protect 
the northern border while minimizing the affect it will have on 
the free flow of commerce between our two countries. Canada is 
our largest trading partner with over 440 billion traded in 
2004. In addition, in 2010, Vancouver will host the Winter 
Olympic games. It is estimated that one-uarter of the Olympic 
visitors are expected to pass through Washington State.
    Any solution to border security must take into account our 
historically close relationship. As a part of the September 
11th reform bill passed in 2004, the Department of Homeland 
Security and the Department of State were required to implement 
the Western Hemisphere travel initiative. While it is 
imperative that those crossing the international border have 
proof of citizenship, I believe we must be cautious of any 
negative impact this could have on local business. And so as 
Chairman of the Homeland Security Subcommittee on Emergency 
Preparedness, Science and Technology, I believe we must utilize 
new and existing technology to help further secure the border.
    In June, the Homeland Security Committee approved by a 
voice vote H.R. 4941, the Homeland Security Science and 
Technology Enhancement Act of 2006. This legislation will, 
among other things, encourage the Department of Homeland 
Security to look into existing technologies, especially through 
the Department of Defense, that can be used for Homeland 
Security application. In many cases, the technology already 
exists to make us more secure. It is important that while 
continuing to encourage the developments of new technologies, 
we must also utilize those technologies that already exist. 
Most recently the House of Representatives passed H.R. 5852, 
the 21st Century Emergency Communications Act. This 
legislation, which passed by a vote of 414 to 2, was based on 
the testimony from four hearings that I chaired in our 
Subcommittee last year. The need for interoperable 
communications is especially in demand here at the border with 
Customs and Border Protection, Immigration and Customs 
Enforcement. The FBI and state, local enforcement all work 
closely together. I'm specifically interested in hearing the 
level of coordination between the United States and Canada in 
securing the border. Many initiatives in place will help us do 
so, including secure border initiatives, integrated border 
enforcement teams and trusted traveller programs. I thank the 
Chairman for his patience and thank the rest of the Committee 
being here. I yield.
    Mr. Lungren. I thank the gentleman for his comments. The 
statements of all members, of course, will be entered into the 
record. We are pleased to have two distinguished panels. We're 
pleased have two distinguished panels of witnesses before us 
today. Let me just remind the witnesses how we operate. Your 
prepared text will be part of the record automatically. We 
would ask you to try and give about a five-inute summary of 
statements. At the end of the testimony of the three of you, we 
will then open up the questions from the members, as well.
    So if you could abide by that, we could make sure we have 
plenty of time to talk with you and get your answers and also 
get the second panel in and conclude at the time we are 
supposed to conclude.
    Mr. Lungren. The first panel includes Mr. Thomas Hardy, 
director of field operations, Seattle field office, Customs and 
Border Protection; Mr. Ronald Henley, chief patrol agent, 
Blaine Sector, U.S. Border Patrol, Customs and Border Patrol. 
Someone I knew 20 years ago when he was on the southern border 
working that issue, as well. Some things never change, do they?
    Mr. Henley. No, sir.
    Mr. Lungren. Major General Timothy Lowenberg, the adjutant 
general of the Washington National Guard.
    Thank you, gentleman, for being here. Mr. Hardy, we'd like 
to start with you.

   STATEMENT OF THOMAS HARDY, DIRECTOR OF FIELD OPERATIONS, 
      SEATTLE FIELD OFFICE, CUSTOMS AND BORDER PROTECTION

    Mr. Hardy. Good afternoon. My name is Thomas Hardy. I am 
the director of field operations for Customs and Border 
Protection. My sphere of responsibility and ports of entry--
have been the ports for people and merchandise arriving into 
the country. We are organized under a field office, which I 
generically call the ``Seattle field office.'' The Seattle 
field office of Customs and Border Protection has the 
responsibility for 67 points of entry in five states along 
1,700 miles of northern border, stretching from the Pacific 
Ocean to the western shore of Lake Superior.
    We carry out our enforcement mission in the land, sea, and 
air environments, including major international airport, two of 
the nation's largest container sea ports. We handle about a 
quarter of all the passengers and commercial traffic crossing 
our northern border. During the fiscal year 2005 alone, Seattle 
field office processed more than 20 million travellers, 
screened more than 3 million containers, 7 million vehicles, 
6,000 vessels, and more than 28,000 aircraft. Simultaneously we 
facilitated the entry of approximately $58 billion worth of 
merchandise. Meeting a formidable set of challenges demands 
creativity, innovative solutions, and a multi-ayered approach 
to border enforcement. The Seattle field office has piloted 
some of the most important CBP initiatives in the post-11 
environment. The Blaine port of entry was the first to use the 
Automated Commercial Environment, or ACE program, which permits 
electronic submission of truck manifest information. The 
Seattle field office initiated the US/Canadian Trusted Traveler 
Passenger program known as NEXUS. It followed a very successful 
pace operation in Blaine.
    We also expedited the legitimate flow of commerce by 
implementing the Free and Secure Trade program at several 
border airports within the field office. Although the FAST 
shipments, the Free and Secure Trade shipments are still 
subject to examination, because the drivers have been 
prescreened and the cargo is-as--e've received advanced 
information, we require fewer examinations. At the busiest 
ports, FAST shipments have the benefit of a dedicated lane to 
expedite them to and through the border.
    The Seattle field office piloted the Container Security 
Initiative, which is part of our layered enforcement strategy, 
by sending the CBP officers to Vancouver, Canada, and 
integrating Canadian targeters with our Seattle targeting 
center. The field office has also created counterterrorism 
detection teams to work cooperatively with the RCMP, Coast 
Guard, FBI, ICE, and our state and local partners. Similarly 
the Seattle field office is working with the National Guard and 
other entities to prepare for the 2010 Winter Olympics in 
Vancouver, British Columbia.
    Even before 9/11, the field office in partnership with 
Canada, developed the Interagency Border Enforcement Team 
concept at Blaine. A program so successful, it's been 
replicated across the northern border.
    The CBP mission of protecting American agriculture has been 
fully integrated into our port operations. By examining cargo 
and passenger baggage, the field office helps prevent, again, 
the entry of dangerous plant pests and animal disease. Recent 
interceptions of an invasive slug from a shipment of Bulgarian 
mushrooms, exotic fruit flies in an empty trailer returning 
from hauling mangos from Mexico to Canada, and the Asian wood-
oring insects that come along with the cargo in on the pallets, 
they also have been intercepted, and they could potentially 
devastate our forests. These are examples of the agriculture 
mission that we took on three years ago.
    The field office, in cooperation with the Center For 
Disease Control and other federal offices and local agencies 
that develop the plans, provided training and state resources 
so we can respond immediately to avian flu outbreaks in animals 
and humans. Perhaps there's no more chilling a reminder of the 
reality of the opportunity for terrorists to work within our 
excellent business opportunities was-appened with the so-alled 
Millenium Bomber. I was the principal field officer with US 
Customs when we intercepted Ahmed Ressam at Port Angeles, 
Washington, with a tankful of explosives intended for use in a 
terrorist plot to blow up LAX around the time of the Millenium. 
This apprehension demonstrated terrorists are willing to use 
any means, whether big ports, small ports, or southern border 
or northern border. I thank you for the opportunity to testify 
today. Look forward to responding to any of your questions.
    [The statement of Mr. Hardy follows:]

          Prepared Statement of Thomas Hardy and Ronald Henley

    Good Afternoon chairman, Reichert, Chairman Lungren, Ranking Member 
Sanchez, Ranking Member Pascrell, distinguished Members of the 
Subcommittees. It is our pleasure to appear before you today to discuss 
how U.S. Customs and Border Protection (CBP), one of the agencies of 
the Department of Homeland Security, is working to secure our Nation's 
borders, both at and between our ports of entry.
    Every day, thousands of people try to enter our country illegally, 
many to work and provide a better life for their families. After all, 
in their home countries, they make only a fraction of what they could 
make in the United States. Our strong economy creates the demand for 
these workers, places tremendous pressure at the border and makes our 
job of securing the border, both at and between the ports of entry, 
very difficult.
    To most effectively secure the border, we must reform our 
immigration system to relieve this pressure. We need comprehensive 
immigration reform that increases border security, establishes a robust 
interior enforcement program, creates a temporary worker program, and 
addresses the problem of the estimated 11 to 12 million illegal 
immigrants already in the country.
    We are taking significant steps to secure the border--more than any 
other time in our Nation's history. As America's frontline border 
agency, CBP employs highly trained and professional personnel, 
resources, expertise and law enforcement authorities to discharge our 
priority mission of preventing terrorists and terrorist weapons from 
entering the United States. In fulfilling this priority mission, we are 
also able to fulfill our traditional missions, including apprehending 
individuals attempting to enter the United States illegally; stemming 
the flow of illegal drugs and other contraband; protecting our 
agricultural and economic interests from harmful pests and diseases; 
protecting American businesses from theft of their intellectual 
property; regulating and facilitating international trade; collecting 
import duties; and enforcing United States trade laws.
    CBP is responsible for protecting more than 5,000 miles of border 
with Canada and 1,900 miles of border with Mexico, while operating 325 
official Ports of Entry. On an average day in 2005, CBP personnel: 
processed 1,181,605 passengers and pedestrians, 69,370 containers, 
333,226 incoming privately owned vehicles and $81,834,298 in fees, 
duties and tariffs; executed 62 arrests at the ports of entry and 3,257 
apprehensions between the ports for illegal entry; seized 5,541 pounds 
of narcotics and 1,145 prohibited plant materials or meat or other 
animal products at and between the ports of entry; refused entry to 868 
non-citizens at the ports of entry; and intercepted 146 smuggled aliens 
and 206 fraudulent documents while rescuing 7 illegal immigrants in 
distress or dangerous conditions between the ports entry.
    CBP's enforcement efforts are carried out in the field by CBP 
Officers and Agricultural Specialists within the Office of Field 
Operations, and Border Patrol Agents within the Office of Border 
Patrol. CBP Officers perform their enforcement duties at the 325 
official ports of entry that include airports, seaports, and land 
ports. Border Patrol Agents monitor over 6,900 miles of border between 
the official ports of entry in the Northern, Southern, and Coastal 
areas of the United States.
    As part of CBP's ``layered approach'' to border security at the 
official ports of entry, CBP uses sophisticated detection technology to 
rapidly screen high-risk cargo for weapons, radiation, and other 
contraband. Additionally, CBP Officers receive antiterrrorism training 
to better enable them to recognize, identify, and interdict individuals 
who pose a terrorist risk. To facilitate the crossing of low-risk, 
frequent travelers and commercial truck drivers, CBP uses ``trusted 
traveler'' programs such as the Secure Electronic Network for Travelers 
Rapid Inspection (SENTRI), Free and Secure Trade (FAST), and NEXUS 
programs. To date, approximately 225,000 SENTRI, NEXUS, and FAST cards 
have been issued to these ``trusted travelers,'' who undergo a 
background investigation and interview, among other requirements, to 
qualify for these programs. Developed in partnership with the 
governments of Canada and Mexico, these programs enable CBP to focus 
its limited resources on high-risk travelers and cargo.
    Since 2001, funding for border security has increased by 66 
percent. DHS, working in conjunction with its Federal partners has 
apprehended and sent home more than 6 million illegal aliens. On May 
15, 2006, President Bush announced his plan to increase the number of 
CBP Border Patrol Agents to 18,000 by the end of 2008, thereby doubling 
the number of agents since he took office in 2001. These additional 
agents will serve as a tremendous resource in our mission of securing 
the border.
    CBP's effort to gain operational control of our border is a central 
component of the Secure Border Initiative (SBI), which is a broad, 
multi-year initiative that looks at all aspects of securing the border. 
SBI is taking a comprehensive approach to securing the border through 
an integrated systems approach and strategic policy and planning. It is 
an effort to think about border security nationally, to include 
building a systematic approach to disrupt, dismantle, and deter all 
cross-border crime and balance legitimate travel and trade into and out 
of the United States. SBI, as envisioned by the Secretary of Homeland 
Security and the Commissioner of CBP, addresses the challenges we face 
at every segment of out Nation's borders to integrate the correct mix 
of increased staffing, greater investment in detection technology and 
infrastructure, and enhanced coordination.
    Each day, the men and women of CBP enforce our borders and protect 
the Homeland, with the utmost vigilance, dedication to service, and 
integrity. We thank you for the opportunity to present this testimony 
today, and would be happy to respond to any questions you might have.

    Mr. Lungren. Thank you very much, Mr. Hardy.
    Now Chief Henley.

                   STATEMENT OF RONALD HENLEY

    Mr. Henley. Chairman Lungren, Chairman Reichert, ranking 
members, and the other distinguished members of the Committee, 
on behalf of the dedicated men and women of US Border Patrol, I 
welcome you to Blaine Sector. I want to extend a collective 
thanks to all the members of Congress, what you've done in the 
past and for what you will do in the future in support of our 
efforts to gain operational control of our borders. CBP's 
priority mission is to prevent terrorists and weapons of terror 
from entering the United States at and including our ports of 
entry. To accomplish this mission, every Border Patrol sector 
in the United States has a goal to maintain and expand 
operational control of our borders by using the right 
combination of personnel, technology, and tactical 
infrastructure.
    Currently Blaine Sector's operational challenges can best 
be summarized as using available resources in a highly mobile, 
dynamic tactical framework that minimizes the adverse impacts 
on historically exploitive corridors, while focussing 
discretionary resources on evolving concerns and threats. 
Traditionally Blaine Sector's enforcement resources has been 
focussed on the Canadian border between the Pacific Ocean and 
the base of the Cascade Mountains, which is called our Coastal 
Mainland Corridor. The natural terrain and geographical nexus 
from the coast of the mountains in our area of responsibility 
presents a tremendous challenge to enforcement operations.
    Virtually all of the personnel enhancements received since 
September 11, 2001, have been directed to this particular 
stretch of border allowing an unprecedented, yet not optimal, 
level of border security be achieved. This operational posture 
has thrust smuggling enterprises to the point of forcing their 
shift eastward, farther often into the neighboring sectors. 
During fiscal year 1905, smugglers continued to resort to more 
desperate measures as evidenced by the greater use of aircraft 
flying contraband over the Border Patrol's tactical deployment 
and by the destruction of at least one cross-order tunnel in 
Lynden, Washington. To combat the situation, the Border Patrol 
has developed and implemented a national deterrence-ased 
enforcement strategy supported by the proper combination of 
additional personnel, technology, and increased intelligence 
gathering. This national and unified and seamless enforcement 
approach has created a common operational picture where the 
Border Patrol, CBP office of field operations, the US Coast 
Guard, CBP air and marine, ICE, the EPA, the National Guard, 
and other Department of Homeland Security entities collaborate 
with the RCMP, state, local and federal law enforcement by 
sharing intelligence and resources. The courageous men and 
women of the United States Border Patrol, coupled with the 
proper mix of intelligence, technology, and tactical 
infrastructure stand ready to effectively meet the challenges 
of the 21st century to provide for a secure and safe homeland. 
I look forward to responding to any questions you may have.
    [The statement of Mr. Henley follows:]
    See page 8
    Mr. Lungren. Thank you very much, Chief Henley, and now 
General Lowenberg.

          STATEMENT OF MAJOR GENERAL TIMOTHY LOWENBERG

    General Lowenberg. Thank you. Good afternoon Chairmans 
Lungren and Reichert, members of the Committee. For the record, 
I am Major General Tim Lowenberg. I am testifying on state 
duties today on behalf of Governor Chris Gregoire. In the 
interest of time, I'm going to make a liberal record in 
addition to my formal written testimony, which I thank the 
Chairman for accepting for the record.
    Among my many duties, I am the security chair of the task 
force that has been formed to coordinate US federal, state and 
local arrangements for the 2009 International Police and Fire 
Games, as well as the 2010 Winter Olympics. That task force is 
chaired by your colleague, Rick Larson, who represents the 
district in which this field hearing is being conducted.
    Essentially this is an open public forum. I encourage the 
members of this Committee to solicit classified briefings from 
the US Customs and Border Protection that document the 
vulnerability and requirements of border security in this 
region. From August 2009 to March 2010, the international 
events that I have just mentioned will bring more than 20,700 
athletes from more than 80 nations, and additionally 25,000 
coaches, 10,000 media representatives, and more than 325,000 
spectators from around the world to a venue, which is a few 
kilometers from the Washington/British Columbia border. These 
events present an unprecedented state and federal security 
challenges. A security committee has been addressing these 
changes since early 2005. The list of the federal, state and 
local and bi-ational participants is set forth in Pages 7 
through 10 of my written testimony. Our next meeting is 
September 6th, and I encourage members of the Committee and 
your staff representatives to attend that meeting, and any 
future meetings, as well.
    Even at this early planning stage, it's clear that we need 
your help in addressing five significant problem areas. First, 
we need to acquire the elements of an effective unified command 
structure our architecture, especially as we gear up for these 
international events.
    Second, we need interoperable wireless communications 
systems upgrades, and we need to deconflict and synchronize 
bandwidth allocations on both sides of the US and Canadian 
borders. As recently as this spring, CBP and state and local 
law enforcement agencies were unable to communicate with one 
other during a life-hreatening real world border operation. 
Third, Customs and Border Protection itself is undersized and 
underresourced for current northern border security 
requirements. The lack of adequate staffing and related support 
systems will become increasingly critical as we approach 2009 
and 2010 international events along our border. Four, beginning 
in fiscal year 1907 and continuing through federal fiscal year 
2010, all state, local, and federal stakeholders will need 
special federal funding for regional and bi-ational training 
and exercises to assure the preparedness of the cross border 
security departments.
    Washington's military department has taken the lead in 
designing a collaborative five-ear exercise schedule that will 
enable us to build towards full mission capability by the end 
of fiscal year 1908, but those plans require dedicated federal 
funding for all exercise participants. And finally, secure and 
improved personal identification systems and streamlined border 
crossing procedures are essential. Governor Chris Gregiore and 
British Columbia Premier Gordon Campbell have issued a formal 
Washington State/British Columbia high level dialogue that 
focuses on integrated solutions to border security and cross 
border law enforcement measures. They are united in opposing 
the proposed Western Hemisphere Travel Initiative Passport 
Requirement that does little to increase security, while 
significantly and negatively impacting cross border flow of 
commerce, tourism, and trade.
    They have instead encouraged President Bush and Prime 
Minister Harper to support a cross border initiative that would 
take full advantage of available technology, technology that I 
might mention that were developed by the Naval criminal 
investigative service, that can be used at licensing offices to 
help evaluate foundational documents used to establish personal 
identity and citizenship, and can also be used by federal 
representatives at border crossings to wirelessly check the 
authenticity and validity of driver's license and ID cards 
against documents stamped at more than a 110 record databases. 
The work of the cross border high level dialogue working group 
and the proposed two-hase pilot project is explained in greater 
detail at Pages 11 through 13 of my written testimony. And 
finally at Pages 13 through 16, I have provided comments about 
the impact of federal and national guard policies on border 
security and cross border security risk. I welcome the 
opportunity to engage in a further dialogue about these and 
other issues outside this hearing. Thank you, Mr. Chairman, and 
members of the Committee for your kind attention and for your 
public service. I look forward to responding to your questions.
    [The statement of Major General Timothy Lowenberg follows:]

        Prepared Statement of Major General Timothy J. Lowenberg

    Good afternoon, Mr. Chairman and distinguished members of the 
Committee. For the record, my name is Major General Tim Lowenberg. I am 
the Adjutant General of the State of Washington and Chair of Homeland 
Defense and Homeland Security for the Adjutants General Association of 
the United States (AGAUS). In addition to my Army and Air National 
Guard command responsibilities, state law designates the Adjutant 
General as the State's senior emergency management official and vests 
in me the responsibility to ``administer the comprehensive emergency 
management program of the state of Washington'' (RCW 38.52.005). The 
Adjutant General is also responsible for managing Washington's 
statewide Enhanced 911 telecommunications system and for serving as a 
voting member of the State Interoperability Executive Committee (SIEC). 
The Adjutants General of twenty-five (25) other states and territories 
have been similarly vested with dual military commander / force 
provider and civilian emergency management responsibilities. In the 
other states in which National Guard and state emergency management 
functions are not merged under the operational control of The Adjutant 
General, my general officer counterparts and their respective state 
emergency management directors have fashioned very close relationships 
to assure a heightened level of civil-military emergency preparedness 
and domestic response capabilities.
    In addition to the foregoing statutory duties, I am the Homeland 
Security Advisor and State Administrative Agent (SAA) for the State of 
Washington. In these capacities, I serve as the Governor's primary 
agent for all matters pertaining to homeland defense and homeland 
security and I administer all Department of Homeland Security grant 
programs, including the allocation and distribution of grant monies to 
other state agencies, cities, counties, tribal governments and private 
and non-profit organizations. In these capacities, I deal directly with 
Department of Homeland Security (DHS) Secretary Michael Chertoff and 
senior members of his Department and with Assistant Secretary of 
Defense for Homeland Defense, the Honorable Paul McHale and other 
principal members of the Department of Defense. Fifteen (15) of my 
fellow Adjutants General also serve, as do I, as their state's Homeland 
Security Advisor.
    Finally, I have the honor of serving as Co-Chair of the National 
Homeland Security Consortium and as a member of the Executive Board of 
the Governors' Homeland Security Advisors Council. The National 
Homeland Security Consortium is a coalition of the following 
independent national organizations and associations:
        1. National Governors Association (NGA)
        2. Adjutants General Association of the United States (AGAUS)
        3. American Public Works Association
        4. Association of Public Safety Communications Officials
        5. Association of State & Territorial Health Officials (ASTHO)
        6. Business Executives for National Security
        7. Council of State Governments
        8. Governors Homeland Security Advisors Council
        9. International Association of Emergency Managers
        10. International Association of Chiefs of Police
        11. International Association of Fire Chiefs
        12. International City/County Managers Association
        13. Major City Chiefs Association
        14. National Association of Counties
        15. National Association of County & City Health Officials
        16. National Association of State Departments of Agriculture
        17. National Association of State Emergency MedicalServices 
        Officials
        18. National Conference of State Legislatures
        19. National Emergency Management Association (NEMA)
        20. National League of Cities
        21. National Sheriffs Association
        22. Naval Postgraduate School
        23. Urban Area Security Cities
        24. U.S. Chamber of Commerce
    The Governors' Homeland Security Advisors Council is a newly formed 
adjunct of the National Governors Association Center for Best 
Practices. It represents the Homeland Security Advisors of the fifty-
three (53) states and U.S. territories.
    I mention these complex and tightly interwoven civil-military 
responsibilities because they are unique to the Adjutants General of 
the states, territories and the District of Columbia and because they 
result in a powerful fusion and unity of effort across the spectrum of 
state homeland security requirements, especially for states like 
Washington that share land, air and maritime borders with another 
nation. It is these responsibilities and operational experiences that I 
draw upon in proffering the following observations about border 
security and the infrastructure necessary to address cross-border 
security risks. Thank you for the invitation to address these important 
topics.

      WASHINGTON / PACIFIC NORTHWEST BORDER SECURITY REQUIREMENTS

    It is particularly timely and appropriate that you are conducting 
your combined Subcommittee hearing in Bellingham, Washington near some 
of the most critical air, land and maritime border crossing points 
between the United States and Canada. I urge you to request classified 
briefings from U.S. Northern Command (US NORTHCOM) and U.S. Customs and 
Border Protection (CBP) concerning our region's border security 
vulnerabilities and requirements.
    In the unclassified realm, in December,1999 federal border agents 
apprehended an Algerian terrorist, Ahmed Ressam, in Washington as he 
drove off a ferry from British Columbia with a trunk full of bomb-
making materials. Information from Ressam helped prevent the 
mishandling and potential detonation of the shoe bomb Richard Reid 
attempted to explode aboard an American Airlines flight in December 
2001. Ahmed Ressam was subsequently convicted and sentenced to 22 years 
for his role in the so-called Millennium Plot to bomb the Los Angeles 
international airport.
    In August 2009, Canada will host the International Police and Fire 
Games and in February and March 2010 Canada will also host the 2010 
Winter Olympics (February 12-28) and Paralympics (March 12-21). All of 
these events will be in British Columbia. The International Police and 
Fire Games will draw an estimated 14,000 athletes from more than 70 
nations plus an estimated 25,000 coaches, officials and family members 
and untold thousands of spectators. Unlike the Winter Olympics, the 
international community is invited to all venues free of charge. The 
2010 Winter Olympics will draw an estimated 6,700 athletes from more 
than 80 countries plus an estimated 10,000 media representatives, 
35,000 Games volunteers and more than 250,000 visitors, all of whom 
will be ``on the move'' within a few kilometers of the U.S.-Canadian 
border. Untold thousands of international visitors will attempt to 
transit Washington--British Columbia air, land and maritime border 
crossing routes in both directions in conjunction with these events and 
for all of the training and recreational activities that precede and 
follow them.
    These international gatherings obviously present unprecedented 
economic opportunities for our state/provincial, regional and national 
economies. They also present an attractive ``world stage'' of target 
opportunities for terrorists and an unprecedented scope of state/
provincial and national domestic security challenges.
    To address these challenges and opportunities, the Governor of 
Washington formed a 2010 Olympics and Paralympics Task Force in August 
2004 to help forge a synchronized operations plan and facilitate unity 
of effort among U.S. and Canadian law enforcement and security 
agencies. Recognizing that border and regional security obligations are 
principally the responsibility of the U.S. and Canadian federal 
governments, the State of Washington has stepped forward to help 
facilitate pre-planning, communication and coordination among all U.S. 
and Canadian local, state/provincial and federal stakeholders.
    The 2010 Olympics and Paralympics Task Force has been co-chaired 
from its inception by U.S. Representative Rick Larsen (D-WA) and former 
U.S. Representative and former state transportation secretary Sid 
Morrison (R-WA). I have been privileged to serve as a member of the 
Task Force Executive Committee and as Chair of the Security 
Subcommittee. Since early 2006, Laura Laughlin, Special Agent in Charge 
of the FBI Seattle Office, has served as Security Committee Co-chair.
    The Security Committee has met quarterly at Camp Murray, Washington 
since early 2005. Regular participants in these planning sessions 
include:
        <bullet> U.S. Customs and Border Protection (CBP)
        <bullet> Washington Military Department--Joint Force HQ
        <bullet> Washington Military Department--Emergency Management 
        Division (EMD)
        <bullet> U.S. Department of State, International Athletic Event 
        Security Coordination Group (IAESCG)
        <bullet> US NORAD Western Air Defense Sector (WADS)
        <bullet> U.S. Secret Service
        <bullet> U.S. Secretary of Defense--Office of the Assistant 
        Secretary of Defense--Homeland Defense (ASD-D)
        <bullet> U.S. Secretary of Defense--Office of Special Events 
        Coordination, Joint Staff/Joint Director of Military Support, 
        Special Events Manager
        <bullet> U.S. Department of Homeland Security--IR/IMD
        <bullet> U.S. Coast Guard--13th District HQ
        <bullet> U.S. Federal Highway Administration
        <bullet> Federal Bureau of Investigation (FBI)
        <bullet> FEMA Region X
        <bullet> U.S. Department of Energy, National Nuclear Security 
        Administration, Office of Emergency Response
        <bullet> U.S. Immigration and Customs Enforcement (ICE)
        <bullet> Royal Canadian Mounted Police (RCMP)--Emergency 
        Operations
        <bullet> Royal Canadian Mounted Police (RCMP)--Integrated 
        Security Unit 2010
        <bullet> Royal Canadian Mounted Police (RCMP)--2010 Federal 
        Security Office
        <bullet> washington State Patrol (WSP)
        <bullet> Washington State Department of Transportation (WSDOT)
        <bullet> Washington Department of Health (DOH)
        <bullet> Whatcom County Sheriff and Emergency Management 
        Offices
        <bullet> Bellingham Fire Department
        <bullet> Port of Seattle Police Department
        <bullet> Pacific Northwest Economic Region (PNWER)
        <bullet> Pacific Northwest National Laboratory (PNNL)
    I would be remiss if I did not acknowledge the personal initiative 
and leadership of Mr. Thomas Hardy, Director of Field Operations for 
the northern region of U.S. Customs and Border Protection. Although his 
area of responsibility (AOR) spans eastward from the Pacific Ocean to 
the states of the upper Midwest, he has attended virtually every 
meeting of the 2010 Task Force Security Committee and has been quick to 
proffer the leadership and expertise of CBP in virtually all of the 
Committee's undertakings.
    The next 2010 Task Force Security Committee meeting is at Camp 
Murray, Washington on September 6, 2006. Committee on Homeland Security 
members and staff are cordially encouraged to attend this and all 
future meetings.
    At the September 6, 2006 meeting, we will have a presentation from 
the Department of Homeland Security--Office of Preparedness, update 
briefings from the Royal Canadian Mounted Police 2010 task force and 
British Columbia Department of Emergency Services and status reports 
from the following Security Committee work groups:
        <bullet> Planning and Operations (CBP and WSP, Co-leads);
        <bullet> Information Analysis & Communications (FBI and WSP, 
        Co-leads);
        <bullet> Communications Interoperability (FBI and WSP, Co-
        leads);
        <bullet> Logistics & Finance / Administration (Department of 
        Homeland Security and Washington Military Department, Emergency 
        Management Division, Co-leads);
        <bullet> Training and Exercises (FEMA Region X and Washington 
        Military Department Joint Force Headquarters, Co-leads); and
        <bullet> Public Information (CBP and Washington Military 
        Department-EMD, Co-leads).
    The Security Committee work groups are reviewing, assessing and 
preparing recommendations for addressing current and long term cross-
border security requirements.

                    SPECIAL SHORT TERM REQUIREMENTS

    Even as we await the formal Work Group recommendations, it is 
obvious that we need an effective Unified Command Center architecture 
that assures the security of the Pacific Northwest U.S.--Canada border 
at present and as we approach the timeframe of the special 2009--2010 
international athletic events.
    We also need interoperable wireless communications systems upgrades 
and U.S. and Canadian bandwidth allocations that are de-conflicted and 
synchronized on both sides of the U.S.--Canada border. As recently as 
this spring (2006), CBP and U.S. state and local law enforcement 
authorities were unable to communicate with one another during a 
potentially life-threatening, real-world U.S.-Canada border security 
operation.
    Customs and Border Protection (CBP) itself is undersized and under-
resourced for current northern border security requirements. The lack 
of adequate CBP staffing and related support systems will become 
increasingly critical as we approach the timeframe of the 2009 and 2010 
international athletic events.
    We also know that all local, state and federal stakeholders will 
need special federal funding for regional and bi-national training and 
exercises in FFY2007 through FFY2010 to assure preparedness for the 
special security challenges these international events will present. 
The Washington Military Department has taken the lead in designing a 
collaborative five (5) year schedule of increasingly robust regional 
and bi-national table top / field exercises that will enable us to 
build toward full mission capability by the end of FFY08. These plans, 
however, require dedicated federal funding for all exercise 
participants.
    Secure and improved personal identification systems and streamlined 
transit procedures for trusted agents and citizens of both countries 
are also essential if we are to strike an appropriate balance between 
security interests and sustaining and enhancing the economies of the 
Pacific Northwest Economic Region (Alaska, Yukon Territory, British 
Columbia, Washington, Oregon and Idaho). In this regard, Washington 
Governor Chris Gregoire and British Columbia Premier Gordon Campbell 
have initiated a formal British Columbia-Washington State High Level 
Dialogue that focuses on integrated approaches to border security and 
cross-border law enforcement measures. On December 8, 2005, Governor 
Gregoire and Premier Campbell wrote to President George W. Bush 
expressing concern that the proposed Western Hemisphere Travel 
Initiative (WHTI) passport requirement does little to increase security 
while significantly and negatively impacting the cross-border flow of 
commerce, tourism and trade--habitual and well-established cross-border 
transit activities upon which both nations depend. They subsequently 
wrote to President Bush and Prime Minister Stephen Harper to elaborate 
upon their concerns. Copies of their letters are attached and marked as 
Appendices 1 and 2. In these letters, Governor Gregoire and Premier 
Campbell invite the two federal governments to participate and join in 
their High Level Dialogue Working Group.
    Governor Gregoire and Premier Campbell have also emphasized, and I 
concur, that the key to effective homeland security is to have fully 
staffed, well-trained, professional border guards whose agencies work 
cooperatively from both sides of the border. We fully support 
reasonable security measure for the safety of all persons. However, we 
oppose unreasonable measures that do little to improve security while 
diminishing the quality of life and economic vitality of our region.
    U.S. federal requirements permit the use of State driver licenses 
that are marked to indicate U.S. citizenship status. This would allow 
the State of Washington to update its driver license enrollment and 
issuance policies and processes to come into compliance with border 
crossing requirements. We have identified technology that can be used 
at licensing offices to help validate the acceptability of foundational 
documents (used to establish personal identity and citizenship) and 
that can be used at border crossings to wirelessly check the 
authenticity and validity of driver licenses and ID cards against 
document standards and record databases.
    The Cross-Border High Level Dialogue Working Group is currently 
working on a two-phased project to demonstrate the feasibility and 
effectiveness of these technologies for assuring traveler identity and 
document authenticity. The two phases of our Cross-Border Initiative 
are:
        1. Use of wireless handheld scanners at border crossings to 
        demonstrate the ability of customs officials to screen driver 
        licenses; and
        2. Implementation of processes and policies to improve driver 
        license enrollment processes and system changes to allow 
        wireless scanners to verify the authenticity and validity of 
        driver licenses against Department records.
    On behalf of Governor Gregoire, I urge the Committee to support 
these critical Cross-Border security initiatives.

 IMPACT OF NATIONAL GUARD POLICIES ON BORDER SECURITY AND CROSS-BORDER 
                             SECURITY RISKS

    The U.S. National Strategy for Homeland Security (July 16, 2002) 
defines homeland security as ``a concerted national effort to prevent 
terrorist attacks within the United States, reduce America's 
vulnerability to terrorism, and minimize the damage and recover from 
attacks that do occur''. The Strategy clearly articulates that homeland 
security as a ``shared responsibility'' of the federal and state 
governments. It goes on to prescribe that ``Cost sharing between 
different levels of government should reflect the principles of 
federalism.''
    Based on these core tenets and the simple recognition that all 
disasters are local disasters, including incidents of national 
significance, Congress has implemented programs designed to sustain and 
enhance the states' ability to meet their homeland security 
responsibilities. Nearly all federal agencies have supported the 
strategy of enhancing state capabilities--with the exception of the 
Department of Defense (DoD) which has pursued a series of unilateral 
actions that directly undermine and diminish the states' capacity to 
respond to domestic emergencies. DoD has taken these actions with no 
notice to or consultation with Governors or the National Guard Bureau 
(the statutory ``channel of communications. . .between (1) the 
Department of the Army and Department of the Air Force, and (2) the 
several states [on] all matters pertaining to the National Guard''. See 
10 USC 10501(b)).
    These unilateral DoD actions include (1) the BRAC 2005 withdrawal 
of state National Guard aircraft responsible for moving 1 out of every 
2 soldiers and airmen and 1 out of every 3 short tons of equipment that 
were airlifted into the Gulf Coast states after Hurricane Katrina hit 
land fall in August 2005, (2) the January 2006 elimination of force 
structure authorizations and budget authority for 34,000 Army and Air 
National Guard positions, (3) the removal of $1.2 Billion in military 
equipment and supplies from Army National Guard units [leaving the Army 
National Guard with less than 34% of its authorized and required 
equipment], (4) the July 2006 removal of two years' worth of Governor 
and Adjutant General-validated military construction projects from the 
Future Years Defense Plan [FYDP],and (5) the Defense Department's 
request for legislation giving the President authority to take control 
of a State's National Guard away from the Governor in the event of any 
``serious natural or manmade disaster, accident or catastrophe.'' [See 
Section 511 of the House-passed 2007 Defense Authorization Act]. These 
DoD actions have been undertaken with no notice and without consulting 
the Department of Homeland Security, the National Guard Bureau or the 
States and territories. They individually and materially degrade the 
States' ability to respond to catastrophic emergencies, including 
domestic terrorist attacks. They also individually and materially 
degrade the States' abilities to help secure our borders and protect 
cross-border critical infrastructure from transnational terrorist 
threats.
    Taken individually and as a whole, these and other DoD actions are 
the result of DoD's failure to consult with the states and territories. 
The National Defense Enhancement and National Guard Empowerment Act of 
2006 (S.2658/H.R. 5112), as amended by unanimous consent in the Senate, 
would address these shortcomings by (1) elevating the National Guard 
Bureau [NGB] to the status of a DoD ``joint activity'' [giving the 
Chief, NGB direct access to the Secretary of Defense and the Joint 
Chiefs of Staff instead of being silenced in the no-man's land between 
the Chiefs of Staff of the Army and Air Force], (2) giving the Chief, 
NGB, in consultation with the states' Adjutants General, the authority 
to articulate the National Guard's homeland defense and homeland 
security requirements, (3) giving the Chief, NGB 4-star rank 
commensurate with the Bureau's joint activity status, and (4) 
designating the deputy commander of US NORTHERN COMMAND as a National 
Guard general officer position.
    Other provisions of the original legislation may be appropriate for 
study and review by the Commission on the Role of the National Guard 
and Reserves (CRNGR), but immediate passage of the foregoing provisions 
is necessary to assure states maintain the capacity to contribute to 
the nation's Homeland Security.

CONCLUSION
    I would like to thank the Committee for the opportunity to testify 
on behalf of the State of Washington and the other federal, state and 
local stakeholders who comprise the Governors 2010 Olympics and 
Paralympics Task Force and its Security Committee. We are all citizens 
deeply devoted to our nation's security. The requirements I have 
outlined above are necessary to safeguard our borders and sustain and 
enhance our state and national economies. Working with Congress, we 
can, we must and we will assure our nation remains a safe and secure 
place in which to live, work and raise our families.

    Mr. Lungren. Thank you very much, General, and now we'll go 
through a round of questions. We'll limit ourselves to five 
minutes apiece, and I'll start by addressing questions to Mr. 
Hardy. Director Hardy, we were very impressed with your folks, 
very impressed with what we saw, very impressed with the 
history of the Millenium Bomber where--Where it wasn't just 
dumb luck. It was savvy law enforcement, an agent who saw 
something that she thought didn't match up, and then working in 
coordination with others completing that. So that's the good 
stuff. However, when I look at that, and then sometimes you go 
and you say, boy, they sure did a good job while I was there, 
is that what it's really about or is it something else? So I 
was a little disturbed when I saw this report about what 
occurred on--ast week where the Government Accountability 
Office issued a report concluding that its employees attempted 
to enter the United States successfully at nine different ports 
of the entry using bogus documentation.
    The report suggests that at some point the employees that 
came across were not confronted or even asked for 
identification. They make specific reference to a circumstance 
here in the state of Washington where two GAO agents were able 
to enter upon showing a driver's license to a CBP agent and 
answering a few questions. And the GAO suggests that, look, 
this is what we did in 2003. This is what we did in 2004. There 
hasn't been improvement. I see signs of improvement, but when I 
see a report like this, I have to be able to answer what 
happened.
    Does this--oes this indicate that your officers are still 
having difficulty being able to evaluate the genuineness of the 
various forms of ID as they come across? And if you could give 
us a sense of what that is, and if not, can you give us a sense 
of what occurred in those circumstances, if you know? And what 
should we be looking at when we get a report like that that 
suggests that, you know, you can send some people across, and 
they can get across fairly easily with forged documents.
    Mr. Hardy. Well, thank you for that question, and yes, we 
have been looking into those situations, and the incidents 
themselves do go to the documents that were--hat are being 
allowed and acceptable to cross the border. The individuals 
used driver licenses, which, as you know, are not indicative of 
license plates. They're indicative of the beginning of a story. 
The history of the northern border is one of vehicle crossings 
and identifying vehicles, not so much working with the people 
that come through. So we have ramped up in the last, especially 
the last two years, more and more identification of people 
coming through and asking additional questions. But, yes, the 
documents that we are left with accepting are a myriad of 
driver's licenses, a myriad of birth certificates, which might 
indicate people were babies then and they are real people now 
driving in cars. So it makes our life very difficult. It is one 
of the reasons why we seek some resolution to better 
identification of people at the border.
    Mr. Lungren. Let me address this both to you and the 
General.
    General you had some personal comments on the Western 
Hemisphere Travel Initiative. That's a response by Congress, 
maybe not all members of this panel, but it was a response by 
Congress to the very issue that Mr. Hardy talked about, 
suggesting that we need to--nd realize, as well, that we need 
to firm up the quality of our entry procedures, both in terms 
of making sure the person who's got the document is who he says 
he was, and then that is connected with something that shows 
us, you know, birth certificate or something that suggests that 
this is that person. So in response to that, Congress has 
pushed the Administration to have this Western Hemisphere 
Travel Initiative. Let me just give you the view that I hear 
from other members of this Congress, not up in this area and 
not on the southern border.
    They say, well, look, we have this problem. Congress has 
now said you've got to do something about it, and all we hear 
are gripes from the states saying, hey, we can't handle this in 
terms of driver's licenses, and we're going to kill our 
commerce across the southern border. I hear that when I'm in 
Southern California. And across our northern border, I hear 
that when I'm up here. And then I try to explain to members 
that, yeah, this is an important issue, that you have to 
understand this concern people have of this detrimentally 
affecting their economies and forth. So what do we do?
    General Lowenberg. Mr. Chairman, I think we all agree on 
what the problem is, but the issue is how does that affect the 
enhancement of security, and in that respect, the REAL ID Act 
is a requirement imposed by Congress that no federal agency 
could comply with, even if money were no object, and money is a 
limiting factor for the states. With respect to the ID 
verification system that the premier of British Columbia and 
the governor of Washington are encouraging the federal 
authorities on both sides to undertake, is using the very kind 
of technology that Chairman Reichert pointed to that's been 
fully mature and developed by the Department of Defense, and it 
uses commercial off-he-helf software. And so frankly that is 
much more robust in identifying and tying identification cards 
to a much richer array of databases than a passport. And so 
again, the emphasis is on the intelligent application of 
financially available and technologically available systems 
like the one I've suggested.
    Mr. Lungren. The gentlelady from Southern California.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you, 
gentlemen, for testifying.
    You know, in the Congress, we do things--wo things, we 
authorize, meaning we put out policy and what policy should be, 
and then of course we appropriate. We have to put the moneys 
towards the policy, hopefully. And unfortunately, in the time 
that I've been in the Congress, in the five years now, it's 
almost five years now since 9/11, we've passed various acts. 
For example, the 9/11 Act, which said that we were going to add 
an additional 2,000 agents at the border for the next five 
years, so 10,000 agents, unfortunately, when we get the budget 
from the President, it's got 200 new people funded or 500 new 
people funded. And every time we try to increase that funding, 
it's voted down.
    In fact, December 16th of this past year, all of the House 
Republicans voted against a proposal that required more border 
agents and the new catch and release program, by authorizing 
100,000 additional detention beds, and incorporated state-of-
the-art surveillance technology, including cameras, sensors, 
radios, satellites, unmanned aerial vehicles.
    Again, in 2005, 226 of the 227 House Republicans voted 
against the proposal to permit 41 billion to security our 
nation from terrorist threats, 6.9 billion more than the 
President had asked for, and another proposal for 
transportation, security, immigration, processing, security 
functions, $4 billion more than the President's budget. And in 
2005, 225 of the 227 Republicans voted against an effort to add 
284 million to the emergency spending bill for securing the 
nation's borders that would have hired 500 additional Border 
Patrol agents and 200 additional Immigration investigators and 
provided funding for unmanned border aerial vehicles. In other 
words, there's a policy out there, but when we go to put the 
resources, the resources don't pass, at least in the House of 
Representatives. So my question to you is could you use 
additional Border Patrol agents in this sector, in the Spokane 
and Blaine sector, could you use additional support staff, and 
what is the current ratio that you have, and what should it be? 
Could you use unmanned aerial vehicles, and could you use 
additional state-of-the-art surveillance equipment, and what 
type of equipment would you find useful?
    Mr. Henley. Yes to all of the above, but let me elaborate 
on that. We have a national strategy. Every sector in Border 
Patrol, all 21 of them, really are preaching on the same page 
these days, and I would say under the old INS, that's probably 
always a statement I could make. We have different levels of 
what we call patrol, and it starts at the base level and works 
up to Level 5.
    Now, without getting into the numbers, I can tell you I'm 
about 400 people short. So the fact of the matter is that--
    Ms. Sanchez. 400 people short of where you think you--of 
what--the level where you're taking care of that physical 
border area?
    Mr. Henley. Where I can make an honest assessment of what I 
really do need. So without getting into specifics about that in 
a public forum, I can tell you that without the assistance of 
other agencies up here, and all the ones that I list in my 
testimony, we would be way behind the curve.
    So the tactical infrastructure, all of the things that go 
along with Border Patrol, as the Chairman alluded to, I spent 
16 years of my career on the southern border, and it's 
drastically different on the southern border than it is on 
northern border. The strategy is the same. If we had the same 
amount of resources, human resources and infrastructure, it 
will be almost identical in my opinion.
    Ms. Sanchez. I mentioned earlier that I thought that when 
you block one area, the water goes through the existing holes, 
meaning that, you know, we haven't done much here on the 
northern side. Can you tell me, you know, we keep hearing this 
10 to 1 ratio, 10,000 people, agents at the southern border, 
for 1,000 for twice the area to cover up here. How many agents 
are actually stationed on the northern border at a given time 
given eight-hour shifts and demands? You know, that's not 
classified. I've seen the number before, but I want to see from 
your end how many you think at any one time are up here?
    Mr. Henley. Well, ma'am, what I can tell you the formula 
is, is--because of the three shifts and vacations and time off 
and all of that, you divide whatever number that you have by 
five, and that tells you about what you have on the border at 
any one time, no matter whether it's the northern border or the 
southern border.
    However, you have to add in the tools that we use. We have 
aircraft. They also monitor traffic. We have cameras, we have 
sensors. We have, you name it, that are force multipliers. And 
on the Canadian border, some of our best partners are the RCMP 
and Canadian municipal police officers on both sides. So it's--
without getting into the numbers, I can tell you that it's--
because we are so small, that really brings the community 
together, whether it be sheriff's department all the way down 
to King County, the Whatcom County sheriff's department, the 
local police department. Some of them we dispatch for. I've 
been doing that since 1955.
    Ms. Sanchez. Let me ask the last question because I see my 
time is up: Would you prefer that we hire these people, that we 
put them through the training system and that they're Border 
Patrol and they're assigned to you, or would prefer that they 
be contracted out? Because that's what some people have talked 
about.
    Mr. Henley. I--I'm a Border Patrol agent and bleed green, 
some people say, and I can tell you that the training--
    Ms. Sanchez. You think there's a difference?
    Mr. Henley. I can't tell you about contract help. I can 
tell you that Border Patrol officers train Border Patrol 
officers. So you have a cadre of individuals on the field who 
go back to the academy to teach, and in my view, that's the 
best training you could ever get.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Lungren. Thank you. The gentleman from the state of 
Washington, the Chairman of the Subcommittee.
    Mr. Reichert. Thank you, Mr. Chairman. I want to continue 
along the same lines as my colleague began, and that's with the 
resources. I know when I was sheriff, I was a little bit 
jealous of some of the police departments that were nearby that 
had a staffing level of one 1.8 per thousand. That's a fat 
police department. The sheriff's office was .8 per thousand, 
and we always needed more people, and the county council of 
course had said--instead of helping me out, cut me $2 million a 
year because they had a, you know, budget shortfall.
    So without getting into, as you said, Chief, into the 
numbers, there's a lot of things that go into how you decide to 
and where you decide to deploy your personnel, and there's 
also--as you said, not only is it important to have people 
manage the borders, but it's also the resources and the 
technology that you have available to you to help patrol your 
borders. We can always use, and I as the sheriff would say I 
need more people, but I'd also recognize that I needed more 
tools, more technology. And one of the things, really, that I--
just if I could ask you, very quickly, prior to September 11th, 
how many Border Patrol were assigned to the northern border 
here in Washington State?
    Mr. Henley. 52.
    Mr. Reichert. 52, and today?
    Mr. Henley. More than that.
    Mr. Reichert. I know that's a question you can't answer, 
but there's been an increase?
    Mr. Henley. There has been an increase.
    Mr. Reichert. Substantial increase?
    Mr. Henley. I would say substantial.
    Mr. Reichert. Okay. I just didn't want to leave people with 
the impression that there wasn't something being done in 
helping you to add resources, personnel to your staff.
    One of--I think the biggest tools that can be used here is 
this communications piece that the General touched on. He had a 
number of--a unified command is so important. There has to be 
this partnership. This--the wireless upgrade, and General, you 
talked about the bandwidth issue. Isn't there other technology, 
too, besides acquiring the 700--are you on 800 megahertz up 
here? So we're looking at 700, right? We want to get law 
enforcement, first responders to 700. Is there an effort still 
to do that? Are you looking at other technologies? Because what 
the federal government, part of their role should be is to help 
you weed through the 800 or 900 vendors that are available the 
different technologies and how to solve this interoperability 
piece. What are you looking at here in Northwest Washington as 
far as interoperability solutions?
    General Lowenberg. Mr. Chairman, we have interoperable 
communications strategies that we are well on the way of 
addressing, but the challenge is for us, and for every northern 
tier state, is that the bandwidth doesn't recognize lines on 
maps. So the bandwidth allocation by US authority and the 
Federal Communications Commission does not synchronize the 
width, the bandwidth allocations by the Canadian authorities.
    So for roughly the northern one-third of the land mass of 
the state of Washington, and every other northern tiered state, 
we have that--we have that challenge. That's why it's so 
important that we get this early start in preparation for the 
2009 and 2010 international athletic events because the 
consequences of that lack of synchronization will be much more 
profound. Chairman Reichert, you were part of the culture that 
is part of the solution, and that is the solution of the 
culture of collaboration. This task force that Congressman 
Reichert chairs includes the Canadian principal officials, as 
well as American principal officials. At our meetings, we have 
representatives, senior representatives from the Pentagon, from 
the Department of Homeland Security headquartered in 
Washington, D.C., from the US State Department interagency 
group in Washington, D.C., and we have in this region, and I 
think it's important perhaps for the Committee members who are 
not from Washington State, to recognize that we have a well-
established Pacific Northwest Economic Region that spans from 
Alaska to the Yukon Territory, British Columbia, Washington, 
Oregon, and Idaho with a continuous collaboration by the 
elected and appointed officials in all of those provinces and 
states. That is part of the solution, which is not finance 
dependent, it is not technology dependent, but it's a huge part 
of the solution. And that's why the Premier and the Governor 
are encouraging federal governments to join in this 
collaboration in focussing on a pilot project that could endure 
the benefit of both federal governments.
    Mr. Reichert. Yes. I just want to make clear that although 
I've been helpful, I think, in helping the police to shed the 
light on interoperabilities to the members of Congress, I don't 
chair the Committee up there. I want to make sure the 
Congressman Larson gets credit for what he's doing and credit 
for what I haven't done yet, but I'll continue to try to do so. 
Thank you.
    General Lowenberg. Thank you.
    Mr. Reichert. I yield.
    Mr. Lungren. Thank you. Then gentleman from Washington, Mr. 
Dicks, is recognized for five minutes.
    Mr. Dicks. I want to thank the witnesses for testifying 
today, and now for a brief amount of time I'm going to try to 
step through this. Mr. Hardy, you heard about this proposal 
from the governor of Washington, and Mr. Lowenberg mentioned 
about trying this technology on the borders on--to do a better 
job on licenses and to try and come up with a way to meet the 
Western Hemisphere--what do we call it, Travel Initiative, 
which is a big concern, as you know, to officials, governors, 
senators from the northern states. Would you be prepared to sit 
down and talk about this if we could set up a meeting?
    Mr. Hardy. Congressman, one of my staff has already sat in 
on a meeting with the entities that are proposing this. We've 
taken a quick look at it, but we have forwarded it this past 
week to Washington, D.C., and my recommendation was for our 
headquarters people to sit down seriously and see essentially 
on--on the access requirements, who's going to query 110 
different indices, who gets the approval to do that. But it is 
all automated, and this is a great big world of automation 
these days. So we should be able to overcome those kinds of 
things.
    One of the biggest issues, of course, is the driver's 
license. It can be a problem in our cities or states regarding 
citizenship. It's not a current requirement, and how the states 
and the provinces deal with that and make it a requirement or 
an alternate card for border crossers is an important piece of 
that. That's--those are the two quick things that came out of 
our deliberations.
    Mr. Dicks. See, we're as concerned, and we're going to run 
up on these deadlines that are in the legislation and not be 
there because we haven't put the resources to do it, or it just 
becomes too hard to do, and there's a lot of concerns on border 
communities. It's going to have a very--if it doesn't happen, 
you know, it's going to have a very negative economic impact on 
these communities.
    Mr. Hardy. Correct. That's why we had the meeting one day, 
and we are nimble enough to move it.
    Mr. Dicks. You're moving it. So you are giving us a yes, 
and we will accept that.
    Mr. Hardy. Yes.
    Mr. Dicks. Yeah. I was impressed to see the technology, the 
Nexus program, the Fast program. Both I thought were pretty 
effective, and we had a chance to be with Mr. Henley yesterday 
at the border to look at this. And I was impressed by that, but 
there was long lines. And so we are, you know, we're concerned 
to make sure we have adequate personnel and adequate 
technology.
    General Lowenberg, you--what have you got--tell us what you 
think of putting National Guard units on the border? What do 
you think about that?
    General Lowenberg. You're referring to especially to jump 
start the application along the southern border?
    Mr. Dicks. Yeah.
    General Lowenberg. I think that the alternative of using 
National Guard personnel rather than federal full-time military 
personnel is the preferable option, especially when we send 
federal military forces to our border with Mexico, I think we 
make it more difficult, the objective of integrating Mexico 
into a tri-national security arrangement.
    And then whatever we did along the southern border, we 
create an important precedent for what we might be required to 
do during the 2009 and 2010 events if border security such a 
concern that we need to provide augmentation to the federal 
agency responsible for border security.
    So considering the courses of action available to the 
President, I think it was a prudent and proper use of the 
National Guard.
    Mr. Dicks. General, the conditions the National Guard is 
overstretched due to the demands of the war in Iran and Iraq-in 
Iraq and Afghanistan, and then to use them in defined role to 
secure the border, what steps has the Washington Guard unit 
taken to ensure that it is-that it can protect and serve the 
people of the State of Washington without compromising--I mean 
some people want to put people down on the border. If I 
understand, it wouldn't be that large a number; is that 
correct? So it wouldn't affect your ability to--
    General Lowenberg. From late August through the end of 
September, we will have approximately 375 National Guard 
volunteers, Army and Air Force, forming CBP augmentation in the 
state of Arizona. Governor Gregoire signed an agreement saying 
she would fully concur with the deployment of any and all 
volunteers, but she would not involuntarily activate a number 
units without first consulting the governor of that supporting 
state against the ongoing security requirements of our own 
state. So we think we have struck the appropriate balance, and 
we can sustain the level of support that we have committed to 
support the southern states.
    Mr. Dicks. Just one final question: On the UAVs, Mr. 
Henley, I think that would be a very positive augmentation to 
what you've got going up there already. What's the--is this in 
the budget at some point in the future?
    Mr. Henley. I believe it's called the SPI. When we're 
slated to get UAV on the northern border, I don't know, but 
this was my intent to throw my hat in the ring for that.
    Mr. Dicks. You think it would be a major plus?
    Mr. Henley. I think one UAV patrolling all the way from the 
Montana border all the way to the coast would be most 
beneficial to a large part of the Northwest.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Lungren. Thank you. The gentlelady from Texas, Ms. 
Jackson-Lee, is recognized for five minutes.
    Ms. Jackson-Lee. I thank the Chairman very much, and I do 
want to emphasize what we have come away with from our visit, 
and that is that there is darn good law enforcement going on up 
here. We owe you a debt of gratitude. The American people owe 
you a debt of gratitude, and so I want the emphasis to be on 
the fact that I didn't see a lot of dumb luck around. I saw a 
lot of hard work.
    This is an official hearing, and I believe, gentlemen, you 
should view this as providing the fodder, the information that 
is necessary to provide you with the resources and the, if you 
will, the road map that will be effective in what your very 
able members of Congress have asked us to look at, and that is 
of course the needs of the northern border.
    And as my colleague indicated, I have been here before and 
walked along or seen the border. I've been to the northern 
border on the east coast. And so this is a revisit for me, and 
I see the needs are still enormously powerful. I do want to, as 
my colleague has done, acknowledge Congressman Rick Larson for 
his excellent work fighting for and generating extra resources 
in region, and as well as Senator Maria Cantwell for the 
leadership she's given as she worked through the Senate bill. 
And of course I understand that Sheriff Bill Elfo is in the 
room, a former Border Patrol agent that I know that we would 
have wanted his testimony because he emphasized the 
collaborative efforts that are going on. But let me, as I make 
mention of what we have done, let me suggest that I hold in my 
hand the GAO report, and it is very, very striking. And I just 
want to repeat some language out of the particular report that 
said that ``as they crossed the Washington border, at no time 
did CBP officers question the authenticity of any of these 
agents' identifications. Furthermore, at one of the Washington 
crossings, agents were able to walk across the border without 
passing through any security checkpoints without presenting 
identification.'' From my perspective, that suggests not a 
failure in the hard work of the agents that I came across, but 
the necessity for more resources that we were frankly missing. 
And I just want to put on the record so that--there is a sense 
of unity around the fact that we have to--we need reform. There 
is that sense of unity, but I think it's important to lay the 
facts down, and I hope you gentlemen will be, if you will, 
forthright to lay the facts down on the table. This is not an 
inquisition. We're not trying to extract from you elements that 
will undermine your leadership and your position, but you've 
got to be forthright as we move forward. We know that on every 
measurement, immigration enforcement has fallen significantly 
under this administration. For example, apprehension of 
undocumented individuals at the border has dropped by 31 
percent under President Bush compared to President Clinton's 
record. Something must be going awry. And under the present 
administration, the laws for preventing employers from hiring 
undocumented workers are enforced so rarely that they might as 
well not exist. In 2004, only three employers were fined for 
work site immigration violations. So Mr. Hardy, you know, this 
would be a tough report if I hadn't been to the sites and seen 
the hard work, but one thing that comes to mind, your agents, 
your Border and Customs Protection agents are working 12 to 16 
hours, some of them seven days a week. That has to indicate 
that there is a need for more resources.
    So my question to you is doesn't a lack of sufficient 
manpower and secondary inspections--and I refer to the great 
work of Diana Dean, which wasn't dumb luck. She was an 
outstanding Customs agent inspector. After she questioned Ahmed 
Ressam, the Millenium Bomber, she sent him to secondary, and 
that was an important tool that she utilized--doesn't a lack of 
sufficient manpower and secondary inspection inhibit referrals 
to secondary? What should the ratio between primary and 
secondary inspections be, and why, and what is workload of the 
average Customs Border Protection inspector at the point in--at 
the ports in Washington, and do you need more? And if you say 
``no,'' why are they doing 12 to 16 hour days and working seven 
days a week? To Major General Lowenberg, I'd be interested to 
know--let me just say I appreciate the generosity of 
volunteers, but isn't the National Guard stretched by the Iraq 
War in terms of there even being, if you will, the kind of 
backup that we need? Shouldn't we be having trained Border 
Patrol agents? I yield to Mr. Hardy for his answers and the 
Major General.
    Mr. Hardy. I'll tackle the--
    Ms. Jackson-Lee. And I thank the Chairman.
    Mr. Hardy. --the resources. As we've mentioned CBP's policy 
and what the effect is for us a layered policy, layered 
defense, and that stretches us into many layers. So the 
staffing is not in one place. I have 67 ports of entry. We have 
people working overseas. We have people--
    Ms. Jackson-Lee. Do you lack sufficient manpower, Mr. 
Hardy?
    Mr. Hardy. The manpower, no. We want to do more of 
everything. We want to check more ID's. We want to identify 
citizenship and appropriate it, and we want to do that--
    Ms. Jackson-Lee. So you're lacking manpower; is that yes?
    Mr. Hardy. I will need more manpower, especially as Border 
Patrol between the ports of entry starts interdicting more, or 
we start moving more workers into the legal realm of entering 
the United States. They'll have to come to our ports of entry, 
and yes, we will need more people to resolve those issues.
    Ms. Jackson-Lee. Major General?
    General Lowenberg. As you indicated, we have an extremely 
high operations tempo. We can sustain the high operations tempo 
in Washington and every other state and territory if we are 
properly equipped.
    Ms. Jackson-Lee. I didn't hear that answer, sorry.
    General Lowenberg. If we are properly equipped. Our 80th 
Brigade Combat Unit spent a year in Iraq, has been back now for 
about 16 months, left 60 percent of all their equipment behind 
in theater at the direction of the Department of Defense. So 60 
percent of all of our Humvees, 60 percent of all of our radios, 
60 percent of all of the GPS systems is all unavailable to us 
for and indeterminate period of time. Overall, the authorized 
equipment levels in the Washington's Army National Guard for 
all units is about 34 percent of what we have been authorized, 
and that is representative of the other states around the 
union.
    So the members of this Committee who also serve on the 
Armed Services Committee are well aware of the fact that the 
dilemma for the nation, frankly, to replace the equipment that 
has been expended in Operation Iraqi Freedom and Operation 
Enduring Freedom.
    Ms. Jackson-Lee. Thank you.
    Mr. Lungren. We're starting now to do a second round, but 
we have to have this panel completed at 2:30 so we can proceed 
with the second panel and finish at our appointed time. So--
    Mr. Dicks. What is the time?
    Mr. Lungren. 4:00. We have to be out of the room at 4:00. 
They will escort us out. I see the sheriff's department 
personnel here.
    Anyway, so let me ask you, Mr. Hardy--or excuse me, Chief 
Henley, the Congressional Research Service gave us an idea of 
what the increase was on the northern border, approximately 340 
to a thousand, and you've indicated that you've had a 
significant increase in this area, even though you've also 
suggested you could do more with more.
    The--throughout that time during the increase that's taken 
place since 9/11, border apprehensions remained relatively 
stable on the northern border despite the increased manpower, 
until 2005 when the figures show apprehensions fell by 27 
percent. Now, that's across the entire northern border.
    Can you give us an idea of how we should look at that? Is 
that evidence of the fact that we're doing a better job, that 
we're actually deterring? Is that an anomaly that even though 
we have more personnel, we caught less people because we're 
doing a better job? How do you sort that out for us?
    Mr. Henley. Well, in 2002, we actually tripled our 
resources along the northern border. So that is the number 
you're talking about, 300 and some odd up to a thousand. Since 
that time, we've had three years under our belt of experience. 
Remember that there are no trainees that come to the northern 
border. They all start out at the southern border, and so it's 
a learning curve going from basically flat land on the--on the 
south up to some very harsh territory you're working with. So 
it takes a little while to learn to catch up. And on top of 
that, the Border Patrol has pretty much been relegated to the 
border itself. Our ICE component is starting to take over the 
jails and all that. So we've seen a lot of significant numbers 
out of our jails from the sheriff's department, and we used to 
work King County from--or Whatcom County for that matter when I 
first got up here.
    But what happens is that those numbers are significant and 
that also adds to the drop, but I would say primarily we're 
just getting better to do more with less. We've got a few more 
tools and cameras. We've got a few other things that came 
online. Can't speak for the rest of the northern border. I can 
just speak for our area of responsibility, and it's simply 
getting more familiar with the border and getting better at our 
jobs.
    Mr. Lungren. So you think there is an element of deterrence 
in all of that?
    Mr. Henley. Yes, sir.
    Mr. Lungren. What is the biggest threat that you have right 
now from your perspective on the northern border?
    Mr. Henley. Well, the biggest threat, certainly, is the 
focus on terrorism. We have both. There's no doubt about that. 
I couldn't tell you what's going around me. I can just tell you 
that the efforts that we explained this morning in our 
briefing, that with what we have to work with, I think we're 
going a pretty good job with that.
    If I had more resources, could I expand? I certainly could. 
The same goes for our Air Force, as well as our ICE men, our 
counterparts. And Mr. Hardy's exactly right. If we did staff up 
the Border Patrol between ports, it's going to put tremendous 
pressure on all documentation coming through the port. 
Historically it always does. So--but the biggest threat for us 
is the lack of tools that it takes to really recognize that 
some of the dark areas that we need to be working that we can't 
get to. And so I can't tell you some specific threat, but I can 
tell you that that threat exists.
    Mr. Lungren. Mr. Hardy, I have one minute left on my own 
time here. So in a minute, can you give me an idea of what you 
consider to be the most serious threat facing you and your 
folks on this part of the northern border?
    Mr. Hardy. Obviously I referred to the intrusion by Ahmed 
Ressam, so that indicates terrorism. I always wonder which of 
my officers is going to run into the next one, and we do run 
into people that are on different indices that we need to talk 
to and talk to carefully, and it happens all the time, 
airports, seaports, and on land. So that is our major thrust.
    However, in this part of the woods, we also have a big 
threat with marijuana and Ecstasy coming into the United 
States, and Ecstasy is a huge threat. It's a bunch of pills 
that can be concealed easily inside pockets of doors, and it is 
on the ramping up. We're seeing it in commercial shipments. So 
the narcotics effort is not going away. We still need to 
interdict. And similarly, then the agriculture pests that would 
ruin the economy.
    Honestly, we in the ports of entry, we're working hard to 
develop our expertise on illegal aliens, but I wouldn't say 
it's a lesser threat. It's just that we run across fewer human 
smuggling incidents than we thought.
    Mr. Lungren. Thank you very much. Ms. Sanchez recognized 
for five minutes.
    Ms. Sanchez. Oh, gosh. I wanted first to--I sit on the 
military committees, the Armed Services Committee, as well as 
this Committee in the Congress, and I just wanted to say to the 
Major General thank you for bringing up the fact our equipment 
is all worn out because of Iraq and Afghanistan, not only for 
our National Guard, but our Reserve units, and of course also 
for our active Army. At the rate of $2 billion a week that we 
spend in Iraq, that doesn't take into account what it's going 
to take to replace everything. So it's something that America 
has to realize is sitting out there, and we haven't paid for, 
as well as the fact that we haven't paid for the majority of 
the war so far. We've just sort of put it on a credit card. My 
questions are to you specifically because I'm worried about the 
National Guard as I am with my reservists and my armed 
services. California, as you know, sends the largest number of 
people into the armed forces, and that's also reflective in the 
National Guard and the Reserve units. And 50 percent of the 
rotation in Iraq today is done by National Guard and by 
reservists. And of course, President Bush just held some over. 
They're going to be staying longer in Iraq because of the 
problems that we're having in holding down the Green Zone in 
Baghdad. Some of my guys and gals have spent three tours 
already in Iraq. They're going to be spending some more, 
especially if you're in the healthcare field. They're gone 
almost all the time because of the casualties and things that 
they need to do in Iraq. And I'm going to tell you something. 
They're pretty tired, and their families are even more tired.
    And on top of that now, we've asked them to go to our 
borders and help out there. In fact, the governor of California 
sent a thousand to the border and was asked for another 
thousand by President Bush and he said ``no.'' So you have made 
a comment where you said you can sustain what you're doing and 
all the other states can with respect to the National Guard. 
That was one of the comments you made. I'll just say that this 
governor of California I think would disagree with you. He said 
no to that deployment of his troops. So my real question to you 
are concerns about our National Guard, about what's going on. 
What is the Guard doing to help secure the border and to reduce 
illegal border activity? And do you think that it's the--that 
border security is an appropriate role for the National Guard, 
or do you really think they should be concentrated on the 
future Hurricane Katrinas, possible earthquakes, et cetera, or 
do you really think that after coming back from two or three 
duty tours in Iraq, we should be sending them not for two 
weeks, as the President originally said, but for six months or 
eight-month stints at the borders?
    Can you comment on that? Should that really be a task of 
our National Guard? Because I'm worried.
    General Lowenberg. I don't think there are many people that 
I work with, in or out of the Pentagon, in or out of the active 
or reserve components that would view the use of the National 
Guard as a steady state augmenting for the other federal 
agencies. I think we have to recognize that the reason the 
National Guard was tasked for this Operation Jump Start mission 
was to help provide for Customs and Border Protection while 
they brought more agents on to make sure that CBP became right-
sized and properly resourced. And as soon as that's done, the 
National Guard should be released because that should not be a 
standing mission of the National Guard.
    Ms. Sanchez. What are they doing right now because, you 
know, there's been a lot of hoopla, and of course, sitting on 
the military committee, I know, but I would like this to be in 
the testimony, what are they doing? Are they carrying guns? Are 
they--are we militarizing the border? What are they doing? And 
why is that just a stop gap until we actually fund more agents 
so that we can train them so that they can correctly be 
handling the border for us?
    General Lowenberg. In the interagency, Department of 
Defense and the Department of Homeland Security, they are doing 
missions that are requested and validated by the customs and 
Border Protection agents of the DHS. So they are doing 
functions that would either have had to be performed by 
commissioned CBP agents or perhaps by contractors hired by CBP. 
And so for every CBP agent that we can release with the kind of 
field duties that only be performed properly by someone with 
that arrest authority, that does provide the sanction of the 
response capabilities of CBP.
    Ms. Sanchez. And do you think in your state or in other 
states, I already mentioned that our governor saw it in 
California, mission pressure on our National Guard people?
    General Lowenberg. Without a doubt. It's just reflective of 
the scope of the age for all of our military forces to include 
the National Guard.
    Ms. Sanchez. Thank you Major General. Thank you Mr. 
Chairman.
    Mr. Lungren. Chairman Reichert?
    Mr. Reichert. Thank you, Mr. Chairman. You know, it's been 
my experience that solutions to protecting all of the 
communities come from local community, people who live here 
will come up with solutions to address the issues that are 
facing this community, and sometimes the federal government 
gets in the way. I discovered that as the sheriff in many 
instances in my 33-year career, and in my short life here in 
Washington D.C., traveling back and forth, I discovered 
sometimes we can get in the way from this perspective.
    So I always have to chuckle when I say ``we're from the 
federal government, and we're here to help'' because I remember 
my reaction as the sheriff and as a detective when the federal 
government came to help us.
    So, you know, we do want to help, but we help in a way 
that's a very high level support assistance. And I just have--
as you're developing solutions and working together to protect 
the northwest part of our country, your community. And working 
with the Canadian government on a local level, also, we know 
you need Canadian federal government help and need the United 
States federal government help in coming up with international 
solutions. Resources are an integral part of trying to find a 
solution to the problems you're trying to address, but also 
technology, I saw this in my sheriff's career. My question to 
you is what--what do you see is the future of border security, 
securing the US-Canadian border, and keeping our ability to 
trade, and keeping our economy strong, our friendship strong 
between the US government and the Canadian--US people and 
Canadian people, what is the future? It's not about hiring 
50,000 Border Patrol.
    What do you see as your tools in the future to protect this 
country?
    Mr. Henley. Would you like me to take that on?
    Mr. Reichert. All three of you.
    Mr. Henley. I think you're right that I'm not so sure I 
couldn't tell you today how many Border Patrol agents I 
actually need to secure my portion of the border. I can tell 
you what's worked in the past with a very few numbers and the 
tools it takes electronically and high-tech tools. The UAV, 
certainly, in my view is something that we need to look at 
seriously. Low tech, as you saw today, in the drive-throughs at 
the Canadian borders is pretty wide open in some locations. We 
have about 11 miles that anybody with a Volkswagen could come 
across it. So we're in the process of obtaining infrastructure 
that is helping us curb that. My worst fear is to have a high-
speed chase down a school zone down in Bellingham. I've 
experienced some of that down in Southern California, and I 
really don't want to start that process up here.
    So the technology of it, it's got to augment the human 
resources. Today people say to the CBP air we'll give you all 
the support you need. I say absolutely, but can I support CBP 
air the way I need to because of the limited amount of 
resources? It doesn't do any good to see something on top the 
Cascades if I can't respond to it. So--
    Mr. Reichert. Are you part of WAGAT? (Phonetic.)
    Mr. Henley. We're working on that process.
    Mr. Reichert. How about JTTF?
    Mr. Henley. We're a part of that.
    Mr. Reichert. What about the Homeland Security's 
integration initiative, have you entered into discussions 
because the Northwest is one of four across the country 
selected?
    Mr. Henley. Well, the connectivity part of it all is very 
difficult for us in that terrain. So we do have--we've been 
working on that process now for about seven years, and we 
haven't bridged the gap.
    Mr. Reichert. Okay. I guess--I think there's some 
initiatives out there that could help you augment the current 
resources that you have, and I'd be happy to help you get 
connected to some of those.
    Mr. Henley. Well, Chairman, we find a way to communicate if 
it's by tin cans, but we find a way to communicate.
    Mr. Reichert. I've been there. Thank you.
    Mr. Lungren. Thank you. Mr. Dicks, we recognize you for 
five minutes.
    Mr. Dicks. In the December of 2005 report on A Review 
Remote Surveillance Technology Along US Land Borders, the 
Department's IG office stated that programs like ICE and ASI 
have received more that $429 million since 1997, and they 
continue to face significant problems. On the northern border, 
cameras and sensors are not linked in any automated fashion. 
Sensors are incapable of distinguishing between animals and 
humans. Systems components are highly vulnerable to 
malfunctions caused by temperature and weather conditions, and 
now the Department is talking about a new program called SBI 
Net, and that's a $2 billion contract. My question is how can--
you know, can we do better on this? I mean can we fix these 
initial problems? I mean this received a lot of press 
attention, and you know, there's this--we hope that the money 
we spend, this is a lot of money, will actually be of a benefit 
to you in doing your job. What can you tell us about this?
    Mr. Henley. Congressman, the camera system that you refer 
to did have problems, and I can say that we've rectified the 
vast majority of them. When a camera goes down, it comes off 
the pole. We send it to a location, and then we're at the mercy 
of when he fixes it and brings it back. But I will say the 
temperature changes in those cameras was a real problem. They 
are not linked to sensors. When a sensor goes off, still takes 
a camera operator to move that dispatcher who has other duties. 
So can we do better? Absolutely. And should we do better? Yes, 
sir.
    Mr. Dicks. Do you think this new programs, SBI Net, is 
going to be the answer?
    Mr. Henley. I can tell you they're bringing some pretty 
high-powered folks in on that for contracts, and I don't know 
who holds it, if we got the contract and if it's been decided, 
but I can tell you that it will link up the entire--both 
borders from sea to sea. So I can tell you that's one of the 
main goals for SBI Net was so everybody had the same 
operability.
    Mr. Dicks. I noticed that the operators yesterday were very 
high on this ACE program. They also said that that was going to 
be augmented or improved, you know, when they reviewed the 
people coming through in the trucks. Mr. Hardy, this seems to 
be a very positive system because it brings all of the 
information into one system?
    Mr. Hardy. You're absolutely right. We've--one query other 
than five queries, instead of toggling from screen to screen, 
those are the kinds of things that we were looking for to save 
time and also give the best answers. And they've got to come 
up, they've got a query, and they've got to come back for one 
answer, not a couple of answers.
    Mr. Dicks. Don't have to go to--you've got all of these 
different systems rather than having one system provide the 
answer? Mr. Hardy. That's exactly right.
    Mr. Dicks. Now, General, you're the top person in the state 
for the Governor on Homeland Security. You did the same job for 
Governor Locke. Now, when you look at this problem on the 
northern border, what--what are your concerns? I mean obviously 
you're a person with a lot of experience. What do you see as 
the, things you worry about?
    General Lowenberg. Well, I worry about the issues that have 
been raised, and frankly Mr. Henley and Mr. Hardy raise on a 
daily basis because border security is a principal function of 
the central federal government, not that of a border state. And 
yet if there is any gap in the ability for them to execute 
their mission, then there was a need in fact on the local 
jurisdiction. And so frankly that's what I worry about, and 
that's why we stay in constant communication.
    Mr. Dicks. I was extremely impressed with the aviation 
program that you put into place and going after these people 
who were audacious enough to do interviews in Playboy magazine 
kind of challenging the manhood of our Border Patrol.
    Mr. Lungren. He's no longer doing that.
    Mr. Dicks. No. He's now in jail. So I mean I guess whoever 
laughs last laughs best, but that's an aggressive program. But 
what I was most impressed about was here you have good 
intelligence. You're working with the Canadian authorities. 
You're working with the Washington State Patrol. It was good 
see them arresting and pulling over a number of these people. 
Now, that's an example, I think, of a good partnership between 
all of these different authorities.
    Mr. Henley. Congressman, I'll say that it is a top-notch 
air wing, top-notch pilots, and I can tell you that to me, 
that's the tie that binds all these indices because it's not 
only ICE and Border Patrol they support, if the local sheriff's 
department needs a search and rescue while we have a high speed 
failure to yield down I-5 going someplace, that's when 
airplanes are up within eight minutes, and we support--so it's 
been a tremendous tool for us. It's the tie that binds, in my 
view.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Lungren. The gentlelady from Texas is recognized for 
five minutes.
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman. You 
want to hear about practical solutions, as well, and I'm 
probing you so that we can work on practical solutions. While I 
do, that Mr. Chairman, I'd ask unanimous consent to submit into 
the record statements of Mark S. Hansen, Evangelical Lutherans 
Call for Fair and Just Immigration Reform.
    Mr. Lungren. Without objection.
    Ms. Jackson-Lee. And I ask to put a statement by Rosalinda 
Guillen and Pramila Jayapal on Defending Democracy in Regard to 
Community Immigration Hearings.
    Mr. Lungren. Without objection.
    Ms. Jackson-Lee. The practical aspect of what our response 
should be, again, has been my theme, targeted resources. So I 
want to share with you the example of Martin Sabo, representing 
the minority of Democrats in Minnesota, which really captures 
what the Democrats are focussing on, practical solutions.
    It was a $600 million budget item. It obviously was 
different from the President's submission, which would include 
$400 million for installation of 1,500 radiation border 
monitors at locations along the borders, plural; 200 million 
for additional air patrols and other aviation assets at our 
land borders. Mr. Henley, you have an excellent team, but we 
understand that they're doing miracles with limited assets, 
particularly aviation assets. And so that's a practical 
response, not resources scattered with no good intentions, but 
focussed targeted resources, and obviously the information 
regarding the installation of radiation portal monitors also 
would require human participation, but it also gives you sort 
of a widespread of information.
    So I wanted--I share that with you, and I'm going to ask 
some questions. I want to go back to Mr. Hardy again, and I'm 
going to ask all the questions and then hopefully get the 
answers. You didn't answer what should be the ratio between 
primary and secondary inspections and also comment on the, if 
you will, overtime that has to be utilized because we are 
shorthanded by the Customs and Border Protection. And again, as 
I said, effective darn good law enforcement, but we've got to 
get on the fact that--the facts about what we need.
    The other question I asked is what is the workload of the 
average CBP inspector at the ports in Washington, and do you 
need more inspectors specifically? Mr. Henley, I'm interested--
we work with sheriffs all over the country, and we've heard a 
lot from our southern border sheriffs, but we understand that 
there may be some challenges with respect to information 
sharing, and I don't know if it comes from the top, but we'd 
like to know how the Border Patrol agents in the field train--
are trained about information sharing, and what would your 
response be to a northern border sheriff who would like more 
border intelligence from the CB--from the Border Patrol agents, 
and what concerns do you have about sharing information with 
local law enforcement? Is there anything we can do to be of 
help to you on that? Major General, if you would, again, it 
might sound like I'm asking the question again, but I think it 
needs to be clear. You've got 60 percent of your equipment in 
theater, if you will, in Iraq. Only 34 percent, as I understand 
it, on the ground. And what impact that has, if, for example 
you were called up to a Washington State crisis, and why you 
raised the question about using those resources, and I'm--I'm 
very glad--and let me congratulate your governor because she's 
using creativity and volunteers, but at the same time, I think 
it's important to note you're not on the front lines at the 
border. You're sort of in the backdrop, and we don't want to 
say ``babysitting'' because we think your work is outstanding, 
and we appreciate it.
    But really, if a crisis was called up, the question is 
you've got to take care of this state. You've got to be where 
we wanted the National Guard to be in Louisiana, and they were 
not there. They are certainly doing their duty, but they are 
not there, and I think if you give us that kind of answer. And 
then lastly to Mr. Henley, you've had a hard time of retention 
and recruitment. Would an increase in your status from a GS11, 
GS13 help you? Would college incentives, would scholarships to 
give a two-year time to Border Patrol if you gave scholarships, 
and lastly, would you welcome foreign language training, as 
well, as incentive to keep your agents? And Mr. Hardy--
    Mr. Lungren. Gentlemen, we have 30 seconds for you to 
answer that, and so you can answer the best you can and then 
submit the rest for the record, please.
    Mr. Hardy. I'm going to have to submit it to the record. 
But on ratios and overtime are response to risk in each 
particular location.
    Mr. Henley. In a nutshell, anything we can do for 
retention, I will say that we lose most of our troops to the 
academy rather than agents, so less than 5 percent which beats 
any--any corporation.
    Ms. Jackson-Lee. Major General?
    General Lowenberg. Equipment and material, our ability to 
respond to a state emergency, that's why we coordinate on a 
weekly basis with Oregon, Idaho, and Montana to determine what 
their depleted stocks are so we can hopefully have them 
continue the operation based on a regional response. Thank you.
    Ms. Jackson-Lee. And Chairman, if you'll indulge me for ten 
seconds, let me just thank the gentlemen. It's very difficult 
if we're getting muffled answers and not getting what will be 
helpful to you. And I think, Mr. Hardy, you need to write a 
very detailed report. I've asked you two times, and I've yet to 
get answers to these questions, and it's very important for us 
to be helpful in a bipartisan collaborative manner to get 
direct, forthright answers from the individuals on the ground. 
Let me thank you gentlemen very much.
    Mr. Lungren. I'd like to thank all three of you. You've 
given us excellent testimony. We've had an opportunity to speak 
with you all, so--and you've helped us very much in our pursuit 
of trying to help us come up with some solutions from a 
legislative standpoint. So thank you very much.
    Mr. Lungren. I would like to now call up the second panel 
Mr. Dale Brandland, Mr. Collacott, Mr. Harris, Mr. Riley, and 
Mr. Johnson. I will remind the members of the panel that your 
entire written statement submitted will appear in the record. 
We would ask you to strive to limit your own testimony to no 
more than five minutes so that we can have sufficient time for 
questions. Thank you all for coming. We appreciate the time and 
attention that you've given to this request for your testimony.
    On our second panel, we will have the opportunity to hear 
from, first, the Honorable Dale Brandland, senator from 
Washington State. Senator Brandland was the Whatcom County 
sheriff from 1992 to 2003, and prior to that was a Bellingham 
police officer, past president of the Washington State Sheriffs 
and Police Chiefs Association; Ambassador Martin Collacott, who 
formerly served as Canada's High Commissioner to Sri Lanka and 
Ambassador to Syria and Lebanon; Mr. David Harris, Senior 
Fellow for National Security, Canadian Coalition for 
Democracies and a former chief of strategic planning of the 
Canadian Security Intelligence Service; Mr. Jack Riley, 
director for Homeland Security Center at the Rand Corporation 
and is someone who has written extensively on this subject; and 
Officer Gregory Johnson, president of Chapter 164, National 
Treasury Employees Union. I thank all of you for your 
testimony, and at this time, I would invite Senator Brandland 
to begin.

  STATEMENT OF DALE BRANDLAND, WASHINGTON STATE SENATOR, 42ND 
                      LEGISLATIVE DISTRICT

    Mr. Brandland. Thank you, Mr. Chair, and I'd like to thank 
Chairman Lungren and Chairman Reichert, members of the 
Committee. I would like to thank you for inviting me to testify 
before this Committee.
    My name is Dale Brandland, and I'm a senator for the 42nd 
District, which includes the northern part of Whatcom County at 
our northern border of Canada. As you mentioned, I was the 
former sheriff of this county, and was for the past--for 11 
years. I'm actually going to hit on three particular topics 
dealing with cooperation amongst agencies and interoperability, 
which has actually been touched on just briefly. I just want to 
spend a little bit more time talking about the infrastructure 
that we have been kind of alluding to, and finally mention 
secure identification.
    First of all, cooperation and interoperability, given our 
proximity to the Canadian border, Whatcom County has a large 
presence of federal agencies, as you all know. Historically 
Whatcom County has always enjoyed a good relationship with 
these agencies and their personnel. We have also formed 
relationships with our counterparts in Canada. People involved 
in criminal activity in our border are being investigated by 
agencies on both sides of our border. Cooperation and 
information is the norm for our county.
    The cities of Lynden, Sumas, Blaine are all dispatched by 
US Border Patrol. Most agencies carry scanners in their 
vehicles and monitor each others frequencies so that they 
respond and help in cases of emergency. As a matter of fact, US 
Border Patrol has apprehended homicide suspects for the Whatcom 
County sheriff's office.
    This voluntary cooperative spirit between the agencies is 
one of the keys to the successes of all of our agencies. That 
being said, it doesn't illustrate one of our fundamental flaws, 
and it is always the number one issue as we--that we deal with 
as we go through major incidents. Our personnel do have the 
ability to listen to radio traffic and other frequencies, but 
they do not have the ability to talk to one another. In Whatcom 
County, multiple agencies operate on multiple frequencies, and 
I think if you look at my testimony, I actually listed a number 
of those agencies, and the fact that which ones operate on--on 
their own frequencies. I don't think this--and as you all know, 
especially this Committee knows, this is certainly not unique 
to Whatcom County. I would like to thank specifically Chairman 
Reichert and the members of the Committee for the passage of 
the 21st Century Emergency Communications Act. I believe that 
until this country comes to grip with the issue of 
interoperability and creates seamless ways for law enforcement 
personnel to talk to one another and with fire, public works, 
emergency management and their command posts, we will continue 
to see needless loss of life and property damage during major 
disasters. I'd also now like to talk a little bit about 
infrastructure. When I stepped out of the room for a little 
bit, I heard all of you mention the fact that you would like to 
see additional manpower on the Canadian border. I'm sorry, but 
I may have missed someone mentioning that there is no 
infrastructure to support that.
    Representatives of--I'm sorry, in 1999, I testified before 
the House Judiciary Committee Subcommittee on Immigration and 
claims about the manpower shortage that we were experiencing at 
that time, specifically with the Border Patrol and the porous 
nature of our northern border. Since that time, we've seen 
dramatic changes addressing those issues. Agencies have 
consolidated, we have seen more manpower, we have--we now have 
an air wing that you have had an opportunity to look at, and it 
is obviously getting more and more difficult to cross our 
border. I cannot tell you the number of cases that are 
generated by our federal agencies, but I can tell you that most 
of them are handled at the local level. Most federal cases are 
taken to the US Attorneys Office in Seattle, and they are 
declined. This means that they will not prosecute the case. The 
case is then referred to our local authorities for prosecution. 
It is handled by our prosecutor, public defender, processed in 
our courts, and eventually those convicted are housed in the 
Whatcom County Jail or sent to the Washington State Department 
of Corrections. If we do not handle these cases, they will not 
be prosecuted. The costs associated with prosecuting border 
related cases for Whatcom County is estimated cases to be over 
$2 million annually, and I don't know the fiscal impact of the 
State of Washington for housing people in the Department of 
Corrections, but I can tell you that the costs of incarceration 
are incredibly high. There has been an improvement in this 
area. When I testified in 1999, it was estimated that we 
prosecuted over 85 percent of all cases generated by federal 
agencies. Estimates now put that number at between 60 and 70 
percent. Part of the reason for that decline is the US 
Attorneys Office in Seattle and their aggressive efforts to 
help us. Unfortunately, it is my understanding that they are 
experiencing budget cuts, and we may not be able to see that 
same level of support in the future. Whatcom County has also 
been the recipient of a grant that focuses on fast-tracking 
people through the criminal justice system. It has been 
successful, but we are unsure about future funding. The 
developments at the US Attorneys Office and the uncertainty of 
future for Byrne grants has everyone in Whatcom County 
concerned. Our courts are clogged with criminal cases and our 
jails overcrowded, and we are quite frankly running out of 
options, and those I can summarize briefly.
    Mr. Lungren. 40 seconds.
    Mr. Brandland. The criminal justice system is just that. 
It's a system. The system begins with an arrest. It does not 
end there. It's a system that requires balance. Overloading one 
part throws the rest of the system out of balance. I applaud 
the decision to hire more federal agents, but if we don't 
support and fund the rest of the system to prosecute border 
criminals and hold them in custody, we are only making marginal 
gains. In effect, we have only increased the already overloaded 
burden on the criminal justice system at the local level. Thank 
you very much. I would refer you to my testimony on secure 
identification for the remainder of my statement.
    [The statement of Mr. Brandland follows:]

               Prepared Statement of Hon. Dale Brandland

    Chairman Lungren, Chairman (Sheriff) Reichert, members of the 
committee, I would like to thank you for inviting me to testify before 
your committee. My name is Dale Brandland and I am the state senator 
representing our 42nd district, which includes the northern part of 
Whatcom County and our northern border with Canada.
    Prior to my being elected to the state senate, I was the sheriff of 
Whatcom County and held that position for 11 years. My understanding of 
this hearing is that the committee is looking for an assessment of 
risks at the northern border and the infrastructure necessary to 
address those risks. I would like to address several points and they 
are: Cooperation among all agencies and Interoperability, 
Infrastructure and Secure Identification.

Cooperation and Interoperability
    Due to our proximity to the Canadian border, Whatcom County has a 
large presence of federal agencies that deal with the legal entry of 
goods and people into the United States. They also play a very large 
role in controlling the illegal entry of goods, drugs and people into 
our country. Historically, Whatcom County has always enjoyed good 
working relationships with these agencies and their personnel. We have 
also formed relationships with our counterparts in Canada. People 
involved in criminal activity on our border, are being investigated by 
agents on both sides of our border. Cooperation and information sharing 
is the norm in our county. The cities of Lynden, Sumas and Blaine are 
actually dispatched from the US Border Patrol Office in Blaine. Most 
agencies carry scanners in their vehicles and monitor each others 
frequencies so that they can respond and help in cases of emergencies. 
This voluntary cooperative spirit between agencies is one of the keys 
to the success of all of our agencies.
    That being said, it does illustrate one of our fundamental flaws 
and it is always the number one issue we deal with when we have a major 
incident. Our personnel do have the ability to listen to radio traffic 
on other frequencies but they do not have the ability to talk to one 
another. In Whatcom County multiple agencies operate on multiple 
frequencies. Blaine, Lynden and Sumas share a frequency with the Border 
Patrol. The Sheriff's Office shares a frequency with Ferndale and 
Everson. Lummi Law and Order uses a different frequency. All fire units 
share a separate frequency. Western Washington University has its own 
dispatch center and frequency. The Bellingham Police Dept has its own 
frequency and the state patrol has its own frequency. If the National 
Guard is activated it will bring its own radio equipment and its own 
frequency. And yes, other federal agencies have their own frequencies. 
As you know, this is not unique to Whatcom County.
    Mr. Chair I would like to thank you and the other members of this 
committee for passing the 21st Century Emergency Communications Act of 
2006. Until this country comes to grips with the issue of 
interoperability and creates seamless ways for law enforcement 
personnel to talk to one another and with fire, public works, emergency 
management and their command posts, we will continue to see needless 
loss of life and property damage during major disasters.

Infrastructure
    Representatives of the federal agencies are better able to speak to 
the issue of the `assessment of risk' and the problems associated with 
accomplishing their mission. I would like to speak to you about the 
infrastructure necessary to address those risks.
    In 1999, I testified before The House Judiciary Committee's 
Subcommittee on Immigration and Claims about the manpower shortage we 
were experiencing, specifically with the Border Patrol and the porous 
nature of our northern border. Since that time we have seen dramatic 
changes addressing those issues. Agencies have consolidated. We have 
more manpower at our border. We have an air wing that uses state of the 
art technology to apprehend illegal immigrants and drug smugglers and 
it is becoming increasingly difficult to enter our country illegally.
    I cannot tell you the number of cases that are generated by our 
federal agencies but I can tell you that most of them are handled at 
the local level. Most federal cases taken to the U.S. Attorney's office 
in Seattle are declined. This means that they will not prosecute the 
case. The case is then referred to our local agencies for prosecution. 
It is handled by our prosecutor and public defender, processed in our 
courts and eventually, those convicted, are housed in the Whatcom 
County Jail or sent to the state Department of Corrections. If we do 
not handle these cases they would not be prosecuted. The cost 
associated with processing border related cases, for Whatcom County, is 
estimated to be over $2 million annually. I do not know the financial 
impact to our state's Department of Corrections but considering the 
cost of incarceration, I know it is a lot of money.
    There has been improvement in this area. When I testified in 1999 
it was estimated that we prosecuted 85% of all cases generated by 
federal agencies. Estimates today now put that number at between 60-
70%. Part of the reason for that decline is the U.S. Attorney's Office 
in Seattle and their aggressive efforts to help us. Unfortunately, I 
hear that recent (budget?) cuts at the U.S. Attorney's Office will 
severely impact to its ability to prosecute cases at current levels. 
Whatcom County has also been the recipient of a Byrne Grant that 
focuses on fast tracking people through the criminal justice system. It 
has been successful but we are unsure about future funding. The 
developments at the US Attorney's Office and the uncertainty of future 
funding from Byrne grants has everyone concerned. Our courts are 
clogged with criminal cases and our jail is overcrowded. We are running 
out of options.
    The criminal justice system is just that, a system. The system 
begins with an arrest, but it does not end there. It is a system that 
requires balance. Overloading one part throws the rest of the system 
out of balance. I applaud the decision to hire more federal agents, but 
if we don't support and fund the rest of the system to prosecute border 
criminals and hold them in custody, we are only making marginal gains. 
In effect, we only increase the load for the already-overburdened 
criminal justice system at the local level.

Secure Identification
    Lastly, I would like to comment on identification needed to cross 
the border. I personally feel that there needs to be a safe, reliable 
and efficient way to move people back and forth across the border. As 
the nation moves into discussion about a uniform document for crossing 
the border, I believe the primary concern should be making sure that we 
have a secure, tamper-proof document that follows a uniform standard.
    A secure ID is tamper proof and has a high level of reliability. 
For example, Washington State moved to make our driver's licenses more 
secure three years ago when the legislature passed a bill that 
incorporated a biometric identifier in the driver's license. Shortly 
after we passed our law, Congress passed the Real ID Act. We have 
postponed the implementation of our system until the standards of the 
Real ID Act are implemented. I believe it is time to use technology to 
protect peoples privacy and not intrude into it.
    In anticipation of the 2010 Olympics in Vancouver, the State of 
Washington and the Province of British Columbia are working at 
developing uniform standards for the issuance of driver's licenses. 
Both jurisdictions understand that the driver's license is the most 
common form of ID used today. It is an ideal time to develop a pilot 
program with our two countries that takes full advantage of current 
technology and develops an ID system that is secure, affordable and 
workable for both our nations, as we struggle with the issue of 
national security. In Whatcom County, we understand the importance of 
national security but we also value the importance of allowing honest 
citizens to flow back and forth across our border.

    Mr. Lungren. Thank you very much. Ambassador Collacott?

   STATEMENT OF MARTIN COLLACOTT, SENIOR FELLOW FOR NATIONAL 
          SECURITY, CANADIAN COALITION FOR DEMORACIES

    Mr. Collacott. Thank you, Mr. Chairman. I might mention 
that in addition to having served as ambassador from Canada to 
various countries, I was also at--headquartered assignments 
which included coordination of counterterrorism policy at the 
U.S. State Department, as well as diplomatic security and a few 
other things, and now I'm currently a senior fellow at the 
Fraser Institute, a think tank in Vancouver, where I 
concentrate on immigration and refugee policy and related 
terrorism issues.
    I realize that these committees deal with a range of 
issues, including things like critical infrastructure, 
emergency preparedness planning. I'm just going to deal with 
immigration and what I call refugee, in US terms, asylum 
policy, relating to our terrorists get into Canada and whether 
we're doing a good enough job of dealing with them. I'll 
mention quickly, first of all, some of the positive steps our 
government's taken and then go into some of the problems. On 
the positive side, soon after 9/11, we sent troops to 
Afghanistan. They're still there, and we passed 
counterterrorism legislation, including prevention of terrorist 
fundraising, and we gave a lot of additional funding to the 
Canadian Security Intelligence Service, CSIS, and the RCMP, 
Royal Canadian Mounted Police, as well as the armed forces and 
border security agencies, and these organizations are now 
working together much better than in the past.
    And we demonstrated this when we arrested 17 suspected 
terrorists in early June. We have, I think, very good--always 
have had, but even better cooperation than ever with the US 
agencies, and that's been mentioned quite a bit already. I 
won't go into that. And our new government, which was elected 
in January, has been much tougher in certain respects than the 
previous one. For several years, the previous government 
refused, for instance, to declare Hezbollah a terrorist 
agency--group, and they were finally pressured by the party now 
in power to be declared a terrorist group. They never would 
declare the Liberation Tigers of Tamil Eelum a terrorist group, 
but the new government did that fairly smartly after they came 
into office. So this is encouraging. I'll turn to what's come 
of the problems and challenges are, though, in terms of our 
immigration policy, and I'm going to, in part, because in my 
paper that I had released in February on our response to 
terrorism, I cited various American sources to show that the 
United States are very concerned about these policies. The 
State Department reports, like the Congress reports, 
organizations like the Center For Strategic and International 
Studies, Center for Immigration Studies, a quick snapshot of 
our immigration program, we had the highest per capita intake 
in the world. Even if you include the legal immigration in the 
US, ours would still be substantially higher than America's. I 
think our legal intake is more than twice as high as yours.
    Accompanying this, though, has been a sharp decline in 
economic performance in the last two and a half decades, and a 
major increase in poverty level, and partly because until 20 
years ago, our immigration levels were determined largely by 
the state of our economy and our absorptive capacity. It's 
been--since then it's been driven mainly by political 
considerations, and we don't always have the resources to 
process these high numbers. The deputy director of CSIS 
testified before a committee, a senate committee at the end of 
May that their organization was only able to do security 
screening for 10 percent of the tens of thousands that have 
come from the Afghan/Pakistan region to Canada in the last six 
years. One of our problems is we, unlike you in the States, we 
have immigration quotas and limits each year. We have targets, 
and if twice as many people apply, they qualify. We're obliged 
to take them. So the present government not only has the 
highest immigration levels per capita in the world, but it's 
got a backlog of three-quarters of a million that it is obliged 
to accept. So our levels are likely to get higher. One place 
where they've held the line is on giving amnesty to illegals. 
We've found in the past that's almost always a disaster because 
if we do it, you're going to get a lot more people coming in as 
illegals and the expectations of the amnesties.
    Now, one of the results of this very rapid and massive 
increase is the number of visible minority neighborhoods, which 
is almost always recent immigrants, rose in 1980 of 6 to 254 in 
2005.
    And when Ahmed Ressam, the Millenium bomber, has been 
mentioned by several people, he was able to operate in a very 
large North African/Middle Eastern Muslim community in 
Montreal. And without being spotted, he illegally obtained a 
passport, went back for bomb construction training in 
Afghanistan, got caught finally. The Canadian authorities lost 
track of him, and he was eventually caught rack by an alert 
Customs official in Port Angeles, US Customs. I would think 
we're now doing a much better of tracking these people than we 
had before.
    The Muslim community, I mention them because while we have 
probably more terrorists centrified in the Tamil community, 
they hold perhaps the greatest danger to Canadians and perhaps 
Americans because they more or less target them. That 
particular community developed from 100,000 in 1980 to 750,000 
in 2005, and while it's assumed most of the--
    Mr. Lungren. Wrap up in 30 seconds, please.
    Mr. Collacott. All right, and I will finish quickly. I was 
going to mention a couple other areas. We also have large 
problems with the refugee system. My own prescription would be 
for Canada and the US to work together to have a common 
security agreement. That would take a lot of give and take, but 
we want, as Canadians, to it keep the border open and keep free 
movement of people. And one argument, and I'll just mention 
that some people who are opposed to this kind of thing, and I 
don't think Canada is, but how can the Americans be serious 
about their border with Canada security-wise when they're very 
ambivalent about controlling the border in Mexico? And this 
tends to affect the debate in Canada to some extent. So it 
would make my job, someone who thinks we should be more 
conscious of border security, much easier if you had a more 
concerted attitude around your southern border, which is none 
of our direct business, but it does affect the debate. I'll 
stop there, Mr. Chairman.
    [The statement of Mr. Collacott follows:]

                 Prepared Statement of Martin Collacott

    Mr. Chairman, I am speaking here today as a Canadian and will talk 
about issues of border security from the perspective of what I believe 
to be in the best interests of my country. In doing so I will refer to 
various measures Canada has taken to strengthen its security with 
regard to the threat posed by international terrorism. I will also 
mention some of the challenges faced by our government in responding to 
these threats. I outlined many of the problems that Canada has to 
contend with in a paper released earlier this year entitled Canada's 
Inadequate Response to Terrorism: The Need for Policy Reform. I should 
note, in this respect, that the paper was completed prior to the 
Canadian federal election in January which resulted in a new government 
taking office, and that I am pleased to say that the new government has 
demonstrated a greater commitment and determination to deal with the 
threat of terrorism than did its predecessor. As I will point out, 
however, much remains to be done.

Positive measures taken by Canada in the fight against terrorism
    Without enumerating all of the positive measures taken by the 
Canadian governments since the events of 9/11, I will mention briefly 
some of the more important. These include the decision to send a 
contingent of troops to Afghanistan. They have been there for some time 
already and will remain there. They are in the forefront of the fight 
against the Taliban and al-Qaeda.
    In addition, we passed counterterrorism legislation including 
measures to prevent terrorist fundraising. We have significantly 
increased funding for the Canadian Security Intelligence Service (CSIS) 
and Royal Canadian Mounted Police (RCMP) to enable them to strengthen 
their capacity for identifying, monitoring and prosecuting terrorists. 
This led inter alia to the arrest of 17 terrorist suspects in Ontario 
in early June and the revelation by the RCMP that it had earlier broken 
up at least a dozen terrorist groups in the previous two years.
    Other important developments are that the RCMP, CSIS and other 
government agencies in Canada are now working more closely than ever 
before to coordinate their efforts in the fight against terrorism. They 
are also committed to maintaining close cooperation with their American 
counterparts, an example of which was the decision to expand the 
operations of the joint Canada-USA Integrated Border Enforcement Teams 
(IBETs).
    One of the most noteworthy indications that our recently elected 
government is serious about cracking down on terrorists and their 
supporters was the decision in April to designate the Liberation Tigers 
of Tigers of Tamil Eelam (LTTE) as a terrorist group Despite the fact 
that that the LTTE is one of the most ruthless and brutal terrorist 
organizations in the world, the previous government had refused to add 
the LTTE to the list despite three recommendations to do so by CSIS. 
The new government, in contrast, wasted little time after coming to 
office in naming the LTTE as a terrorist group as well as taking action 
against its various front organizations. I might add that the previous 
government had also been reluctant for a long time to place Hezbollah 
on the terrorist list and finally did so only after sustained pressure 
from the party that now forms the government.

Continuing challenges
    In turning to the areas where there remains a need for major 
improvements in securing the security of Canada, I am going to 
concentrate on those that relate to how terrorists and their supporters 
have came to be present on our soil and are able to prolong their stay 
since these are issues that fall within the ambit of the policy areas I 
focus on. There are, of course, other important considerations that you 
address such as protection of critical infrastructure and emergency 
preparedness planning that I will not attempt to cover in my comments.
    One of the greatest challenges for Canada in relation to the 
preventing terrorists from establishing themselves in our country is 
the size of our immigration program. Canada has the highest rate of 
immigration in the world in relation to the size of its population--
more than twice that of the United States. If estimates of the number 
of illegal migrants who enter our two countries are also factored in, 
the margin might be slightly smaller--but the rate of intake in Canada 
would still be substantially higher on a per capita basis than that for 
the U.S.
    An important difference between the Canadian and American 
immigration programs is that, while yours is organized largely around 
quotas that place a limit on annual inflow, ours are based on targets 
and, if the number of applicants who meet our requirements vastly 
exceeds the targets, we are still obliged to accept them, along with 
the expectation they will be allowed to come to Canada without too much 
delay. Our new government has, in the event, inherited a backlog of 
more than three quarters of a million successful applicants who were 
approved before it came to office (equivalent to about seven million 
people in the case of the United States) and which it is now obliged to 
allow to come to Canada for permanent settlement. In the circumstances, 
therefore, that immigration numbers are likely to reach even higher 
levels in coming years in an effort to reduce this backlog.
    Added to these very large numbers is the fact that for the past 25 
years there has been a serious decline in the economic performance of 
newcomers. Their earnings are significantly lower than those who 
arrived before 1980 as well as people born in Canada. Accompanying this 
decline has been a rise in poverty levels among newcomers, which used 
to be roughly the same as native-born Canadians, but are now more than 
twice as high. In the judgment of many observers, including myself, we 
are taking in far more newcomers than we need or can effectively 
absorb, with the result that the process of economic and cultural 
integration has seriously slowed down.
    Accompanying these developments has been a dramatic increase in the 
number of visible minority neighbourhoods (defined by Statistics Canada 
as composed of more than 30% from a single ethnic group) consisting 
largely of recent immigrants. According to Statistics Canada, the 
number of such concentrations increased from six in 1981 to 254 in 
2001. Such a milieu can, in some cases, provide a relatively benign 
environment for individuals with extremist views to meet and form 
terrorist cells--as happened in the case of the millennium bomber, 
Ahmed Ressam, who had no difficulty making connections with others who 
held radical views among the concentrations of recent arrivals in 
Montreal from North African and Middle Eastern countries.
    The very rapid increase in size of the Canadian Muslim population--
from 100,000 in 1980 to 750,000 in 2005 combined with the importation 
of large numbers of radical mosque leaders from abroad (a phenomenon 
that has also occurred in the United States) also presents challenges. 
A senior official of CSIS recently acknowledged in connection with its 
counterterrorism program that it is currently monitoring about 350 
high-level targets and around 50 to 60 organizational targets, adding 
that it is assumed there are at least ten more threats out there for 
every one that CSIS is aware of. At the same meeting of a Canadian 
Senate committee at which he made these statements at the end of May he 
also revealed that in recent years his organization has had the 
resources to screen only one tenth of the tens of thousands of 
immigrants who have come from the Pakistan-Afghanistan region.
    On a more positive note with regard to immigration policy, the 
Canadian government has demonstrated resolve in its refusal to give in 
to pressures to grant status to large numbers of persons who are in 
Canada illegally. To regularize the status of such individuals 
inevitably leads to even larger numbers entering the country illegally 
in the hope that they will eventually receive the same treatment
    Another feature of the Canadian scene that governments must contend 
with in dealing effectively with national security issues is a 
disposition in Canada to give particular weight to the rights of 
persons accused of crimes, who are claiming asylum or have been ordered 
deported, etc. While Canada has a strong and admirable tradition of 
support for human rights, there can often be tension between meeting 
national security needs and recognizing and protecting the rights of 
individuals. In times of war or on other occasions when there are other 
significant security concerns, such as the threat we are currently 
facing from terrorism, arriving at an acceptable balance between 
national security and individual rights can become increasingly 
difficult, often with the result that advocates on both sides are not 
satisfied with how particular issues are dealt with.
    In the case of Canada, in my opinion, there has been a tendency--
although with some notable exceptions--to give priority to the rights 
of individuals over national security considerations In 2003, for 
example, it was revealed that Ottawa had lost track of 59 war criminals 
who were under deportation orders (a number that subsequently rose to 
125). When security authorities asked that they be provided with names, 
pictures, and birthdates to facilitate the apprehension of these 
individuals, the federal minister of immigration declined to release 
details on the basis, that according to Canada's privacy act, such a 
release would infringe on the right to privacy of those being sought.
    Another example of our perhaps going to far in protecting the 
rights of individuals is illustrated by the case of Mohammad Issa 
Mohammad. Mohammad was ordered deported from Canada in 1988 after it 
was discovered that he was a convicted terrorist who had been admitted 
under a false identity. In order to delay removal, he lodged a claim to 
remain in Canada as a refugee. While it was rejected, his status as a 
failed refugee claimant entitled him to lodge various appeals and ask 
for reviews of his case. He is now in his eighteenth year of appeals 
and reviews and is arguing before a federal court that sending him back 
to his country of origin would constitute ``cruel and unusual'' 
punishment since public health care facilities there were not as good 
as those to which he has access in Canada.
    The Canadian refugee determination system (i.e. asylum system in 
American terms) is beset with a variety of problems. With particularly 
generous definitions of who is a refugee--with the result that we have 
among the world's highest acceptance rates--making a claim for refugee 
status has been to date the favourite channel of entry for terrorists 
from abroad. While its significance in this respect may diminish to 
some extent if the phenomenon of home grown terrorists continues to 
increase, the refugee system nevertheless continues to be an area of 
concern because of the large numbers of people who use it to obtain 
permanent residence in Canada and who would otherwise be inadmissible.

Concluding remarks
    In conclusion, I would like to look to the future in terms of what 
would be in the best interests of Canada as well, hopefully, as those 
of the United States with regard to border security. I hope that, in 
order to preserve and strengthen the very important bonds of friendship 
and the economic ties between our two countries, some day we will be 
able to have a common security perimeter that ensures reasonably smooth 
movement of people and goods across our common border. I realize that 
in order to accomplish this we would have to find ways of agreeing on 
standards and procedures that would satisfy both the security concerns 
as well as other priorities of our two countries and that this would 
require a good deal of hard work and probably some give and take on 
both sides.
    In my comments today I have been frank in outlining both some of 
the strengths and the weaknesses of measures taken by the Canadian 
government in dealing with issues that have implications for security. 
I realize that you in the United States have very strong concerns about 
security in the face of threats from terrorism--probably stronger than 
in Canada--which is hardly surprising given that you were the targets 
of 9/11 as well as a good many other major attacks in various parts of 
the world. I should mention in this regard that convincing Canadians 
that it is important to strengthen our borders--primarily to strengthen 
our own security but also to reassure the United States that it is not 
threatened by individuals from our side--can at times be made more 
difficult when skeptics in Canada ask why Americans are so concerned 
about security along our border when many Americans appear to be 
ambivalent about bringing an end to the massive flow of illegals across 
your southern border. It would, therefore, help people like myself, who 
are trying to convey the message to Canadians that border security is a 
matter of considerable importance, if the United States demonstrated 
clearly its determination to exercise full control over its border with 
Mexico. I trust you will accept these comments in the spirit of 
friendship and frank discussion between good neighbours in which they 
are intended. Mr.Chairman, may I thank you and your colleagues for 
giving me the opportunity to speak to you today and I hope my comments 
have been of some use to you in your deliberations on border security.

    Mr. Lungren. Thank you very much. Mr. David Harris, please.

                   STATEMENT OF DAVID HARRIS

    Mr. Harris. Thank you. Hello, Mr. Chairman and 
distinguished members. My name is Dave Harris, and I am a 
senior fellow for National Security, legal adviser to the 
Canadian Coalition for Democracies. The CCD is a leading non-
political, multiethnic, multireligious Canadian human rights 
organization and public policy think tank dedicated to 
defending and advancing democracy and civil liberties in a 
secure Canada and stable world.
    My previous statements before congressional bodies warned 
of Canada's drift into terror haven status, but Canada may be 
emerging from this troubled period when the commitment of its 
past political leadership to counterterrorism was falling into 
doubt. Stephen Harper's Minority Conservative government 
policies, since January of 2006, has committed itself to 
confronting terrorism warfare and subversion upon Canada and 
allies. Under the current Canadian regime, achievements in the 
struggle with extremist Islam, the predominating foreign and 
domestic enemy, have assumed various forms. Abroad, Canadians 
fight on the Afghan front, and their government rejects and 
intimidates our countries from withdrawing from that mission. 
In the Lebanese salient, the Harper government has sponsored 
effective humanitarian efforts, while asserting explicitly 
Israel's right and duty, as a sister peace-loving democracy, to 
end Hezbollah's killer sanctuary in Lebanon. The Prime Minister 
is doubtless aware of Hezbollah's record of targeting 
reconnaissance in Canada against Canadian sites. At home, the 
predecessor liberal government brought in a new post 9/11 anti-
terrorism act, and the current government vigorously supports 
efforts to guarantee internal security, including the recent 
raids and arrests of home-grown terrorists. This record 
reflects the close and successful relations between Canadian 
and American security intelligence and border authorities. None 
of this record of Ottawa's determination to confront the enemy, 
or my own growing, but still very cautious optimism, denies 
that the present Canadian government has inherited a dangerous 
and unacceptable situation from the preceding 13 years of 
federal leadership. I'll not go into a detailed recitation of 
supporting evidence already found in Ambassador Collacott's 
testimony or my own submission, my 8 June, 2006, testimony 
before the House Judiciary Subcommittee on Immigration. Suffice 
it to say, Ambassador Collacott's Fraser Institute study and 
books by Canadians Daniel Stoffman and Diane Francis 
authoritatively outline our deeply flawed immigration and 
refugee system, is a big part of the problem.
    Canada per capita welcomes double the immigrants and three 
or four times the refugees as the United States. Immigrants 
will continue to make a great contribution to Canada, but the 
current intake, and often unselective, newcomers endangers our 
general security and economic future. It can be of solace only 
to immigration lawyers, lobbyists and politicians seeking block 
votes. Canada, its liberal-pluralist values, its stability, and 
its allies, are at risk when it persists in this course of time 
of liberalism's worldwide resistance struggle with 
Islamofascist ideology, incursion and terrorists. And this is 
what we're finding, supremacists are undermining the moderate 
and heroic Muslin authority figures in Canada, some of whom of 
assert that their lives are in danger. These supremacists 
deeply distort children's perceptions of their fellow 
Canadians, and would at best reduce us to a collection of 
hostile enclaves. So for a number of years, Canada's political 
climate was relatively accommodating to the growth of 
extremism. A former prime minister got Pakistan to release the 
notorious patriarch, later killed in a terrorist shootout, of 
Canada's so-called al-Qa'ida family, the Khadres. The previous 
government even defended Hamas' and Hezbollah's right to exist 
in Canada, until public outcry produced a ban. Days ago certain 
opposition, liberal, Bloc Quebecois and New Democratic party 
parliamentarians shocked the national conscious by blocking 
moderate Canadian Lebanese from appearing, as invited, before a 
parliamentary committee looking at the Lebanese crisis.
    Some fear, and I hope this fear is exaggerated, that this 
was an attempt to appeal to certain growing Hezbollah-
sympathetic Canadian Islamic, and other interests, who have 
made disruptive protests lately in Canadian streets. In these 
photos from the Canadian Coalition for Democracies 
correspondents, including Exhibits A and B to my testimony, 
show bold displays of Hezbollah flags and symbols at recent 
Montreal demonstrations. Time is obviously short. I will 
withhold for the moment my specific recommendations, and if I 
may conclude simply with this. Canada appears not to be 
altogether the same country that it was at end of 2005. Recent 
developments suggest that the new Canadian administration, 
despite its minority status in Parliament, has been firm in 
deciding that North American security and a principal foreign 
policy are among its highest priorities. Millions of Canadians 
hope that the current United States administration will 
recognize this change, and your friends and allies to the north 
essentially trust that the United States security measures will 
reflect and support the new, more constructive attitude that 
Ottawa seeks to have adopted in relation to security and our 
common defense. Thank you very much for your invitation.
    [The statement of Mr. Harris follows:]

                 Prepared Statement of David B. Harris

    My name is David Harris, and I am a Canadian lawyer. I serve as 
Senior National Security Fellow and Legal Advisor to the Canadian 
Coalition for Democracies (CCD)(http://www.canadiancoalition.com/). The 
CCD is a leading non-political, multiethnic, multidenominational 
Canadian human rights organization and public-policy think-tank 
dedicated to defending and advancing democracy and civil liberties in a 
secure Canada and stable world.
    My previous pre- and post-9/11 statements before Congressional 
bodies cautioned that much would have to be done to fight Canada's 
drift into terror-haven status. Canada may now be emerging from the 
troubled period when the commitment of its past political leadership to 
counterterrorism was falling into doubt. I will briefly review current 
progress, signal the serious work yet to be accomplished, and propose 
certain criteria against which future achievement can be measured.
    Since coming to power in January 2006, the minority Conservative 
Government of Stephen Harper has committed itself to confronting those 
who would impose terrorist warfare and subversion upon Canadian 
democracy and Canada's liberal-pluralist allies. Under the current 
Canadian regime, achievements in the struggle with extremist Islam--the 
predominating foreign and domestic enemy--have assumed various forms.
    Abroad, Canadians are in combat on the Afghan Front, and their 
Government has set its face firmly against attempts to intimidate our 
country into withdrawal from that mission. In the terror war's Lebanese 
salient, the Harper Government has sponsored effective humanitarian 
efforts, while all the time asserting explicitly Israel's right and 
duty, as a sister peace-loving democracy, to end the killer-sanctuary 
that our Hezbollah enemy has long enjoyed under Syro-Iranian dominion 
of Lebanon. In this, the Canadian Prime Minister is doubtless aware of 
Hezbollah's record of undertaking targeting reconnaissance in Canada 
against Canadian sites.
    At home, it is to the credit of a predecessor Liberal Government 
that it brought in a new, post-9/11 Anti-Terrorism Act, and the current 
Government has vigorously supported efforts to guarantee internal 
security. Indeed, the eighteenth person was last week detained in 
connection with an alleged largely-homegrown Toronto-area Islamic 
terrorist ring accused of preparing mass-casualty attacks. Accusations 
claim that those concerned--all of them Canadian residents, and most of 
them Canadian citizens--sought to use three times the explosives 
detonated in Timothy McVeigh's 1995 Oklahoma City outrage. Meanwhile, 
Crown prosecutors prepare their case for the unrelated January 2007 
trial of Momin Khawaja, a young Canadian Muslim who worked for a time 
with our Department of Foreign Affairs, and is now claimed to have had 
a role in British terror-cell preparations.
    This record reflects, in many respects, the close and successful 
relations maintained between Canadian security, intelligence and border 
authorities, and their opposite numbers in the United States.
    None of this record of Ottawa's determination to confront the 
enemy, or my growing--but still very cautious--optimism, is to deny 
that the present Canadian Government has inherited a dangerous and 
unacceptable situation from the preceding thirteen years of federal 
leadership.
    The Canadian Security Intelligence Service (CSIS) director some 
years ago first alerted us to the presence of fifty terror 
organizations in Canada, the second-highest number in any country after 
the United States, itself. In June, the Deputy Director Operations of 
Canada's intelligence service warned a Canadian Senate subcommittee 
that Canadian residents include those who are graduates of terrorist 
training camps and campaigns, including experienced combatants from 
conflicts in Afghanistan, Bosnia, Chechnya and elsewhere.'' He offered 
that Canadian citizens or residents have been implicated in terrorist 
attacks and conspiracies elsewhere in the world,'' some having ``been 
involved in plots against targets in the United States, Lebanon, Saudi 
Arabia, Israel, Singapore, Pakistan and other countries.''
    Those interested in further details of the infiltration problem 
might examine my 8 June 2006 testimony before the House Judiciary 
Committee's Subcommittee on Immigration, Border Security and Claims.
    In any event, as Ambassador Martin Collacott indicates in his 
authoritative Fraser Institute study titled Canada's Inadequate 
Response to Terrorism, much of the difficult ground we now face was 
prepared over years through inadvertence and involved--and regrettably 
still involves--our deeply flawed immigration and refugee system.
    In per capita terms, Canada welcomes double the number of 
immigrants, and three or four times the number of refugees, as the 
United States. This is to say that thirty-one million Canadians each 
year greet 250,000 immigrants. In addition, the 500 refugee claimants 
of 1977 have been transformed into the 29,000 a year, of today. It is 
hard to conceive how Canada can effectively screen such numbers.
    Let there be no mistake. Immigrants have contributed in many 
important ways to Canada's development. Canada stands to benefit from 
economic- and security-sensible management of immigration policy and 
flows. However, as has been decisively shown by former Canadian 
Ambassadors Collacott, James Bissett, and in Daniel Stoffman's book Who 
Gets In, and Diane Francis's Immigration: The Economic Case, that is 
not at all what we have got now.
    Our intake numbers are so great and, in many ways, unselective, 
that they endanger our internal security and economic future. They are 
justified only by two interests. First, the industries of immigration 
lawyers, NGOs and settlement groups that have arisen in response to and 
been fuelled by the influx. And, second, political leadership that has 
regarded the immigration and refugee system as a vote-importing 
mechanism promising bloc votes from grateful newcomers and aspiring 
sponsors of relatives.
    Canada places itself, its liberal-pluralist values, its stability, 
and its allies, at risk when it persists in this course at a time of 
liberalism's worldwide resistance struggle with Islamofascist ideology, 
incursion and terror. Even conceding the ostensible economic benefits 
of current immigration approaches, Canada's enormous immigration 
numbers in today's world make it difficult to prevent the arrival of 
intolerant, supremacist strains of Islam.
    And this is what we are finding. Supremacists are undermining 
moderate Muslim authority figures--some of whom now assert that their 
lives are in danger--, hatefully distort children's perceptions of 
their fellow Canadians, and would at best reduce our country to a 
collection of hostile, anarchic warring enclaves.
    Meanwhile, as in the United States, possibly Wahhabist--or Muslim 
Brotherhood-oriented pressure groups alienate Muslims from the 
mainstream and enhance their groups' grip on Islamic constituencies by 
issuing misleading ``studies'' claiming widespread anti-Islamic 
persecution. Carried by national news media who have signally failed in 
their due-diligence responsibilities to examine the history, links and 
agendas of the pressure groups, the publicity engendered by these 
reports grooms politicians and the public to accommodate fundamentalist 
Islamic demands. Privileges are extended in public institutions that 
would not be countenanced in an egalitarian society for any other 
religious or ideological community. A sense of fundamentalist 
entitlement is thereby encouraged, and the cycle of expectation-demand-
concession continues, with the possibility that failure to concede will 
be pedaled hysterically as ``Islamophobia'', and draw hostile--possibly 
dangerous--consequences.
    Given these trends, it is hardly surprising that, for a number of 
years, Canada's political climate was relatively accommodating to the 
growth of extremism. A former prime minister personally intervened to 
have Pakistan release the notorious patriarch of Canada's ``al-Qa'ida 
Family,'' the Khadrs. Mr. Khadr, senior, was later killed in a 
terrorist shoot-out, and a son is accused of killing a young American 
medic in Afghanistan. A previous government even defended Hamas' and 
Hezbollah's right to exist legally in Canada, and only public reaction 
eventually forced that government to outlaw these genocidal groups. 
And, days ago, certain Liberal, Bloc Que'be'cois and New Democratic 
Party parliamentarians shocked the conscience of progressive thinkers 
by blocking moderate Canadian Lebanese from appearing, as invited, 
before a parliamentary committee looking at the Lebanese situation. 
There is growing concern that this manoeuvre was designed to appeal to 
certain Hezbollah-sympathetic Canadian Islamic interests who have 
undertaken disruptive protests lately in Canadian streets.
    Indeed, photos provided by Canadian Coalition for Democracies' 
correspondents show the bold and confident display of Hezbollah flags 
and symbols at recent Montreal demonstrations. Certain of these are 
herewith respectfully submitted to subcommittee members as exhibits A 
and B to this testimony. Note that in the course of such protests in 
Montreal and Toronto, Hezbollah sympathizers were, in at least one case 
that went unreported by mainstream media, confident enough to use 
intimidation, while scared and outnumbered police looked on, 
helplessly. This, in a country whose Parliament outlawed the 
organization in its Criminal Code.
    Against this backdrop, the new Canadian Conservative Government 
appears for now to be the most credible hope for Canadians--and 
Americans--seeking security, stability and continuing good neighbourly 
relations. Nonetheless, of course, shifting demographics and political 
pressures mean that all political leadership of whatever stripe must be 
watched carefully to ensure progress on the security file.
    Following are the sorts of initiatives that will reflect progress 
in the new Canadian Government's security and counterterror efforts. In 
fairness to the present political leadership, it must be borne in mind 
that the Government's freedom of action is likely to be constrained in 
the short run by its minority standing in Parliament.
    First, the government must regain control of the immigration and 
refugee system by bringing it into line with the need for public 
safety, economic security, and the importance of social integration and 
cohesion. Comprehensive adjustments must be made in pertinent law and 
policy. Newcomers must be given clear notice of the tolerant, liberal-
democratic nature of Canadian society as defined in the Canadian 
Charter of Rights and Freedoms, and that there is no room for radical 
supremacism.
    Second, efforts should be made to develop a common US-Canadian 
security perimeter, although this will require resolution of 
challenging issues, including those bearing on personal privacy.
    Third, Canada should restrict entry to the country of Saudi Arabian 
money, and of radical, Saudi-trained and inspired clerics and teaching 
material, in order to limit sources of extreme-Wahhabist influence on 
our people and institutions. Private schools, religious institutions, 
advocacy organizations, media, and other public influencers must 
account for all funds that originate directly or indirectly from 
outside Canada. Canada must likewise deny entry to extremist clerics 
and others with a history of promoting a violent or racist agenda.
    Fourth, government, media and other institutions should review on 
an ongoing basis the origins and history, links and agendas of self-
described Canadian Islamic and Canadian Arab representative 
organizations, in order to determine which, if any, are suitable 
partners for publicity, outreach, sensitivity-guidance and public-
initiative purposes. Particular diligence is required on the part of 
police and security organizations, because radical and terror-apologist 
groups routinely seek involvement with security bodies in order to 
build credibility with other government and non-government agencies. 
Given the difficulties presented by proliferating, well-funded Islamist 
influence organizations, authorities should, where any doubt exists, 
prefer contact with individual Muslim moderates, rather than with 
collective organizations. This is important where organizations that 
have been vocal in national security debates habitually avoid 
condemning by name enemy Islamic terror groups like Hamas, Hezbollah 
and Palestinian Islamic Jihad.
    In conclusion, let me say that Canada appears not to be altogether 
the same country that it was at the end of 2005. Recent developments 
suggest that the new Canadian administration, despite its minority 
status, has been firm in deciding that North American security and a 
principled foreign policy, are among its highest priorities. Millions 
of Canadians hope that the current United States administration will 
recognize this change. Your friends and allies to the north especially 
trust that United States security measures will reflect and support the 
new, more constructive attitude that Ottawa seems to have adopted in 
relation to security and our common defence.

    Mr. Lungren. Thank you very much, Mr. Harris.
    And now Mr. Jack Riley, director of Homeland Security 
Center at the Rand Corporation.

                    STATEMENT OF JACK RILEY

    Mr. Riley. Thank you, Mr. Chairman, distinguished members. 
Thank you for the opportunity to testify today on the topic of 
border security. It is vital to our national interests. I have 
a brief oral statement for the time allotted today, but I thank 
you for accepting my written testimony for the record. Let me 
begin by saying that I don't think we face a daunting and more 
important challenge than Homeland Security than securing the 
borders, and there are three key principles that I think should 
guide policy making in this realm. The first is that there is 
no single programmatic fix to border security. Border security 
will be achieved through usually reinforcing, and to some 
extent, redundant layers of defenses that span all of the 
borders that affect our security, land, air and sea, including 
those borders that are in the interior of the country in places 
such as Chicago, Washington D.C., and other places where 
international passengers and cargo can arrive, an integrated 
approach to border security is essential. Second, border 
security and border protection begins far from our borders, our 
shores, our airports, and our crossing points. A wide variety 
of programs embrace this approach, including intelligence 
efforts to monitor the movements of suspected terrorists, 
efforts to reduce trafficking and stolen passports, and make 
legitimate passports more tamper-proof, and efforts to obtain 
advanced information and conduct advanced screening of 
passengers and cargo entering the United States. These programs 
push the border out and they're an essential component to 
border security. Third, we can reduce the volume of work and 
the magnitude of the task through more effective use of 
information and technology. In some circumstances, we can use 
information and technology to help profile out and allow 
trusted passengers and cargo to circumvent routine, but not 
random inspection. Programs such as NEXUS that were described 
earlier today and the Fast Lanes at the southern border are 
examples of such programs.
    When low risk passengers and cargo are profiled out, 
resources can be focussed on the remaining and potentially more 
troubling risks. Our latest concept is the need for faster, 
less expensive, and more reliable technologies. These 
technologies which have uses in such things as screening cargo 
detecting unconventional weapons and providing a sensor network 
on the border are vital to our ability to provide for Homeland 
Security. These three principles that I outlined should be 
reflected in a national Border Patrol strategy. We are long 
overdue for the establishment of such a strategy, and the 
strategy itself at a minimum should address four strategic 
areas of strategic planning.
    The first is the establishment of concrete benchmarks and 
performance metrics for border security. Without these 
benchmarks, we don't know what programs work, which ones need 
adjustments, and which ones should be abandoned. Within the 
realm of border security, we want to be able to allocate 
resources to affect the programs, and we simply do not have the 
measures in place to allow us to do that today. Second, we need 
to develop a comprehensive border security technology roadmap. 
Most of our technology needs can be summed up with the 
statement ``faster, cheaper and more reliable.'' These 
characteristics of technology, however, must be linked to 
policies and to a careful consideration of the problems we are 
trying to solve. It is important to structure our investment in 
technology in a way that will yield high payoffs, address 
mission relevant functions, and provide essential capabilities 
over a policy relevant time horizon.
    Third, we need to develop a border security force plan to 
manage our personnel. In the same way that military 
institutions conduct forced mix studies at a time to project 
their personnel needs, so too must our border security forces 
identify the critical skills at the leadership at the rank and 
file levels that it needs to conduct its mission successfully. 
These skill needs assessments can then be linked to needs and 
training recruitment, retention, and other areas critical to 
force management, and finally we need to create plans to manage 
the border during crisis. Eventually our border security 
measures will fail and overlook one important aspect of border 
security, is how it will function after a security breach. Once 
the border has been shut down, as was after temporarily after 
9/11, we need to think about what our plans and strategies are 
to initiate and reengage operations. The strategies and 
principles that I just described will take us a long way in 
enforcing our securing our borders, but let me conclude by 
saying that I think I would be negligent if I failed in my 
testimony today to note that we need a process to maintain and 
update the national border security strategy. For that reason, 
I am strongly in favor of creating a national center of 
excellence or some other long-term or permanent vehicle for 
providing strategic independent analyses on border security 
issues. Since 9/11, we have woefully underinvested in 
undertaking policy relevant analyses of border security 
problems. It is important for this deficiency to be corrected 
as quickly as possible. Thank you.
    [The statement of Mr. Riley follows:]

                           Dr. Jack Riley \1\

                          The RAND Coporation

                Border Security and the Terrorist Threat

               Before the Committee on Homeland Security

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity

    Subcommittee on Emergency Preparedness, Science, and Technology

                 United State House of Representatives

Introduction
    There are few homeland security challenges as daunting--and 
urgent--as securing the nation's borders. Every day, nearly 20,000 
cargo containers enter U.S. ports and every year, nearly 90 million 
passengers land at the more than 100 international airports scattered 
across the country. Add to the sea and air borders the thousands of 
miles of land borders shared with Canada and Mexico and the importance 
of those land borders to trade and tourism, and the magnitude of the 
challenge becomes abundantly clear. These statistics should also make 
clear how security can interact with commerce and economic activity. 
Decisions about security at the border have the potential to affect the 
livelihood of millions of Americans and a significant portion of the 
U.S. economy.
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to federal, state, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
    If there is an overarching theme to this testimony, it is that we 
have woefully underinvested in developing, evaluating, and refining a 
comprehensive and integrated border security strategy. We have invested 
in numerous border security programs and initiatives but the impacts 
and cost-effectiveness of virtually all of these initiatives is poorly 
understood. We are virtually flying blind on a topic of critical 
national importance.
    Now that I have raised the alarm, let me turn to a review of one 
key instance that provides important insights for contemporary border 
security practices.

The Millennium Bomber
    On December 14, 1999, Ahmed Ressam was captured near the U.S.-
Canadian border by sharp-eyed border security personnel.\2\ Ressam, 
trained in terrorist attack methods, was headed to Los Angeles with 
plans to detonate multiple bombs simultaneously at Los Angeles 
International Airport. His intent to conduct the attack on New Year's 
Eve 1999 earned him the sobriquet ``the millennium bomber.'' As lessons 
in border security go, it is hard to point to one that more clearly 
illustrates the complexities of border control than the Ahmed Ressam 
case.
---------------------------------------------------------------------------
    \2\ For a detailed accounting of the Ahmed Ressam case and its 
implications, see ``Trail of a Terrorist'' (Terence McKenna, WGBH 
Educational Foundation and Canadian Broadcasting Corporation, 2001; 
online at http://www.pbs/org/wgbh/pages/frontline/shows/trail as of 
August 2, 2006)..See also The 9/11 Commission Report: Final Report of 
the National Commission on Terrorist Attacks upon the United States, 
(National Commission on Terrorist Attacks upon the United States, New 
York: Norton, 2004; online at http://www.gpoaccess.gov/911/index.html 
as of August 2, 2006), pp. 172-184.
---------------------------------------------------------------------------
    Ressam is Algerian by birth and tried to enter Canada in 1994 on a 
forged passport. His passport aroused suspicions and, fearing that he 
would not be able to gain entry, Ressam claimed political asylum on the 
basis of alleged political persecution in Algeria. He became one of 
approximately 30,000 people seeking political asylum in Canada that 
year. He was admitted pending the outcome of an asylum hearing that 
would determine the eligibility of his claim. Ressam was not placed in 
custody despite several warning signs that raised doubts as to the 
legitimacy of his claim and his suitability for prehearing release, 
including his own statements that he was falsely accused of arms 
trafficking in his home country.\3\ Ressam skipped the hearing 
scheduled for June 1995. A warrant was issued for his arrest but he 
avoided deportation by obtaining false documentation (including a 
baptismal certificate and passport) under the identity ``Benni Noris.'' 
Authorities were unaware of his new alias but were actively looking for 
Ahmed Ressam during this period. Ressam was able to use the false 
identity to travel to Afghanistan in 1998 for terrorist training.
---------------------------------------------------------------------------
    \3\ A falsified passport in and of itself may not be sufficient to 
merit preventive detention. Indeed, experience has shown that many 
legitimate asylum claimants use falsified travel documents to escape 
their conditions of persecution.
---------------------------------------------------------------------------
    On December 14, 1999, U.S. immigration agents operating in 
Victoria, British Columbia, allowed Ressam to board a ferry that took 
him to Port Angeles, Washington. In Port Angeles, outside Seattle, 
Ressam hesitated to answer questions posed by a customs agent. He was 
asked for identification and, panicked, attempted to flee. It was at 
this point that U.S. authorities took Ressam into custody. A search of 
his car revealed materials, concealed in the trunk, to make bombs.
    The Ressam incident reveals several key points about border 
security:
        <bullet> Technology is not a substitute for trained, 
        professional security personnel. It was not technology that 
        caught Ahmed Ressam in 1999. It was good, old-fashioned 
        security experience that resulted in Ressam's capture and the 
        disruption of the attack.
        <bullet> False documents are the currency of the terrorist 
        trade. Ressam was able to falsify a passport that got him on a 
        plane to Canada. Once in Canada, he was able to create another 
        passport that allowed him to travel to Afghanistan, where he 
        was trained in one of Osama bin Laden's terrorist camps. 
        Perhaps most important, he was able to create a new identity 
        that allowed him to avoid being arrested while the authorities 
        sought ``Ahmed Ressam.''
        <bullet> The border threat is not just a southern phenomenon; 
        there is threat from the north. As early as 1998, Canada's 
        Special Senate Committee on Security and Intelligence labeled 
        Canada ``a `venue of opportunity' for terrorist groups: a place 
        where they may raise funds, purchase arms, and conduct other 
        activities to support their organizations and their terrorist 
        activities elsewhere. Most of the major international terrorist 
        organizations have a presence in Canada. Our geographic 
        location also makes Canada a favorite conduit for terrorists 
        wishing to enter the United States, which remains the principal 
        target for terrorist attacks worldwide.'' \4\ More recently, 
        the Canadian Security Intelligence Service acknowledged in its 
        2004-2005 annual report that ``[a] relatively large number of 
        terrorist groups [is] known to be operating in Canada, engaged 
        in fundraising, procuring materials, spreading propaganda, 
        recruiting followers and conducting other activities.'' \5\
---------------------------------------------------------------------------
    \4\ The Report of the Special Senate Committee on Security and 
Intelligence (The Honourable William M. Kelly, Chairman, Ottawa: 
Special Senate Committee on Security and Intelligence, January 1999).
    \5\ Public Report 2004-2005 (Canadian Security Intelligence 
Service, Ottawa: Public Works and Government, 2006; online at http://
www.csis-scrs.gc.ca/en/publications/annual--report/2004/report2004--
e.pdf as of August 2, 2006).
---------------------------------------------------------------------------
        <bullet> Our allies face many of the same border security 
        problems as the United States faces. In 1994, the year that 
        Ressam entered Canada, there were some differences in how the 
        United States and Canada handled asylum claims. However, 
        Canadian and U.S. officials confronted many similar issues at 
        that time, including a shortage of personnel to patrol the vast 
        physical borders, an inability to ensure that immigrants and 
        asylum-seeking individuals complied with the terms of their 
        entry, and no reliable system for ensuring that international 
        travelers were traveling with valid passports. U.S. border 
        security is thus, to some extent, a hemispheric, if not 
        international, issue.

Principles of Effective Border Security
    Where Ahmed Ressam failed to exploit the borders in his disrupted 
effort of 1999, the 9/11 terrorists succeeded. The 9/11 hijackers 
exploited many of the same vulnerabilities that Ressam attempted to 
exploit, including use of fraudulent travel documents and capitalizing 
on the laxity in our detention and deportation capabilities. But the 9/
11 attacks also revealed additional border security vulnerabilities. 
Examples of additional border security weaknesses included the lack of 
physical security on aircraft, the weaknesses of the command and 
control system of the civilian air network, and the insufficiency of 
intelligence coordination within and across agencies.\6\
---------------------------------------------------------------------------
    \6\ The 9/11 Commission Report provides perhaps the most 
authoritative and comprehensive review weaknesses that were exploited.
---------------------------------------------------------------------------
    In the immediate aftermath of 9/11, officials moved quickly to 
close major border security gaps. The key steps in these efforts are 
described in subsequent sections of this testimony. Before discussing 
specific steps taken to improve border security, it is appropriate to 
review some overarching principles about effective border security that 
have emerged since 9/11. In general terms, an effective border security 
strategy consists of operational control over people and weapons. It 
must exist at our land borders, ports and airports. It must ensure 
effective communications among the myriad agencies charged with 
regulating the commerce and security at the border. And it must provide 
an effective deterrent that raises the costs to, and increases the 
visibility of, those that seek to attack our society.

    There are three critical principles that underpin border security.
        <bullet> There is no single programmatic fix. Border security 
        will be achieved through a network of mutually reinforcing, and 
        to some extent redundant, layers of defenses. There is no easy 
        solution. Border security is a long-term challenge that will 
        always be marked by terrorists' efforts to identify and exploit 
        the weakest link. As a consequence, we need to consider not 
        just the effects of individual programs, but the interaction 
        effects of multiple programs.
        <bullet> Border protection begins far from our shores, 
        airports, and crossing points. Border security is more 
        effective when we have programs that reach toward the points of 
        origin, rather than simply relying on defending the fixed 
        points of the border. A wide variety of programs fall into this 
        category and should be considered part of the border security 
        effort, including intelligence efforts to monitor the movements 
        of suspected terrorists, efforts to reducing trafficking in 
        stolen passports and make legitimate passports more 
        tamperproof, and efforts to obtain advance information and 
        conduct advance screening of passengers and cargo entering the 
        United States.
        <bullet> We can reduce the volume of work and the magnitude of 
        the task through more effective use of information and 
        technology. In some circumstances, we can use information and 
        technology to help ``profile out'' and allow trusted passengers 
        and cargo to circumvent routine inspection. That is, we can 
        identify pools of passengers and cargo that do not merit 
        attention beyond random checks and screening because they are 
        trustworthy, have been verified by reliable allies, or because 
        the content of their conveyance is known with a high degree of 
        certainty. When low-risk passengers and cargo are profiled out, 
        resources can be focused on remaining, and potentially more 
        troubling, risks. A related concept is the need for faster, 
        less expensive, and more reliable technologies. These 
        technologies, which have uses such as screening cargo, 
        detecting unconventional weapons, and monitoring the border, 
        are vital to our ability to provide for homeland security.

Border Security Improvements Since 9/11
    Since the terrorist attacks of September 11, substantial progress 
on border security has been made. Improvements that cut across border 
segments are discussed first, followed by additional improvements 
specific to each border segment.

    Cross-Cutting Security Measures
    Several post-9/11 security measures have applicability to more than 
one segment of the border. These measures are reviewed briefly here, 
followed by a review of key border security initiatives by border 
segment.

    REAL ID Act. In May 2005, Congress passed the REAL ID Act.\7\ The 
Act requires that, by 2008, state driver's licenses meet minimum 
security requirements. To receive a license, an individual will have to 
present photo identification, documentation of the date of birth, proof 
of social security number (or of ineligibility for such number) and 
documentation showing the applicant's name and address of primary 
residence. State IDs that do not comply with this framework may not be 
acceptable for federal purposes such as boarding a plane. A data 
network will link all 50 states so that there are reduced opportunities 
for cross-state fraud. The REAL ID Act lets states offer illegal 
immigrants a ``driving only'' license to applicants who are unable to 
prove their legal status in the United States. Such a license would be 
marked as not being valid for the purpose of identification. If the act 
is implemented as designed, it should help cut down on the availability 
of false identification.
---------------------------------------------------------------------------
    \7\ ``Emergency Supplemental Appropriations Act for Defense, the 
Global War on Terror, and Tsunami Relief, 2005 (Enrolled as Agreed to 
or Passed by Both House and Senate),'' H. R. 1268, Division B, 2005.

    Passport and Visa Improvements. Since 9/11, numerous changes to the 
process by which foreigners travel to the United States have occurred. 
The most important of these changes include the development of the U.S. 
Visitor and Immigrant Status Indicator Technology (US-VISIT) program 
and the strengthening of passport and visa requirements for travel to 
the United States. Under US-VISIT, certain non-U.S. travelers to the 
United States have their two index fingers digitally scanned and a 
digital photograph taken at the U.S. port of entry. The fingerprints 
are then instantly checked against criminal information databases. 
Eventually, travelers are expected to be able to use US-VISIT as they 
exit the United States. Once in place, this system will help U.S. 
officials know with greater certainty when individuals remain in the 
United States longer than their visas permit.
    Travelers from visa waiver program (VWP) countries must now 
participate in US-VISIT. Under the VWP, travelers from 27 countries 
(mostly European) are not required to obtain a visa when traveling to 
the United States for periods of 90 days or less. Countries 
participating in the VWP must issue their citizens machine-readable 
passports that contain biometric data.
    Persons traveling from non-VWP countries must obtain a visa. In the 
aftermath of 9/11, the visa review process has been tightened 
significantly. Visas for travel to the United States now include 
biometric markers of fingerprints and a digital rendering of the face. 
To obtain the initial biometric information, visa applicants are 
required to submit to an in-person interview with a consular officer. 
In-person interviews may also be required for people traveling from 
certain countries even after biometric visa data is on record.
    As a consequence of all of these changes, it is now more difficult 
for terrorists to enter the country using fraudulent documents through 
official points of entry. Indeed, since US-VISIT biometric processing 
was initiated on January 5, 2004, more than 1,000 individuals have been 
arrested or otherwise denied admission at U.S. borders. The concern, 
however, is that the success at the legal points of entry may force 
more efforts at crossing between official ports of entry.

    Air Transportation
    Given the nature of the 9/11 attacks, it is not surprising that 
many improvements in air transportation security have been implemented. 
Among the most notable accomplishments are the following:
        <bullet> strengthening the security of cockpit doors to prevent 
        intrusion
        <bullet> implementing a system to screen checked luggage for 
        explosives and other dangerous goods
        <bullet> expanding armed patrolling of flights through the 
        Federal Air Marshal Service.
    These are among the many steps that have been taken to reduce the 
likelihood of future hijackings.

Land Border Crossings
    Land border crossings remain a vital component of our national 
economy. At the same time, they are difficult to control, given that 
there are more than 6,000 miles of shared borders between the United 
States, Mexico, and Canada. Some of the notable security steps taken 
since 9/11 on the land border front include the following:
        <bullet> the creation of fast lanes of various sorts to 
        facilitate the movement of commerce and profile out trusted 
        shipping sources. Examples include the opening of multiple 
        NEXUS lanes between the United States and Canada and the 
        development of a similar program, Free and Secure Trade (FAST), 
        that addresses commercial shipping.\8\
---------------------------------------------------------------------------
    \8\ At the U.S. border with Mexico, the Secure Electronic Network 
for Travelers Rapid Inspection (SENTRI) program, similar to NEXUS, 
facilitates noncommercial border crossings.
---------------------------------------------------------------------------
        <bullet> The development, under the Secure Border Initiative, 
        of a plan to upgrade the technology used border control, 
        including expanding the use of occupied and unoccupied aerial 
        assets and accelerating the deployment of detection technology 
        and sensors.
        <bullet> Deployment of more personnel along the border. Since 
        9/11, the border patrol has increased by approximately 2,000 
        officers in size, and an additional 1,000 new hires are 
        planned.

Shipping and Ports
    After 9/11, customs and border personnel moved quickly to secure 
the commerce flowing through our nation's ports. Among the more 
important measures:
        <bullet> the development of the Customs-Trade Partnership 
        Against Terrorism (C-TPAT), under which firms voluntarily 
        ensure the integrity of the security processes in exchange for 
        priority processing, reductions in the number of security 
        checks, and other steps that facilitate the movement of goods. 
        C-TPAT has been an important avenue for engaging the private 
        sector in supply chain security.
        <bullet> the initiation of the Container Security Initiative 
        (CSI), under which border personnel try to identify high-risk 
        containers, prescreen and evaluate containers before they 
        arrive in the United States, and develop new generations of 
        containers that offer additional security. CSI's significance 
        rests in the fact that it initiates the security process long 
        before the cargo reaches U.S. shores.
    In addition, the Department of Homeland Security (DHS) has given 
out numerous grants to facilitate improvements in the physical security 
of ports around the country. Presently, DHS is screening about 50 
percent of the containers arriving by ship for radiological and nuclear 
material using radiation portal monitors. And approximately 80 to 90 
percent of the containers at land borders are being screened. Although 
this cargo screening effort is significant, it is important to point 
out that the cost-effectiveness of the approach has not been 
established.

Remaining Border Security Challenges
    Though substantial progress has been made since 9/11 in border 
security, substantial challenges remain.

Toward a National Strategy
    H.R. 4437 calls for the development of a National Border Control 
Strategy (NBCS). This call is welcome and long overdue. Border security 
is sufficiently complicated and vital to homeland security that 
establishing a periodic NBCS review process may be appropriate. For 
example, the Department of Defense conducts a review every four years 
(the Quadrennial Defense Review or QDR) to assess strategy, ``force 
structure, force modernization plans, infrastructure, budget plans, and 
other elements of the defense program and policies of the United States 
with a view toward determining and expressing the defense strategy of 
the United States and establishing a defense program for the next 20 
years.'' \9\ This type of periodic review is also critical for dealing 
with changes in the level or nature of the threat--whether that is 
numbers of people crossing the border, how they are trying to 
penetrate, or the techniques used.
---------------------------------------------------------------------------
    \9\ 10 U.S.C. 118.
---------------------------------------------------------------------------
    In late 2005, the President and Secretary Chertoff announced the 
creation of the Secure Border Initiative (SBI). This initiative, which 
increases the number of border personnel and their enforcement 
activities, expands detention and removal capabilities and other 
infrastructure, and invests in border-related technologies, is a solid 
start. SBI is a building block for the development of the NBCS. By 
itself, however, the SBI does not address border security in sufficient 
depth and breadth to constitute a strategy.

    An effective NBCS will include the following:
        <bullet> The establishment of concrete benchmarks and 
        performance metrics. Concrete benchmarks and performance 
        metrics will allow realistic and systematic appraisal of the 
        tradeoffs across various programmatic choices and provide 
        guidance on where to invest additional funds. Without these 
        benchmarks, we will not know which programs work and which ones 
        need adjustment. As homeland security resources become scarcer, 
        it becomes increasingly important to invest in programs that 
        fill critical security gaps in a cost-effective manner.
        <bullet> The development of a comprehensive border technology 
        roadmap. Most of our technology needs can be summed up with the 
        statement, ``faster, cheaper, more reliable.'' These 
        characteristics, however, must be linked to policies and to a 
        careful consideration of the problems we are trying to solve. 
        When there is a pressing need for security, there can be an 
        incentive to invest in any--or all--apparent technological 
        solutions, regardless of the potential payoff. For example, 
        there were early calls to establish a missile defense system 
        for the passenger air travel system, though subsequent analyses 
        demonstrated that the public dollars could be better spent on 
        other security measures.\10\ It is important to structure the 
        spending pattern to invest in technologies that will yield high 
        payoffs, address mission-relevant functions, and provide 
        essential capabilities and over a policy-relevant time horizon.
---------------------------------------------------------------------------
    \10\ Protecting Commercial Aviation Against the Shoulder-Fired 
Missile Threat (James S. Chow, James Chiesa, Paul Dreyer, Mel Eisman, 
Theodore W. Karasik, Joel Kvitky, Sherrill Lingel, David Ochmanek, and 
Chad Shirley, Santa Monica, Calif.: RAND Corporation, OP-106-RC, 2005; 
online at http://www.rand.org/pubs/occasional--papers/OP106 as of 
August 2, 2006). See also A Decision Analysis to Evaluate the Cost-
Effectiveness of MANPADS Countermeasures, (Detlof von Winterfeldt and 
Terrence M. O`Sullivan, Center for Risk and Economic Analysis of 
Terrorism Events (CREATE), University of Southern California, October 
16, 2005; draft online at http://www.usc.edu/dept/create/events/2005--
01--31/von%20Winterfeldt%20and%20O'Sullivan%2011-22-05.pdf as of August 
2, 2006).
---------------------------------------------------------------------------
        <bullet> The development of a border security force plan. The 
        border security problem is dynamic. As a consequence, we need 
        personnel that have the requisite skills to combat the current 
        threat, but that also are capable of responding to new and 
        emerging challenges. In the same way that military institutions 
        conduct force mix studies and attempt to project their 
        personnel needs in different skill categories, so too must our 
        border security forces identify the critical skills--both 
        leadership and rank-and-file--that it needs. These skill needs 
        assessments can then be linked to needs in training, 
        recruitment, retention and other critical areas of force 
        management.
        <bullet> The creation of plans for managing the border during 
        crises. Odds are, at some point, our border security measures 
        will fail. An overlooked but important aspect of border 
        security is how it will function after a security breach. For 
        example, after an attack using the supply chain and the ports, 
        presumably the port system would at least be temporarily shut 
        down. Under what conditions do we reopen the ports?

Illegal Immigration and Visa Overstays
    As documented by the 9/11 Commission, all of the 9/11 terrorists 
had at least one form of acceptable identification, such as a passport 
issued by a foreign country or a U.S. driver's license. In many cases, 
these documents were obtained fraudulently. Nevertheless, their 
possession of these documents facilitated their travel into and out of 
the United States and facilitated their movement around the United 
States. Their ability to acquire fraudulent documents made it more 
difficult to locate and deport those 9/11 hijackers who had overstayed 
their visas. Indeed, at any given moment, more than 400,000 individuals 
in the United States are living here in violation of lawful deportation 
orders.
    In addition to the roughly half-million individuals lawfully 
adjudicated for deportation, an estimated 10 million simply entered the 
United States illegally without any paperwork. Many in this pool are 
drawn by the availability of jobs and other opportunities in the United 
States.
    The high volume of illegal overstays in and illegal entries into 
the United States constitutes a substantial security risk in several 
ways. First, it spreads the attention and limited resources of border 
enforcement across a very large base. Second, it creates a substantial 
shadow economy in which terrorists and other criminals can hide and a 
smuggling and transport infrastructure they can exploit. Third, it 
demonstrates to terrorists how easy illegal entry is. A vital part of 
security is thus figuring out how to deter illegal visa overstays and 
immigration.
    No existing program or combination of existing programs seems 
likely to cut down significantly on either of these problems, 
especially illegal immigration. Improved passport security and visa 
security make it more difficult for undesirable aliens to obtain 
permission to enter the United States. Though it is by no means 
certain, these programs may help shift the terrorists' attention to 
smuggling personnel over the long and difficult-to-regulate land 
border, rather than through airports and other formal ports of entry. 
And, once in, such individuals will face little risk of apprehension 
and deportation. Similarly, the REAL ID Act will do little to break the 
link between illegal immigration and employment. Under current 
procedures, which are passive, employers are only required to make a 
prospective employee provide identification. The REAL ID Act will not 
help in this case, because employers do not have the equipment or 
expertise to validate the identification. In addition, it seems clear 
that we will not be able to create the amount of detention capacity to 
provide a deterrent.
    Instead, it should be a high priority to develop a program that 
helps reduce the incentive to enter the United States illegally. One 
possibility would be a program that requires employers to instantly 
check non-U.S. citizens against eligibility lists. H.R. 4437 provides 
one such system.\11\ Congress would need to decide who is put on the 
eligibility lists--for example, immigrants currently residing in the 
United States who entered illegally or only legal residents and aliens. 
If properly implemented, such a system could help reduce the incentive 
to immigrate illegally. In turn, enforcement officials could then 
concentrate resources on controlling the smaller flows of individuals 
who are illegally crossing the borders. Such a system, however, 
presents daunting operational challenges and the costs and benefits of 
the approach have yet to be clearly assessed. That said, it should be a 
high priority to develop a program that helps reduce the incentive to 
enter the United States illegally.
---------------------------------------------------------------------------
    \11\ A similar system is currently being tested with criminal 
aliens to determine their eligibility for deportation as they are being 
released from U.S. jails.

Air Transportation
    Screening passengers for explosives. Despite improvements in 
screening at airports, we lag in our ability to detect explosives on 
passengers. Richard Reid, the infamous shoe bomber, smuggled a bomb on 
board a flight from Paris to Miami and was thwarted only when he 
attempted to ignite the fuse in the passenger cabin. In August 2004, 
Chechen terrorists brought down two Russian passenger aircraft when 
suicide terrorists ignited bombs.\12\ Traditional screening methods are 
unreliable in that explosives may be disassembled to resemble innocuous 
household objects or the explosives may not be detectable by in-baggage 
screening equipment. Swabbing baggage for traces of explosives is more 
effective, though such methods are used on only a small portion of bags 
passing through screening. The Transportation Security Administration 
(TSA) has begun experimentation with explosive detection portals that 
send strong puffs of air through a chamber in which the passenger 
stands. The resultant air samples are then rapidly tested for traces of 
explosives. These portals, and similar methods, are potentially 
important additions to passenger security, though long-term 
effectiveness, cost of operation, and impact on passenger throughput 
are not fully known at this point.
---------------------------------------------------------------------------
    \12\ It is still unclear how the explosives got on the planes, 
though it is clear that the bombs were triggered by two female suicide 
bombers from Chechnya. Traces of RDX, a common component of military 
explosives, were found at the crash scene.
---------------------------------------------------------------------------
    Screening cargo for explosives. More than 20 percent of the cargo 
that moves by airplane is thought to be transported on passenger 
planes. Passenger flights are thus vulnerable to the terrorists' 
ability to smuggle explosives into the cargo. The primary means of 
assuring safety of cargo for shipment today is the ``known shipper'' 
program that subjects such cargo to minimal screening, combined with 
closer inspection of cargo that comes from unknown sources. Critics 
charge that existing programs are insufficient against the demonstrated 
threat against passenger aircraft. Opponents counter that a cargo 
screening program would be expensive and impractical. To date, no 
rigorous and objective evaluations or analyses have been conducted that 
would allow lawmakers to determine what approach is appropriate.

Ports
    Technology. Many of the needs in port and supply chain security can 
be traced back to the requirement for faster, cheaper, and more 
reliable screening methods. Current screening methods at U.S. ports are 
relatively slow, are limited in the threats they can detect (primarily 
nuclear and radiological), can be fooled with shielding and other 
concealment methods, and generate many false positives that must be 
resolved by hand. Despite these deficiencies, there are periodically 
calls for screening 100 percent of the cargo that arrives at U.S. 
ports.
    Cost-Effectiveness. More generally, however, we have yet to conduct 
a rigorous and integrated assessment of the security of the supply 
chain system from point of origin to point of destination. As a result, 
there is very little evidence about how the different elements of 
security work together; how much security the measures actually 
provide; or what impact they have on the cost of moving goods (whether 
measured in dollars or time). For example, does C-TPAT, the program 
under which firms certify their security procedures, lead to 
improvements in security? Does C-TPAT work more or less effectively 
than CSI, the program that uses technology and advance screening to 
assess the risk of container shipments? The lack of knowledge about 
effectiveness raises risks that we will overinvest in some measures 
when the funding could be more fruitfully applied to other measures.
    System Fragility. Finally, and worth emphasizing, we know little 
about the port and supply chain system's ability to be reconstituted 
after an incident or to maintain operations during disruptions. 
Simulations suggest that the system could be quite fragile in the face 
of an attack, and we have little experience to help us understand what 
it would take to reestablish the chain.\13\ Contingency planning in 
this area is important, and policies that promote the system's ability 
to withstand, absorb, and recover from shocks should be given priority.
---------------------------------------------------------------------------
    \13\ Port Security War Game: Implications for U.S. Supply Chains, 
(Mark Gerencser, Jim Weinberg, and Don Vincent, Booz Allen Hamilton, 
February 2003; online at http://www.boozallen.com/media/file/128648.pdf 
as of August 2, 2006). See also ``Ports, Trade, and Terrorism: 
Balancing the Catastrophic and the Chronic'' (Edward E. Leamer and 
Christopher Thornberg, in Jon D. Haveman and Howard J. Shatz, eds., 
Protecting the Nation's Seaports: Balancing Security and Cost, San 
Francisco, Calif.: Public Policy Institute of California, 2006, pp. 37-
52).

Land Borders
    Many of the issues not yet addressed with ports also remain for 
land border crossings. This is not surprising, since land border 
crossings are also an important component of the supply chain. In 
particular, it seems prudent to focus on developing technologies that 
will facilitate fast, inexpensive, and reliable screening of cargo and 
people. The ``smart border'' procedures put in place with Canada and 
Mexico also bear close examination. It is assumed that NEXUS, FAST 
lanes, and other programs will keep commerce flowing (or enable a rapid 
restart) after a disruptive incident. Games, simulations, and other 
exercises can help identify issues that need to be resolved so that the 
policies will work as planned in the event of another attack.

Summary
    Since 9/11, security at U.S. borders has significantly increased. 
Much of the policy implemented after 9/11 reflects the principles of 
``pushing the border out'' to extend the reach of our security and 
``profiling out'' less threatening people and cargo in order to focus 
on targets that require more scrutiny. These principles have made 
border control more manageable, though they have by no means resolved 
certain broader issues of security.
    Simultaneous with the programmatic initiatives that have increased 
border security is the sobering fact that we do not know very much 
about the effectiveness of individual border security programs, or 
about how various programs work together to affect commerce, costs, and 
security. As a consequence, we have very little idea about where to 
invest effectively in border security.
    One reason we lack the template for investment in border security 
is that we also lack an integrated border control strategy. A national 
border control strategy is urgently needed to help establish priorities 
in both policy development and technology.
    For these reasons, the establishment of a homeland security center 
of excellence on border security is strongly advisable. Border security 
is a dynamic, challenging problem that sustained, systematic and 
independent inquiry could productively address.

    Mr. Lungren. Thank you, Mr. Riley.
    And now Mr. Gregory, President of Chapter 164 of the 
National Treasury Employees Union.

                  STATEMENT OF GREGORY JOHNSON

    Mr. Johnson. Mr. Chairman and members of the House Homeland 
Security Committee, thank you for the opportunity to testify 
before you today. My name is Gregory Johnson. I am president of 
Chapter 164 of the National Treasury Employees Union.
    I am here today to testify in my capacity as president of 
NTEU Chapter 164 and not in any official capacity or as a 
representative of either the Department of Homeland Security or 
Customs and Border Protection. I testified before Congress the 
first time in this capacity and on this issue in 1991, before 
Congressman Swift and Sabo and Senator Slade Gorton, and then 
again in 1995. I have been employed by the US Customs Service 
and Customs Inspection since 1983. I have served at the land 
Port of Blaine since 1986, 17 years as the US Customs Inspector 
and the last 3 years as a Customs and Border Protection 
Officer, or CBPO.
    All CBP employees recognize that change is a difficult 
challenge, but that change at Blaine proves to be particularly 
challenging. We serve with pride and the singleness of purpose 
to protect the security of this nation. Stopping terrorism, 
smugglers, drugs, counterfeit goods, currency and human 
traffickers is our foremost goal, while at the same time moving 
the vibrant flow of legal trade and travelers across our 
borders.
    We here in Blaine and CBP employees around the country have 
become discouraged. Basic infrastructure needs go unmet. For 
example, since 9/11, the need for a manned egress point for the 
cargo facility at the Port of Blaine has been highlighted by 
numerous port runner incidents. Without a manned egress booth 
to check to make sure that trucks have been cleared to leave 
this port, the system depends on the good faith of the trucker 
to go through secondary and not run the gate. CBP officers are 
frustrated that the New Peace Arch that's in the proposed plan 
does not include technology to stop port runners. Technology 
has advanced our ports, but without training and expertise, 
experience, technology alone would have failed to stop the 
millennium bomber in Port Angeles.
    Today's primary response is increasingly dependent on 
technology. CBPOs are instructed to clear vehicles within 20 to 
30 seconds. That is just enough time to run the license through 
a plate meter and check the identification on a database. If 
the documents are in order, the vehicle is released from 
primary into the United States.
    The majority of an officer's time is spent processing 
documents needed to enter the United States. According to a 
June 2003 Inspector General report, Washington's generated 
terrorism inspections at the nation's 317 airports, seaports, 
and land border ports have increased, as border arrests for 
drug smuggling and fake immigration documents have dropped.
    The report states that CBP officers now spend much of their 
time doing unnecessary interrogations and other work used to 
clear a wrongly detained person, that they are spending less 
time looking for smuggled drugs or fraudulent immigration 
documents. We performed over 2000 negative inspections on one 
commodity cargo before we could get to look up in the computer. 
Before the emphasis on the computer program to identify high 
risk cargo, officers had the discretion to override computer 
generated inspections which they believed to be nonproductive. 
We do not have that discretion today. One of the most 
significant issues at Blaine is continuing staffing shortages. 
According to the GAO, as of June 2003, CBP has not increased 
staffing levels at the POE. A large number of my members have 
indicated to me that they are looking to leave their CBP 
officer jobs at the Port of Blaine, and there remain a large 
number of CBP officer vacancies that have not yet been filled.
    Officers also experience a great deal of difficulty on 
obtaining transfers to other ports after they complete their 
initial three years of service, even when they have arranged a 
swap with a qualified officer in a port they wish to transfer. 
This has computed to a higher rate of resignations. In 
addition, the ratio of supervisors to staff has increased 
dramatically at Blaine aggravating the vacancy situation.
    Prior to 9/11, the goal was one supervisor to every 15 
inspectors. Today at Blaine there is one supervisor for every 
four officers. This ratio puts increasing scheduling pressure 
on the rank and file front line officers. There are also 
continuing efforts to limit overtime and the extent of officer 
safety. Another source of concern for the officers at Blaine is 
the institution of the One Face at the Border initiative that 
was designed to eliminate the pre-9/11 separation of 
Immigration, Customs, and agriculture functions at the land, 
sea, and air ports of entry.
    In practice, the One Face initiative has resulted in 
diluting Customs, Immigration, and agricultural inspection 
specialization, and the quality of passenger and cargo 
inspections. One Face--under One Face, former INS officers that 
are experts in identifying foreign visas and false 
identification papers are now at airports, sea ports, and land 
border ports of entry reviewing bills of lading from container 
ships, airlines, and rail and truck companies, while expert 
Customs inspectors are now reviewing passports and 
identification papers at airports, sea ports, and land border 
ports of entry. The process, procedures and skills are very 
different at land, sea, and airports, as are the training and 
skill sets needed for passenger and cargo inspection. A 
dangerous example of a misapplication of the One Face at the 
Border initiative occurred here on Sunday, July 9, 2006. An 
unarmed CBP agricultural specialist, untrained in the use of 
force and customs and immigration law, was ordered to inspect 
arriving passengers on a regularly scheduled Amtrak team as one 
member of a two-man inspection team. Customs policy is for 
officers in these situations to operate under the principle 
contact and cover.
    The most significant source of consternation for CBPOs is 
lack of law enforcement status for CBP officers. Within the 
CPB, there are two classes of officers. Those with law 
enforcement officers status and benefits and--
    Mr. Lungren. Can you please sum up in 30 seconds?
    Mr. Johnson. We thank the Committee for their support of 
H.R. 5814, and we urge the Committee to consider support of 
H.R. 1002, Law Enforcement Officers Equity Act.
    [The statement of Mr. Johnson follows:]

                Prepared Statement of Gregory M. Johnson

    Mr. Chairman and members of the House Homeland Security Committee, 
I would like to thank you for the opportunity to testify before you 
today on border security issues at the Washington state ports of entry 
that I represent. My name is Gregory Johnson and I am President of 
Chapter 164 of the National Treasury Employees Union (NTEU). I have the 
honor of representing the former U.S. Customs Service personnel in the 
ports of entry at Blaine, Bellingham, Danville, Friday Harbor, 
Oroville, Frontier, Laurier, Lynden, Metaline Falls, Oroville, Point 
Roberts, and Sumas. I also represent the CBP employees stationed in 
Vancouver, British Columbia. NTEU is the elected representative of 
15,000 Customs and Border Protection (CBP) employees at the Department 
of Homeland Security. I am here today to testify in my capacity as 
President of NTEU Chapter 164 and not in any official capacity or as a 
representative of either the Department of Homeland Security or CBP.
    I have been employed by the former U.S. Customs service as a 
Customs inspector since 1983. I have served at the land Port of Blaine 
since 1986. In 2002, Congress passed the Homeland Security Act that 
created the Department of Homeland Security (DHS). DHS merged former 
immigration and customs inspectors, canine enforcement officers and 
agriculture specialists into the Bureau of Customs and Border 
Protection (CBP) on March 1, 2003. CBP was given the dual mission of 
not only safeguarding our nation's borders and ports from terrorist 
attacks, but also the mission of regulating and facilitating 
international trade and travel.
    My experience goes back twenty years here at Blaine, seventeen 
years as a U.S. Customs inspector and the last three years as a Customs 
and Border Protection officer or CBPO. All CBP employees recognize that 
change is difficult, but the changes at Blaine have proved to be 
particularly challenging. CBP employees are dedicated to protecting 
this nation. We serve with pride and singleness of purpose. Stopping 
terrorism and smugglers?drugs, counterfeit goods, currency and human 
traffickers-- is our foremost goal, while at the same time moving the 
vibrant flow of legal trade and travelers across our borders. But, here 
at Blaine we are discouraged.
    The biggest challenge we face is the lack of resources and training 
to do our jobs effectively. In the past, there were three inspectors in 
secondary processing for every one inspector in primary processing. Now 
there is a one to one ratio. Before the merger, an inspector would 
check documents, query the traveler and send to secondary any vehicles 
or persons that needed additional vetting by an inspector. At 
secondary, a thorough document check or vehicle search would take 
place.
    It was years of experience that now-retired U.S. Customs inspector 
Diana Dean, after brief questioning at primary, sent Ahmed Ressam, the 
millennium bomber, to secondary where the true purpose of his visit to 
the U.S. was discovered. Without adequate personnel at secondary, wait 
times back up and searches are not done to specifications. For example, 
a full search of one vehicle for counterfeit currency will take two 
officers on average a minimum of 45 minutes.
    Technological advances are important, but without the training and 
experience, technology alone would have failed to stop the millennium 
bomber at Port Angeles. Today, primary processing is increasingly 
dependent on technology. CBPOs are instructed to clear vehicles within 
thirty seconds. That is just enough time to run the license through the 
plate reader and check identifications on a data base. If the documents 
are in order the vehicle is waved through. The majority of a CBPO's 
time is spent processing I-94s, documents non-resident aliens need to 
enter the U.S. At each shift change, it takes 5 minutes to sign on to 
these computers. During that sign-on time, so that lanes are not backed 
up at the booths, CBPOs are under extreme pressure to process visitors 
without technological support--in other words fly blind. We cannot even 
check against the flawed Terrorist Screening Database because computers 
are down during shift changes.
    According to a DHS Inspector General report (OIG-06-43, June 2006), 
watch list-generated terrorism inspections at the nation's 317 air, 
land and sea ports of entry have increased, as border arrests for drug 
smuggling and fake immigration documents have dropped. CBPOs lack 
``authority to make timely and informed decisions regarding the 
admissibility of individuals who they could quickly confirm are not the 
suspected terrorists. CBPOs now spend so much time doing unnecessary 
interrogations and other work needed to clear the wrongly detained 
person that they are spending less time looking for smuggled drugs or 
fraudulent immigration documents.''
    CBP has implemented multiple mandatory referral policies, removing 
all officer discretion and application of talent and training when 
making a decision to refer. Due to these ``random''(computer generated) 
non-discretionary (based upon country(ies) of origin and/or travel) 
referrals, CBPOs are being obligated to inspect travelers for no other 
reason than the policy itself.
    These policies have an adverse affect on the American public, who 
are being ordered for baseless inspections, despite our good judgment 
to the contrary. They adversely affect our ability to concentrate on 
intercepting potential violators of American law, while our attention 
is diverted by these repeated referrals, the true criminals are 
escaping our attention. It is a drain on manpower and hours both of 
which have reached critically low levels.
    CBPOs are inexcusably understaffed and CBP policy is further 
straining the staffing with mandated referral programs that to our 
knowledge, in no significant way increase our interceptions of 
violations of law. There is no comparison when looking at the 
percentages of interceptions that are a result of our application of 
talent and training versus those interceptions generated randomly. Some 
of us refer to it as ``winning the lottery'--meaning the possibility of 
actually encountering, significant violations with any of these 
mandatory referrals- is one in a million. There is no data that shows 
that interceptions generated randomly by a computer results in any 
greater number of apprehensions than those interceptions based on 
officers? training and experience.

Infrastructure Issues
    Since before 9/11, the need for a manned exit point for the Cargo 
Inspection facility has been highlighted by numerous port runner 
incidents. Today, commercial trucks travel in Blaine through three 
gates at primary processing. Trucks sent to secondary drive out of 
visual contact of the primary inspector and easily drive by secondary 
to the exit lane. Without a manned egress booth to check to make sure 
the truck has been cleared to leave the port, the system depends on the 
good faith of the trucker to go through secondary inspection and not 
run the gate. The Automated Commercial Environment (ACE) model 
stipulates a manned egress point, but that would require building an 
egress booth and staffing it. This has not happened yet at Blaine. For 
this reason, there is no way to know how many commercial trucks have 
run the port in Blaine in the past 12 months.
    At Blaine there is no way to stop fleeing vehicles. There are no 
employable spike strips, barriers, or other devices to stop fleeing 
vehicles. Our only recourse is to call Border Patrol, who frequently 
are unable to locate vehicles because of the attendant time delay.
    At Blaine, there is no pursuit policy. CBP policy forbids us from 
pursuing people off of port property, even when the chase begins at the 
port. And even though we have the statutory authority to pursue and 
stop all who enter the country, our agency will not let us leave port 
property, even on foot. If this policy had been followed in Port 
Angeles, Ahmed Ressam would have escaped.

Staffing Issues
    One of the most significant issues at Blaine is continuing staffing 
shortages. According to the GAO, ``as of June 2003, CBP has not 
increased staffing levels [at the POEs]'' (see GAO-05-663 page 19). A 
large number of my members have indicated to me that they are looking 
to leave their CBPO jobs here at Blaine and the large number of CBPO 
vacancies in Chapter 164 are not being filled.
    In addition, the ratio of supervisors to staff has increased 
dramatically at Blaine aggravating the vacancy situation. Prior to 9/
11, the goal was one supervisor to every 15 inspectors, today at 
Blaine, there is one supervisor for every three CBPOs. This ratio puts 
increasing scheduling pressure on rank and file frontline officers 
further demoralizing the workforce.
    There are also continuing efforts to limit overtime at the ports of 
entry in Washington State at the expense of officer safety. In the 
past, two inspectors were assigned to inspect small boats and planes in 
Bellingham and Oroville at all times. Now only one inspector is on duty 
at night. Having no back up jeopardizes officer safety as well as 
homeland security.
    It has long been proven that detection canines are an invaluable 
part of the land border security system. Detection canines are trained 
to detect explosives, drugs, concealed humans and currency. In the 
past, canine teams have been deployed during every shift at Blaine POE 
which necessitated overtime assignment for some canine teams. Since 
July 2005, over one year now, overtime has been eliminated for canine 
team duties. Dog teams work regular time only. Canine handlers do fill 
in for overtime duty but without their dogs. At a 24 hour port like 
Blaine that means that there are some shifts and sometimes whole days 
when there are no drug or bomb dog teams working.
    CBPOs at Blaine believe that both bomb and drug canine detection 
teams are integral to securing our border. CBPOs nationwide and NTEU 
strongly support H.R. 4285 introduced by Representative Michael Rogers 
(AL), a member of the House Homeland Security Committee, to increase by 
not less than 25 percent the number of trained canine detection teams 
deployed at and between the POEs.

One Face at the Border Initiative
    Another source of concern for the CBPOs at Blaine is the 
institution of the One Face at the Border (OFAB) initiative that was 
designed to eliminate the pre-9/11 separation of immigration, customs, 
and agriculture functions at US land, sea and air ports of entry. In 
practice, the OFAB initiative has resulted in diluting customs, 
immigration and agriculture inspection specialization and the quality 
of passenger and cargo inspections. Under OFAB, former INS officers 
that are experts in identifying counterfeit foreign visas are now at 
seaports reviewing bills of lading from foreign container ships, while 
expert seaport Customs inspectors are now reviewing passports at 
airports. The processes, procedures skills are very different at land, 
sea and air ports, as are the training and skill sets needed for 
passenger processing and cargo inspection.
    An example of misapplication by CBP management at Blaine of the One 
Face at the Border initiative occurred on Sunday, July 9, 2006 when an 
unarmed CBP Agricultural Specialist was ordered to inspect arriving 
passengers on the regularly scheduled evening Amtrak train. The 
Agricultural Specialist assigned to this duty had not been trained in 
the CBP use of force policy or armed and dangerous response or the 
provisions of the land border inspectional safety policy.
    Blaine CBPOs have on a number of occasions encountered felony 
fugitives, narcotics violators, and passengers on the Amtrak passenger 
trains who have bypassed the pre-clearance inspection in Vancouver. In 
June 2006, six illegal aliens were found on the Amtrak train who had 
boarded in Vancouver without inspection.
    It is apparent that CBP sees its One Face at the Border initiative 
as a means to ``increase management flexibility'' without increasing 
staffing levels. It is instructive here to note that the former U.S. 
Customs Service's last internal review of staffing for Fiscal Years 
2000-2002 dated February 25, 2000, known as the Resource Allocation 
Model or R.A.M., shows that the Customs Service needed over 14,776 new 
hires just to fulfill its basic mission--and that was before September 
11. Since then the Department of Homeland Security was created and the 
U.S. Customs Service was merged with the Immigration and Naturalization 
Service and parts of the Agriculture Plant Health Inspection Service to 
create Customs and Border Protection. CBP has two overarching and 
sometimes conflicting goals: increasing security while facilitating 
trade and travel.
    Congress, in the House-passed Immigration and Border Security bill, 
HR 4437, the focus of this hearing, in section 105, requires the 
Secretary of Homeland Security to submit a report to Congress 
``describing the tangible and quantifiable benefits of the One Face at 
the Border Initiative. . .outlining the steps taken by the Department 
to ensure that expertise is retained with respect to customs, 
immigration, and agriculture inspection functions. . .? It is NTEU's 
belief that without adequate training and preservation of inspection 
specialization skills, the OFAB initiative is destined to fail to meet 
its objective.

Law Enforcement Status
    The most significant source of consternation for CBPOs, is the lack 
of law enforcement officer status for CBP officers. Within the CBP 
there are two classes of federal employees, those with law enforcement 
officer status and its benefits and those without. Unfortunately, 
Customs Inspectors, Canine Enforcement Officers and INS Officers fall 
into the latter class and are therefore being denied the benefits given 
to other federal employees in the CBP who they work with at 317 ports-
of-entry across the country including every international airport.
    NTEU Chapter 164 members appreciate that the Homeland Security 
Committee recognized this inequitable treatment of CBPOs and did 
include in Section 406 of H.R. 5814, the Department of Homeland 
Security Authorization bill, LEO status to armed enforcement personnel 
at CBP from its creation on March 2003 forward, but for CBPOs like me 
who have over twenty years at our legacy agencies, this provision has 
limited effect.
    The remedy for me, and many CBPOs transferred from legacy agencies, 
exists in another important piece of legislation involving the 
definition of law enforcement officer, H.R. 1002, Law Enforcement 
Officers Equity Act of 2005. NTEU strongly supports this bipartisan 
legislation introduced by Representatives Bob Filner (CA) and John 
McHugh (NY) and has 151 cosponsor to date including Homeland Security 
Committee Chairman Peter King (NY) and full Committee and Subcommittee 
Ranking Members Bennie Thompson (MS) and Kendrick Meek (FL). This 
legislation would include legacy customs and immigration enforcement 
officers along with those with a limited number of others with similar 
duties in other federal agencies as law enforcement officers for the 
purpose of 20-year retirement and allow our prior service to count 
toward this benefit.
    Not many people recognize the sacrifices that CBPOs and Canine 
Enforcement Officers make for the CBP. Their lives are controlled by 
their jobs. They rarely work regular 9-5 schedules and they have little 
control over the schedules they do work in any given two-week period. 
Staffing levels are not adequate to meet the needs of most ports, so 
Inspectors are frequently asked to work on their days off or to work 
beyond their regular shifts. The constant strain of performing 
dangerous, life-threatening work on an irregular and unpredictable 
schedule has a profound impact on the health and personal lives of many 
CBPOs. They must maintain control and authority, sometimes for 16 hours 
a day, knowing that a dangerous situation could arise at any moment.
    January 24, 2006, two alleged felons wanted in California, were 
chased by Washington State troopers and local county officials, into 
the Port of Blaine. Two CBPOs pursued the suspect, shot and wounded 
one, and both were captured. On February 28, 2006, another deadly 
shooting at Brownsville, Texas occurred at a U.S. border crossing, the 
third in a little more than a month, when CBPOs were forced to open 
fire on the driver of a stolen vehicle who was attempting to flee 
across the border. At least two CBPOs were involved as the suspect 
turned the vehicle toward them and tried to run them down in an effort 
to escape. The third recent CBP officer-involved shooting occurred at 
the southwest border in Douglas, Arizona. It is clear that CBPOs are 
performing law enforcement officer duties without law enforcement 
office status and recognition.

Conclusion
    Each year, with trade and travel increasing at astounding rates, 
CBP personnel have been asked to do more work with fewer personnel, 
training and resources. The more than 15,000 CBP employees represented 
by the NTEU are capable and committed to the varied missions of DHS 
from border control to the facilitation of trade into and out of the 
United States. We are proud of our part in keeping our country free 
from terrorism, our neighborhoods safe from drugs and our economy safe 
from illegal trade. We are deserving of more resources and technology 
to perform our jobs better and more efficiently.
    The American public expects its borders and ports to be properly 
defended. Congress must show the public that it is serious about 
protecting the homeland by fully funding the staffing needs of the 
CBPOs at our 317 POEs. I thank you on behalf of all the members of NTEU 
Chapter 164 for visiting the Port of Blaine and talking to the CBPOs, 
canine officers, and trade entry and import specialists here to fully 
comprehend the jobs we do and what our work lives are like.

    Mr. Lungren. Thank you very much. Thank you for all of your 
testimony. We're now going into a round of questioning. We'll 
see if we can get through two rounds of questioning. We do have 
get out of--I guess we have to leave here at five of 4:00 to 
allow this room to be cleared by 4:05. So we'll see if we can 
do that.
    Mr. Dicks. The mayor said he wouldn't throw us out.
    Mr. Lungren. Well, I talked to the sheriff and the police 
chief.
    Mr. Harris, one concern we have, obviously, in looking at 
all of this is beyond the question of illegal immigration, and 
goes to the question of the backdrop of terrorism, and there 
has been concern among members of Congress that we ought to 
start looking at the northern border, not because we have a 
tremendous number of illegal immigrants that we do on our 
southern border, but rather but because of Canada's previous, 
some would suggest, previous less-than-vigorous concern about 
violation of their immigration policy and the prospect of 
terrorists coming to that country, that that would be a natural 
corridor for people if they wish to come into the United States 
in a terrorist mode.
    I take it from your testimony your suggestion is that you 
think things are getting better in your country, that you're 
doing a better job in terms of your overall immigration policy 
with respect to potential terrorists and that you're doing a 
better law enforcement job of trying to check on terrorist 
cells or potential terrorist affiliates in your country.
    Mr. Harris. I think that's fair to say, although I should 
mention at the operational level, I think the services 
involved, the RCMP, local, municipal, and even at regional, 
police organizations, and the intelligent ones have always been 
very adept at the work that they are doing and tend to not be 
the political levels that we found some of the greatest 
difficulties, although that is not, of course, to ignore the 
fact that we have, as a country, inherited some difficult 
situations. Just an example, there have been about 46,000 
people who were applicants as refugee claimants who have in 
effect gone missing. We don't take statistics or identities on 
those who left the country, and those were people who were 
otherwise ordered deported, and they simply didn't report to 
anyone. So we don't know where they are. So that of course is 
an ongoing kind of challenge that we face. Beyond that, Canada 
suffers in the same way as many western jurisdictions, and 
therefore it seems only prudent that the US would guard its 
northern frontier in a similar fashion.
    Mr. Lungren. Mr. Riley, you talked about the various 
approaches we need to have. It seems to me you stress the idea 
of planning and continue the evaluation and planning all the 
way through. At the time of the creation of the Department of 
Homeland Security, there were those that argued that we ought 
to utilize the military model as much as possible, that is DOD, 
the way they approach things, the way they do long-range 
planning, the way they have worked in a sense in partnership 
with Congress for that long-term planning. I'm just wondering 
with respect to your idea of establishing policies, 
establishing plans, establishing management tools, would you 
suggest that we utilize a DOD model, or is it so essentially 
different that it does not lend itself to model?
    Mr. Riley. I think the infrastructure that supports policy 
planning in the Department of Defense, but not just the 
Department of Defense, DOE, as well, is essential here. I would 
also point out that the--point to the significant investment at 
the National Institutes of Health in healthcare policy research 
and work that helps formulate and guide policymaking on the 
healthcare front. In almost every other dimension of national 
policy planning, we have significant architecture in place to 
support policy development. Ten FFRDCs, federally funded 
research and development centers that support the Department of 
Defense, 16, including the national labs that support the 
Department of Energy, there's significant underinvestment in 
Homeland Security issues.
    Mr. Lungren. Senator Brandland, could you give me an idea 
of the type of prosecutions that you're referring to that are 
borne by your county as a result of the federal authorities not 
wishing to prosecute those who have violated our immigration 
laws or have come across the border illegally? I'm sorry, I've 
got 30 seconds, but--
    Mr. Brandland. Yeah. I would say the bulk of them are of a 
drug-related nature, and in certain cases just criminal 
related, as well. We also see some things that are not related 
to the federal presence. Because of our proximity, we have 
people that are deported from Canada, are deported to Blaine, 
and we end up having to take care of those issues, as well. And 
I would say in answer to your question, it's criminal and 
primarily drug related.
    Mr. Lungren. Thank you very much. My time is up. Ms. 
Sanchez is recognized for five minutes.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you 
gentlemen for being here today. To the Senator, I have a 
question with respect to SCAAP.
    Mr. Brandland. With respect to what?
    Ms. Sanchez. SCAAP, State Criminal Alien Assisted Program. 
It's a federal program. Every year when the President's budget 
comes out in the six years, five years now, six years, he has 
no money in it. I know because as a Californian, we're impacted 
by criminal aliens, and the incarceration, processing into the 
incarceration process that we have in effect, we pay for it out 
of our state budget. So when he zeros that out and gives us no 
money for that, we get very upset, and quite frankly the 
Democrats work very hard, and we get money put back in for 
that.
    Are you familiar with the program, and what do you think of 
it, and could Washington State use more funds for the 
incarceration of criminal aliens?
    Mr. Brandland. Yeah, I'm familiar with it. I've been out of 
the sheriff's office for about four years, and so I'm taxing my 
memory here a little bit. But yes, I am supportive of it. I 
believe that especially Whatcom County exemplifies the reason 
for particular programs like that. We're all here trying to do 
a job, and it's not just the federal government that's trying 
to deal with these issues. We work hand in hand with these 
people, and we're not complaining about it. So all we would 
like to do is have the resources to get the job done.
    Ms. Sanchez. Once we fight for it, and we get it put into 
the budget, actually we pass it every year and every year we 
manage to put moneys into it. We've only been able to put about 
half of the amount. So it really affects the state that is near 
a border, like California that has a large immigration issue 
going on, and in particular when it comes to actually wanting 
to put some of these criminals and incarcerate them and put 
them behind bars.
    I have a question for Mr. Johnson. Obviously your members 
are on the front lines. In fact, when you see what's going on 
every day, you see how the strategies at the border is working 
or not. I'm appalled, quite frankly, to have heard some of the 
comments in which you made with respect to supervision, number 
of people, vacancies, morale and among your colleagues. You 
know, we hear some of this back in Washington D.C., but not to 
the extent that you've explained it, and that really bodes not 
well for our situation here at the border.
    What do you think we can do to improve your members' 
ability to do their jobs better or to help them do their job? 
What is it that we as congresspeople need to take back and 
change so that we can help you do your job better?
    Mr. Johnson. Give them the resources they need to do the 
job, which is people, staff. Before you arrived at the Peace 
Arch yesterday, there was a three-and-a-half hour backup that 
our officers were instructed to clear out before you got there, 
which they did.
    Ms. Sanchez. And how did they clear them out, given that's 
important? Did you put more bodies; did you tell officers 
you're staying overtime now for the next two to three hours 
until we get this cleared out? How is it that you just--
    Mr. Johnson. It's called, ``Hi, how are you, have a nice 
day.''
    Ms. Sanchez. Hi, how are you, have a nice day. Hmm. 
Anything else you want to let us know, aside from resources, 
staffing, the morale? Can you talk a little about why--
    Mr. Johnson. Officers were hired--we have a lot of officers 
that are hired from the Texas border, Brownsville, Laredo, Del 
Rio, El Paso. I can't for the life of me imagine why they'd 
want to go back. They want to go home. They've been here three 
years. They were told they had to serve a three-year 
appointment at Blaine. At the end of three years, they could 
put in for reassignment to Texas. Their families have stayed in 
Texas. They run separate households. They are told, no, you 
can't go.
    Ms. Sanchez. Thank you, Mr. Johnson.
    Mr. Johnson. And the officers have a difficult time getting 
their reassignments.
    Ms. Sanchez. The last question I have is for Mr. Harris.
    US--do you think it will actually prevent terrorists from 
entering the US should Canadians be required to be part of US 
VISIT, and how would you set up US VISIT at our land border, 
and should Canadians create their own entry/exit system, too?
    Mr. Harris. Well, thank you for the question. That sounds 
as though it might deal with some of the subject matter in 
which my colleague, Ambassador Collacott, is expert, but for 
myself, I think generally I'd be concerned about adding 
unnecessary complications to the cross border dynamic. I am a 
bit--I'm uneasy about anything that would smack of automatic 
precleared passage, and I know that there may be room for this 
kind of thing in places, but I would be a bit concerned that 
one might find terrorists able to master these systems in 
effect to play them and take advantage of that. So I would have 
to put any judgment in abeyance until I resolved it in the way 
of bit of detail.
    Ms. Sanchez. Thank you, Mr. Chairman, for the time, and Mr. 
Harris.
    Mr. Lungren. Chairman Reichert, five minutes.
    Mr. Reichert. Mr. Chairman. First, for Mr. Johnson, there's 
some people have talked about dividing ISIS and the CBP; what's 
your opinion of that idea?
    Mr. Johnson. We would like to have our agency--
    Mr. Reichert. That's a yes?
    Mr. Johnson. Yes.
    Mr. Reichert. As part of the morale issue, is it the 
quality of benefits and pay along with--
    Mr. Johnson. Benefits and pay is always a morale issue for 
government employees. That's--
    Mr. Reichert. Off the record. I know that.
    Any other morale issue besides the travel issue of not 
being able to go back to their home?
    Mr. Johnson. The morale issue, if you see what goes on at 
the Peace Arch on a Saturday or Sunday, we have a line, a lobby 
full of people, not only just packed, they're packed deep in 
there. And they go out of the building and into the parking 
lot. We have cars parked three and four deep in the bays on 
each side, put one or two officers out there to try to control 
the bedlam. Every officer inside is processing immigration 
documents. We are--we're bound. We're bound up. We're doing the 
best with what we have.
    Mr. Reichert. Are you still a working officer?
    Mr. Johnson. I'm still a working officer, and I work 
Saturdays and Sun--Saturdays at the Peace Arch, not Sundays.
    Mr. Reichert. Thank you, Mr. Johnson. Thank you for your 
service.
    Ambassador Collacott and Mr. Harris, besides the one point 
that I think was made a little bit earlier that the United 
States is placing additional effort on the Mexican border as a 
point of contention between the Canadian government and the US 
government, are there any other US border policies that are 
objectionable to the Canadian government that you know of that 
we might be able to work on?
    Mr. Collacott. I might comment briefly on that. Obviously 
we're not extremely enthusiastic over US visas because it's 
going to slow down the traffic in terms of the mutual benefit. 
Proportionately it's very important to Canada. The question 
also was asked, though, was about similar programs for Canada.
    I personally think that we should be keeping track of who 
enters our country and who leaves our country much more 
closely. It's a very costly issue, and the Canadian reluctance 
to--well, I say they agree to because it's not ours to agree 
to, but Canadian unhappiness with having the US VISIT program 
imposed on them, but they said, well, it would cost a lot of 
money. Well, I'm afraid some of these measures do cost a lot of 
money, and they're never going to be perfect, and it doesn't 
guarantee every terrorist will be stopped, but I think it would 
be a major deterrent.
    So my own position is I would like to see us have some 
similar way of keeping track on our territory because we have 
tens of thousands of people who we have no idea if they're 
still in Canada. They've been ordered deported, something like 
50,000 with active deportation orders out, and we don't know 
where they are. And I think we to protect our national 
sovereignty, we should have a better idea of who's in that 
territory. Some people object because they say, well, it's 
getting too close to the Americans, and we've got to show our 
sovereignty, but I think we would be strengthening our 
sovereignty by taking measures which may be parallel with the 
American efforts but would be in our own self-interests, and if 
they reassure the United States that we are taking more 
adequate measures to keep the terrorists out of our territory, 
so much the better. That's a very important additional benefit 
from this.
    Mr. Reichert. Thank you. Mr. Harris?
    Mr. Harris. Thank you, Chairman Reichert. I couldn't agree 
more with the Ambassador when it comes to this whole issue of 
ensuring we know who is in the country. We must keep track of 
people and this issue of active deportees who have clearly 
vanished is unacceptable, I think in any country, and it really 
goes to the heart of solving the issues.
    It's been mentioned that in Canada, perhaps because we are 
so near, and such a giant influence in our existence, we are 
tending to jealously guard our sovereignty, and so maybe we can 
be rather sensitive about that from time to time, maybe 
oversensitive. But at the very least, I think this is one of 
those areas where we can prove our own sovereignty by ensuring 
we know who's in the country. Related to this is the issue of 
the security perimeter. Many people are somewhat concerned that 
there may be legal difficulties and sovereignty concerns about 
becoming unduly, as some might say, enmeshed in the US security 
perimeters that one might develop, and part of the concern has 
to do with information privacy laws and imperatives. There is a 
commission of inquiry going on in Ottawa these days, it will be 
issued in final report soon, that they're looking into 
circumstances related to Maher Arar, a Canadian citizen, who 
since has been moved beyond his will to Syria. I'm somewhat 
concerned about the privacy implications of this and about the 
possibility that those who are not friends of the United 
States, or indeed of Canada, may attempt to use the outcome of 
this commission, which might be critical of the United States 
and Canadian officials, to inhibit that cross border 
cooperation and the intelligence sharing respect. But again, 
you're back to issues of sovereignty.
    Mr. Reichert. Thank you, Mr. Chairman.
    Mr. Lungren. Mr. Dicks is recognized for five minutes.
    Mr. Dicks. Thank you. Mr. Johnson, do you say the biggest 
challenge you face is the lack of resources and training to do 
our jobs effectively? In the past, there were three inspectors 
at secondary processing for every one inspector at primary 
processing. Now there is a one-to-one ratio. Now, when did that 
happen? When did that happen?
    Mr. Johnson. Developed over the last several years.
    Mr. Dicks. So are you saying that-I thought we heard the 
witnesses say that the number of personnel went up, not down. 
Wouldn't that mean that the personnel would have gone down, or 
are they doing something else?
    Mr. Johnson. The number of personnel has gone up. The 
number of job demands has gone up. The number of--I've asked 
myself where these bodies are.
    Mr. Dicks. And it's your professional opinion, based on 
your long service, and--is that you need to have more people in 
the secondary area? You think this is leading us towards kind 
of sloppy procedures at the border?
    Mr. Johnson. How you work the job as a primary officer is 
you want to get people through you as fast as possible. You 
want to find the bad guy, and to do that, you work fast. You 
try to, ``Hi, how are you, Hi, how are you'' to get to the bad 
guys, but you need somebody to catch them in secondary to look 
at them because you're trying to make fast decisions. You're 
making decisions in 30 seconds is what our time and supervisors 
are demanding of us.
    So without the officers in secondary, you--you don't have 
that ability to send people in that you think need to have a 
second look at, or somebody needs to take a closer look at this 
person. I don't have time to do it. I'm on primary.
    Mr. Dicks. To there's the pressure on the individual 
because there's not as many people on secondary as there used 
to be to refer people to secondary?
    Mr. Johnson. Yes.
    Mr. Dicks. Okay. Now, let me ask Mr. Harris, you made some 
very important points. I just want to reiterate them.
    The border threat is not just a southern phenomenon. There 
is a threat from the north. As early as 1998, Canada's Special 
Senate Committee on Security and Intelligence labeled Canada a 
venue of opportunity for terrorist groups, a place where they 
may raise money, purchase arms, and conduct other activities to 
support their organizations and their terrorist activities 
elsewhere. Most of the major international terrorist groups 
have a presence in Canada.
    Now, you in your statement you thought maybe the new 
government is treating this as a more serious problem than the 
previous government?
    Mr. Harris. That's the impression one receives. This 
government seems to be more determined to come to grips with 
these issues.
    Mr. Dicks. Well, and also--I also thought the other 
statement in here, ``More recently the Canadian Security 
Intelligence Service and colleagues in its 2004-2005 annual 
report, that a relatively large number of terrorist groups 
known to be operating in Canada engaged in fundraising, 
procuring materials, spreading propaganda, recruiting 
followers, and conducting other activities.'' So I mean I--it 
sounds to me as if we ought to be taking Canada, this problem, 
this lack of urgency in Canada more seriously than maybe we 
have been.
    Mr. Harris. If I may, I think you have just, with respect, 
to quoted the report by my associate here, Mr. Riley.
    Mr. Dicks. Oh, correct.
    Mr. Riley. Mr. Dicks, that is from my written testimony.
    Mr. Dicks. Oh, I'm sorry. Why don't you comment on it then.
    Mr. Riley. Well, I think the basic point is that CSI, the 
Canadian Security Intelligence Service, has identified publicly 
in publicly available documents and threat assessments that it 
produces annually what they consider to be a significant 
radical threat residing in Canada and the consequence, danger 
that that presents to the United States.
    Mr. Dicks. So--and we have the example in Port Angeles of 
the individual coming across with--I think it was anhydrous 
ammonia. So, you know, I think the gist of this, as I get it, 
we better be taking this maybe a little more seriously. We tend 
to look at Canada as rather benign and our friend and our ally 
to the north, our great trading partner, but Canada's got to be 
willing to step up to the task of dealing with these people 
internally and helping us on this securing the border. Do you 
think they're doing that?
    Mr. Harris. I'd say precisely, as you say, we have a 
serious infiltration problem, and we've had so for some years, 
and we've got a pay attention to this, and nothing about my 
optimism relating to the current government and its attitude 
changes the fact that any government has to be watched very 
carefully, in the Canadian context of shifting demographics and 
numbers in political countries, as I was suggesting in relation 
to some of the Hezbollah protestors and their increased 
prominence in Canada. So we've got to look for results. There 
is a reason to be optimistic, clearly now, but not with 
results.
    Mr. Dicks. I know my time's up, but Senator, I want to just 
compliment you for supporting Representative Larson's 
legislation for reimbursement of Whatcom County. I think it's 
long overdue.
    Mr. Lungren. And thank you, gentlemen. Ms. Jackson-Lee is 
recognized for five minutes.
    Ms. Jackson-Lee. Again, I thank the witnesses, and let me 
say that I think the presentations of the witnesses, three of 
whom are not from this area, certainly are instructive. I know 
that one of the witnesses has already appeared before the 
judiciary committee, and I only say that because on the 
hearings that I've attended, the emphasis I would have hoped 
would have been on the local officials in the area. And since 
we're not getting that, I want to make that known on the record 
that we need to include more of the local leadership and 
citizens in the area, even though some of the testimony is 
instructive. I think as it relates to our friends to the north, 
obviously that's a sovereign nation, and they have to reform 
their nation any way that their political leadership chooses to 
do so. I think the testimony just further emphasizes the need, 
Mr. Johnson, for comprehensive immigration reform, and we look 
holistically on these issues at immigration reform, and look at 
the issues of border enforcement, border security, as we look 
at reforming the immigration system, which means that there's a 
lot of work for us to do. I think their testimony also suggests 
that you are probably, and of course I don't say this to 
dismiss any of the other witnesses, maybe the most important 
member on this panel. It is because you are highlighting for us 
a practical concern, and I hope as you highlight the practical 
concern, none of the leadership of your agencies will feel 
compelled to punish you or to punish anyone else who offers to 
speak on issues that are so very vital. And of course I hope 
that at the same time we would take this information and make 
it a vital part of our testimony, a vital part of the record. 
So I'm going to ask you again, because I'm constantly reminded 
of Diana Dean and that she'd need you as the secondary; is that 
my understanding??
    Mr. Johnson. That's right.
    Ms. Jackson-Lee. And you're using this term ``secondary.'' 
I believe Diana was on the front lines. She knew this 
individual, Mr. Ahmed Ressam, looked suspicious from all of the 
indicia that she had, and she then sent it back to the 
secondary.
    So tell me to the best of your knowledge what is the 
average workload of the CBP inspector at the point--excuse me, 
at the port in Washington, and I know you've answered the 
question before, but I want that workload definition in there, 
and so if you know, and so that workload definition, I do 
believe that we need more inspectors. Let me also not ignore 
the Senator and just say that the legislation by Rick Larson, 
the Northern Border Prosecutorial Initiative Reimbursement Act, 
is to overcome the elimination of the SCAAP dollars by the 
President. So I'm assuming that that will be a very positive 
response, and I just want to get your ``yes'' on the record. 
Again, is that accurate?
    Mr. Brandland. Yes, ma'am, the fast tracking of criminals 
through our system has been a very, very effective--
    Ms. Jackson-Lee. But the resources, $2 million that are in 
Congressman Larson's legislation, would be very helpful to this 
area?
    Mr. Brandland. Yes, ma'am.
    Ms. Jackson-Lee. And many of us are hoping and working 
together, we want to offer practical solutions. So that's why I 
raised that and is something that we should be interested in. 
Mr. Johnson, I want to let you answer, if you keep that one in 
your mind, the actual workload, and then I want people to 
understand that if there is a bust, is a catch, there may be a 
Border Patrol agent and a Customs and Border Protection, a 
person in the bust or in the effort that is getting the person 
who is violating the law; is that correct?
    Mr. Johnson. Yes.
    Ms. Jackson-Lee. I don't know if many people are aware of 
the fact that you don't have the LEO protection, Law 
Enforcement Officers protection, which gives you retirement 
benefits and other protections. We, in the bipartisan spirit, 
have put forward this resolution at Homeland Security's 
authorization, that in effect we have separated out Customs and 
Border Protection officers. We are looking for the leadership, 
Republican leadership of the Senate to take that and leave that 
provision in. Would you first answer the question about the 
workload, and again answer the question, and then this whole 
idea, this incentive making you part of the retirement 
benefits, and also the fact that you carry weapons, that you 
would also have the protection of the LEO. Mr. Johnson?
    Mr. Johnson. The workload is difficult to quantify because 
our job is catch and clean. There 's no number I can give you 
other than to tell you, say, I send a car over, and I think 
he's got currency in the car. He's a currency violator. Two 
officers searching that car for currency will take at least 45 
minutes to do a thorough, good search of the car. You have 
searches for, you know, taking marijuana. They can't compact 
that, can't hide that in the car very well, but they can put 
that in a commercial cargo, commercial truck and bury it inside 
a lumber load. You have to unload the lumber. Two officers 
searching a cargo truck takes a considerable length of time, 
another 45 minutes, minimum to do a good thorough search of the 
truck. You have to allocate the officers needed to do these 
functions. We, without talking numbers and staffing, we need 
resources to do this.
    Ms. Jackson-Lee. More inspectors?
    Mr. Johnson. Yes, ma'am.
    Ms. Jackson-Lee. And the retirement benefits, would that 
help you?
    Mr. Johnson. Retirement benefits would be a great--for the 
officers, because they always ask, we do the job, we enforce 
the laws, we stand on the line, we work the 16-hour days, and 
we don't get the retirement benefits or the law enforcement 
status that the other law enforcement officers do that come out 
and clean our catch.
    Ms. Jackson-Lee. Thank you.
    Mr. Lungren. The time has expired, and we will try to do a 
second round because I think we can get out of here at five to 
4:00. Just for the record, I looked it up, and our witnesses, 
one from the Seattle field office, which is from this area, and 
one from Blaine sector, which is in this area, the acting 
general of Washington, Mr. Johnson and Mr. Brandland are all 
from this area. So I guess five out of eight ain't bad, and we 
do have some friends from Canada, who are close to the border 
that we're talking about.
    We have not interjected partisanship into this, and I have 
tried to not to--very assiduously, but I will just say this. 
I've been involved in this issue for 28 years since I first 
came to Congress. There is no blame on any one party. Both 
Democrat and the Republican administrations have not taken 
border security seriously, and I've fought both Democrat and 
Republican administrations for not doing the job they need to 
do.
    But I'd just ask you, Mr. Johnson, are we better off with 
less people than we have now, that is what we had a few years 
ago?
    Mr. Johnson. No. We need to deploy the people--if we 
deployed the people like we did several years ago, I think we'd 
be better off.
    Mr. Lungren. Okay. Let me ask this: One Face at the Border 
initiative, you are essentially opposed to that as a concept, 
or is it not being implemented in a proper way?
    Mr. Johnson. I am thinking about that, and I've never seen 
the policy paper that the One Face at the Border came from. 
It's like somebody's idea that this would work, but they have 
never tested it. You have Customs skills and job knowledge, 
import merchandise, contraband, terrorist, trade laws to 
enforce. Immigration law is--it's mind boggling the statutes 
that they have to enforce, the inspections and the case-by-case 
law. They're both very complex disciplines.
    To run those in a blender and then add agriculture on top 
of it, and then the officers are given minimal--I think they 
started off giving them ten weeks of training and let them go 
for basic Customs officers school, and now they've evolved into 
a 16-week school which is basic immigration inspector school. 
And the two disciplines complemented each other, but now 
they've put them into one hat, and they seem to cast each other 
out.
    Mr. Lungren. Well, let me go back a ways because I remember 
this argument back 25 years ago about whether we should have 
combined Customs service and Immigration and whether we should 
have one person on the line checking people and another person 
on the line checking Customs issues.
    Is your argument against that decision, which had been made 
when I was gone, by both Congress and the Administration, or is 
it the implementation of it after that decision has been made?
    Mr. Johnson. You need--and I think at the point of the 
primary is where both of these agencies intersected. Customs 
and Immigration shared the primary responsibilities. During the 
NPR, the Department of Homeland Security came from Senator 
Leiberman's, I think his initiative back in 2002, and the NPR 
with President Clinton, he looked at this consolidation, 
President Reagan's people looked at it, President Nixon's 
people looked at consolidation. They talked about primaries 
where the two agencies shared their responsibility. Customs 
shared half, Immigration shared half, and one thought was you 
have a primary officer, an officer that did the primary 
function to refer people to the secondary specialist. Either 
the Customs or Immigration people handled the more complex 
cases.
    I see now that Immigration has so dominated what we do in 
Blaine, that Customs is almost not even addressed at the Peace 
Arch at that highway.
    Mr. Lungren. Is that shown by the lack of stops, arrests?
    Mr. Johnson. I believe you will see, if you look at the 
stats, yes.
    Mr. Lungren. And would that be across the board in the area 
of agriculture, as well as in the area of trademark or 
copyright violations, as well as drugs?
    Mr. Johnson. I believe so. I've talked to the agriculture 
people, and they said their numbers are way down.
    Mr. Lungren. Okay. Do you have those figures, or if you 
could get those, could you submit those for the record, please?
    Mr. Johnson. I don't know if I can get those numbers, but I 
can--I can seek those numbers.
    Mr. Lungren. I'd just say I was impressed when we went and 
talked with people on the line yesterday. They had no idea what 
I was going to ask them. They had no idea I was going to ask 
for an agricultural exhibit, and the people doing ag actually 
told me they thought that after getting over a little bit of a 
rough road at the very beginning, they actually do a better job 
overall, which was something different than I heard from some 
people in Washington.
    So it was kind of interesting talking to some of the people 
on the line, But I thank you for your testimony. Ms. Sanchez?
    Ms. Sanchez. Thank you, Mr. Chairman. It's true you were 
absent from the Congress during the couple of hearings that we 
had with respect to One Face at the Border, but I will tell you 
that's not something put forward by Congress. That was 
something but forward by the Administration, and in fact, the 
first day they came to talk to us about it in a hearing back in 
Washington, it was pretty interesting because as you know, 
you've got three different types of people, agriculture, 
Immigration and Customs. And quite frankly, I'm told that at 
Immigration you have two huge books of different ways that 
people can enter this country legally between all of the visas 
and documents and everything. And to say that, you know, a two-
week course you're going to be--at that time I think it was a 
two-week course they were giving to sort of interchange the 
combinations so they could put One Face At the Border.
    There's just no way that you could learn all of that, let 
alone become a Ph.D. in larvae and whatever else you need to 
know for agriculture. So it was a big brouhaha when they had 
that discussion in the Congress, Mr. Chairman. And you know, 
quite frankly, back then, we were concerned that this morale 
issue where somebody was being-someone from Customs wasn't paid 
for having to be there on Saturday being trained, but someone 
from Immigration got time and a half for being there on a 
Saturday for being training.
    Am I not, correct, Mr. Johnson, where all these, you know, 
all of these different levels of compensation, yet you were 
supposed to be one person. And they hadn't figured that out. 
And I remember in that hearing I asked, well, when will we get 
them all on the same footing and the same ranking as far as 
compensation, and I remember the answer back from the assistant 
secretary was it would take until March of the following year, 
which at that time was maybe 18 months away. Gosh, you know, 
just some unbelievable amount of time before they could even 
pay everybody in the same way. So this was not something that 
we put forward per se. It was thing that came--that was put 
into play by the Administration. And it does concern me because 
it continues to show to the morale of many of these workers. I 
want to go back to the Ambassador. You discussed--I think it 
was you, told us a little bit about the backlog of 
applications. You know, I keep trying to let my colleagues know 
that of these 8 million or 10 million or 11 million people in 
the United States with the wrong kind of documents or invalid 
documents or no documents, I would estimate almost a third of 
them under the law, under the current US law, actually have a 
legal stance to be in the United States. It's just that they've 
been in the process, and the bureaucracy has held back their 
documents from being processed, that in fact what happens is 
they give up for, you know, they can't wait seven years to be 
with their husband, and whatever it is, and they start showing 
up without them, without the right documents. I'm concerned 
when you tell me there's such a backlog in Canada. Do you think 
it would be good idea for you all to get some additional 
employees to get this backlog out of the way? I'm concerned 
about people who may come to Canada and they can come across 
the border because it seems to be, as the last panel, said 12 
miles at least, not that we're going to tell them which 12 
miles, but you could drive a VW Bug across or what have you. So 
help us here. Do you see Canada trying to eliminate that 
backlog so that we can know--have those security checks and 
everything on these people as potentials to come across the 
border?
    Mr. Collacott. A very good question. Thank you, Ms. 
Sanchez. The sheer impression of how many people we should be 
taking in because these are very large numbers, and as I 
mentioned, there's no limit on how many can apply. If they 
qualify, we're obliged to take them, and I think the other 
question is is this a better system than the US where you 
determine quotas on most of your categories and there are 
limits. I think we're already taking more. I think immigration 
is good. My parents were, my wife is an immigrant from Asia, 
and it's done a lot for Canada. But I think we've taken far 
more people than we can absorb adequately. Particularly when 
the economy is not doing well. So I think we should have those 
people in the lineup at all. We should set limits based on a 
more rational consideration of how many people we can 
effectively take. Now, to the extent you take--
    Ms. Sanchez. Do you have a security background type of 
check? Do you do it, do you pay privately to have it done, and 
how long does it take because that seems to be one of the 
biggest problems that we have in the United States.
    Mr. Collacott. It can be lengthy, and it depends on what 
kind of relationship we have the security--or where they're 
coming from, obviously. When the Taliban was running 
Afghanistan, that wasn't considered one of the agencies that 
would give us a reliable report. So it could be complicated for 
security clearance. Because of the sheer numbers who apply, 
we--it takes a couple of years to process. So--and we don't 
have enough resources. We've pushed up the numbers without 
having the resources in place to screen them properly. And some 
of our missions have reported that they really can't screen 
out, for instance, for Russian criminals and so forth because 
they don't have the resources to do it. There's huge pressure 
to issue visas. If a visa officer doesn't issue a visa, he's 
going to get calls, probably, from a member of parliament or a 
lawyer, and he's going to spend ten times as long justifying a 
refusal that has been simply approval under our system. So 
there are some very great pressures, but yeah, to the extent we 
bring someone, and I believe we should screen them properly, 
and then it's very difficult given the numbers, the lack of 
resources, and the pressure to issue large numbers of visas.
    Ms. Sanchez. Just to let you know, Ambassador, I've had 
instances where people have walked through my front door, my 
congressional office is outside of Los Angeles area, where 
they've got a letter in hand from six years ago saying--from 
the Immigration service saying, you're going to be US citizen, 
and you just need your oath ceremony, and we'll let you know as 
soon as possible. We'll schedule this for you, and then they've 
been waiting six years. So it's a major problem.
    Mr. Lungren. I'm sorry, Ambassador, we only have ten 
minutes. We need to give both members and opportunity.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Reichert. I'm going to take the first few minutes, Mr. 
Chairman, with a couple of comments, and then ask, hopefully, 
if I don't spend too much time sharing some of my thoughts, I 
can ask a question or two. This is a problem that we've seen as 
we've listened this afternoon that includes local, state, 
federal, international partnerships and teamwork and ideas and 
thoughts and energies to try and solve along with labor, 
management, money resources. I think back to a number of things 
as the sheriff that I was involved in, and Sheriff, now Senator 
Brandland can recall, a shooting at the King County courthouse 
years ago. No security in the courthouse in King County. Right 
in downtown Seattle, a shooting occurred. Now there's the 
tightest security you can imagine. It's like going through the 
airport to try to get into the King County Courthouse. 
Columbine, for example, changed the way that law enforcement 
does--attacks a problem like Columbine. Before we used to 
surround the building and watch and open negotiations and 
patiently wait. What we learned is that it doesn't work in 
today's world anymore. We have to have active shooter programs 
now that we train our police officers to actively go in and 
seek out threat and take the threat out and save lives. We're 
talking about a national, international problem, a global war 
on terror that's changed this world. Not just changed this 
community, but has changed this world, changed the way that we 
need to come together and work together to find the solution. 
And sometimes change is scary. Sometimes it creates fear 
amongst labor, amongst management, amongst other countries. 
What's the other country doing. Change causes fear. When I was 
a lieutenant, SWAT commander, I had one person working 
graveyard shift ten years. Looked like he was a zombie. I went 
to him and I said, ``Pierre, we're going to put you on day 
shift.'' Made him the maddest, angriest person in the world. 
Three months later, he came to me and he said, ``Lieutenant,'' 
and he was crying, he said, ``this is the best thing that's 
happened to me.''
    All I'm saying is we need to focus on solutions, not 
partisanship politics, but we need to work together. Everyone 
at this table, everyone in this room, everyone in this 
community, and everyone on this Committee is committed, has to 
be committed to making this country safer. Period.
    So my question, Mr. Johnson, is this: You support an 
initiative, a bill that will be introduced by Michael Rogers of 
Alabama; is that correct? It's an initiative--it's a bill that 
will increase by 25 percent the number of trained K-9, dogs?
    Mr. Johnson. Yes, sir.
    Mr. Reichert. Are you familiar with that?
    Mr. Johnson. Yes.
    Mr. Reichert. Have you been around K-9 dogs at the US 
borders?
    Mr. Johnson. Yes, I have, sir.
    Mr. Reichert. Describe some of the things that they would 
do.
    Mr. Johnson. This is straight from our K-9 officers to this 
panel. A year ago our K-9 officers were told narcotics are not 
our priority. There has been no K-9 overtime authorized for K-9 
officers in Blaine for over a year. Shifts often go uncovered 
because we have no K-9 officer available. Sometimes we have to 
call Border Patrol to cover for lack of K-9 officers, if 
they're available.
    Mr. Reichert. So you're in agreement that 25 percent 
increase would be a great
    Mr. Johnson. The more dogs the better.
    Mr. Reichert. Okay. We'll support that one for you.
    Senator 911 report reflected interoperability to law 
enforcement officials is critical. We know that. You know that 
as a sheriff up here in Whatcom. What is the one thing you 
would do to help this area to become more interoperable? Can 
you think of one thing right now that would help push--you've 
got an interoperability bill that just passed out of the House. 
I believe Senate will support that also but--
    Mr. Brandland. Yeah. I certainly support the bill that was 
passed, but if money were no object, I would be working very, 
very hard at putting all of the--all of the police agencies on 
a particular bandwidth or--
    Mr. Reichert. So solving the bandwidth problem would be 
your number one issue?
    Mr. Brandland. Yes.
    Mr. Reichert. And Mr. Chairman, before I yield, I'd like to 
ask unanimous consent of the letter that was presented to me by 
a group of citizens to me submitted for the record.
    Mr. Lungren. Without objection.
    Mr. Reichert. I yield.
    Mr. Lungren. The gentlewoman from Texas is recognized.
    Ms. Jackson-Lee. I thank the distinguished Chairman, and I 
want to take this opportunity to thank all of the witnesses and 
to respond in the same generous spirit of my Chairman, my 
comments about the opportunities for local witnesses saying, 
because I've been to a number of these hearings, and we 
appreciate the witnesses that are here, but many, many times at 
every site that I've gone, local persons who want to have 
insight, input, if you will, to these processes, are, if you 
will, limited because of a focus that draws upon national 
witnesses versus those from the local jurisdiction. Let me also 
say that I welcome the comments of my colleague. Congressman 
Reichert is absolutely right. This is why I open all of the 
hearings that I have the opportunity of being--a privilege of 
being a part of, saying that immigration does not equate to 
terrorism, terrorism does not equate to immigration.
    And this nation is a lands of laws, and it's a land of 
immigrants, and the comments of my friends from Canada and 
elsewhere really argue vigorously for what we are attempting to 
secure in this country, and that is comprehensive immigration 
reform. Knowing who is in the country is the first step to 
securing a homeland, knowing who's within your borders. 
Comprehensive immigration reform speaks directly to that, and 
enforcement only simply will not work, and it will not work, 
Mr. Johnson, because, one, you've made it very clear. You are 
eloquent in your statements about the fact that there is a need 
for more resources, particularly in the particular service that 
you're in. So I ask this question. In your testimony I heard 
that you were instructed to clear vehicles at the POE, point of 
entry, within 30 seconds at primary inspection. And this is 
barely enough time to check the license plates and the 
immigration documents. In fact, you just explained to me 
earlier, to be thorough, you need about 45 minutes, and you 
have individuals that might be on the secondary, but you don't 
have enough of those individuals. We are shortchanging it. So 
if you could explain how those instructions were given to you 
to hurry up and do what you were trying to do, and again, if 
you would indicate whether if better equipment, which we want 
to be problem solvers here, better technology in addition to 
trained personnel who have good benefits, are going to help 
secure this homeland, which is what we're all trying to do.
    Mr. Johnson. We have a myriad of systems now to perform our 
function. We still have supervisors who focus on getting the 
line down. You have a lineup out there of vehicles. They want 
to get the line down. They want this line down. They put 
extreme pressure on officers, particularly young officers on 
probation, that you meet some quota. They'll print out the 
number of vehicles cleared, cleared per hour by all the 
officers and say you're not meeting your level. And officers 
have complained to me, for the last several months 
particularly, over the pressure they're getting from 
supervisors to move cars and move cars fast.
    Ms. Jackson-Lee. And that might lead to inefficiencies, and 
they have to do that maybe because they don't have a backup?
    Mr. Johnson. They've got--they can't take the time to 
scrutinize to the level they want to.
    Ms. Jackson-Lee. And a part of that is not having the 
backup officer that helps scrutinize, and therefore they are 
gaping homes in the security that we need.
    So in essence, we need focussed resources to ensure that we 
have front-line, like you are a front-line and secondary 
officer, and a number of officers that will be sufficient to 
give that detail in investigations; is that my understanding?
    Mr. Johnson. Yes, ma'am.
    Ms. Jackson-Lee. And additional training, one of the issues 
is fraudulent documents. That's what the GOA study said. So we 
need officers who have that defined training that can stop 
fraudulent documents. That takes extra training; is that 
correct?
    Mr. Johnson. It's an intense training. We get refresher 
training to refresh it. We have to continually do it over.
    Ms. Jackson-Lee. And you need resources to do that?
    Mr. Johnson. And you need resources to do the training 
because you have to take officers off the line to train them. 
It creates a hold on the line. It's a circular.
    Ms. Jackson-Lee. And I think I understand the officers who 
are wanting transfers. They're not whiners. They live in 
another region, but they're utilized here because we are short-
handed, and I guess they bring a certain amount of training. So 
it's not that they're whining about being up here, that they 
were promised that they would go back to their site down at the 
southern border; is that not correct?
    Mr. Johnson. They were--it was--they are impressed with the 
fact that after three years of service in Blaine, they could 
transfer back to their homes in Texas where they were from. 
These are not officers who've been in Customs before. These are 
new hires off the street.
    A lot of times they've left jobs in the local economy, from 
the private sector to take a job with CBP in Blaine to get on 
with Customs with the intent of working in Del Rio or 
Brownsville, and they--their family stayed home, and they're 
running dual households, living in a bachelor apartment in 
Blaine and trying to deal with teenage kids in Texas.
    Ms. Jackson-Lee. So we need officers who can work here and 
send the officers who were requesting transfer back.
    Thank you, Mr. Chairman. I would just simply say that we 
focussed on the fact that targeted resources are going to be 
the best way of ensuring security coming in along with 
comprehensive immigration reform.
    Mr. Lungren. Thank you.
    Ms. Jackson-Lee. And I yield back.
    Mr. Lungren. And I thank all the witnesses for their 
valuable testimony and the members for their questions. The 
members may have some additional questions that they would 
submit to you. We would ask you to cooperate with us to respond 
to these in writing. The hearing record will be held open for 
10 days, and without objection, the Committee stands adjourned.
    [Whereupon, at 3:57 p.m., the subcommittee was adjourned.]

                        Submitted For the Record

Prepared Statement of Donald K. Alper, Director and Professior, Center 
   for Canadian-American Studies, Border Policy Research Institute, 
                      Bellingham, Washington, USA

    Chairman King and other distinguished members of the Committee. 
Thank you for the opportunity to submit comments for the field hearing, 
``Assessing the Northern Border: Considerations for Maintaining Secure 
and Open Borders,'' held on August 8, 2006 in Bellingham, Washington.
    My name is Donald Alper and I am Professor and Director of the 
Center for Canadian-American Studies and the Border Policy Research 
Institute at Western Washington University in Bellingham. My comments 
reflect my knowledge of Canada-U.S. relations and experience as a 
border-crosser in this region for more than 35 years. Specifically, I 
want to provide a context for border security in the Pacific Northwest 
by describing how cross border relationships are an integral part of 
the social and economic fabric of the region, and that management 
strategies must fully take this reality into account in developing the 
most effective policies and strategies for this border region. Border 
control is of course a federal responsibility, but without a robust 
network of organizational and community links that make effective 
cooperation and interaction with Canadians possible, border control 
processes are less likely to serve regional and national interests.
    This region contains 4 border crossings--referred to as the 
Cascadia Gateway--which together form the northern gateway between 
western Canada and the Pacific west. Over 23,000 cars and 3000 trucks 
cross through each day. Nearly 50 percent of trucks crossing through 
these ports of entry have a destination outside the border region. The 
Blaine Peace Arch crossing is the third busiest port of entry on the 
Canada-U.S. border.
    Border regions are unique because of geographic, economic and 
socio-cultural factors. The region, known as Cascadia, is bounded by 
the Olympics, Cascades and Coast Range mountains. The transborder 
region shares a magnificent marine environment made up of the Puget 
Sound, Georgia Basin and Strait of Juan de Fuca. Moving east from the 
Pacific, the border bisects an area known as the Fraser lowland, a 
wedge shaped valley that contains aquifers, rivers, fisheries and 
airsheds--all of which spill across the 49th Parallel. Close and 
frequent interactions have always occurred among the numerous 
communities in the lowland. Even place names cross the border, 
reflecting a pattern of settlement that largely disregarded the 
boundary.
    As a result of topography, much of the Cascadia region's population 
and economic activity is confined to approximately 5 per cent of the 
Georgia Basin-Puget Sound territory. Thus there is enormous growth 
management pressure as in-migration and the volume of trade rapidly 
increases. Border crossings have not kept pace with growth--although 
they are being improved and expanded--and transportation infrastructure 
is especially vulnerable because of the reliance on highways to move 
freight and people throughout the region. Although rail is vital for 
north-south freight movement, the predominant mode of transportation 
remains cars and trucks. Topography and urban settlement in the 1-5 
Corridor has funneled traffic into a narrow corridor with little room 
to expand. Planners have noted for years that the best way to manage 
growth is for local, state and provincial governments to engage in 
regional planning that considers the environmental and economic needs 
of the region. Perhaps more than any other Canada-U.S. border region, 
the region has a strong history of engaging in this kind of regional 
bilateral planning. Utilizing such groups as the Lower Fraser Valley 
Air Shed Coordinating Committee, the International Mobility and Trade 
Corridor (IMTC) Project, the British Columbia-Washington Environmental 
Cooperation Council, the Cascadia Mayors? Council, boards of trade and 
numerous other public-private organizations, significant efforts have 
been made to protect and enhance the environment, improve the economies 
and plan for livable communities throughout the region.
    Two large cities, Vancouver, B.C. and Seattle anchor the Cascadia 
region, although neither is geographically situated on the border. The 
cities are highly competitive; for example each is attempting to be the 
region's major port of entry for expanding Pacific Rim trade. At the 
same time, the two cities' global outlook in trade, environment and 
culture has prompted considerable interaction in areas such as global 
warming, urban design and green economies. High tech has been a major 
factor in the recent economic success of both cities. Vancouver and 
Seattle, approximately 150 miles apart, serve as major financial and 
corporate hubs for the region. Tourist travel in Cascadia is a dynamic 
and growing part of the region's economy. Civic leaders have worked 
together to advance regional tourism in forms such as ``two-nation 
vacation'' tourism and EurRail style travel throughout Pacific 
Northwest states and provinces. In preparation for the Olympics in 
Vancouver, BC, Washingtonians have coined the phrase ``Gateway to the 
Gold.'' The region is a magnet for overseas travelers from Asia and 
Europe.
    Natural resources play an important role in the economy of the 
region, although this sector is less important today than in the past. 
Yet, most of the serious cross-border political conflicts in the region 
have been over resource trade--softwood, salmon, beef and agricultural 
products. Many observers of trade politics believe that such political 
conflicts could be lessened with greater involvement of regional 
leaders and stakeholders. The highly successful 1999 Pacific Salmon 
Agreement was led by Washington State Governor Gary Locke and Canadian 
Fisheries Minister (and Victoria, B.C. resident) David Anderson.
    Politically, the region shares a common sense of ``distance'' (some 
would say alienation) from respective national capitals, and a penchant 
for local problem solving. The region, perhaps more than anywhere else 
in North America, exhibits a ``can do,'' bottom-up'' attitude in 
confronting border problems, seen especially in such areas as 
transportation planning, environmental management and tourism.
    The smaller communities which abut the border are a mix of suburbs, 
small-to medium size cities and rural towns. These communities are 
growing rapidly, especially on the Canadian side where zoning and 
natural geography limit extensions of population centers. Cities such 
as Surrey, B.C. and Abbotsford, B.C. have experienced some of the 
fastest growth rates in North America and have large and expanding 
immigrant communities from South Asia and the Middle East. Likewise, 
smaller communities in Whatcom County on the U.S. side are also growing 
with increased numbers of immigrants, many of whom have family and well 
developed social networks in the Fraser Valley and other parts of 
southwest B.C. The area's relatively moderate climate, natural 
geographic beauty and numerous cultural and educational amenities make 
the Cascadia region a magnet for retirees. Many retirees have opted for 
smaller communities close to the border such as Bellingham, WA and 
White Rock, B.C. Retirees cross the border frequently for recreation 
and cultural purposes. History and geography have played an important 
role in the mobility and informality of border relations in the 
Cascadia region. Most First Nations? and Native American people do not 
recognize the border at all, as can be seen on native maps that show a 
single region marked by interwoven tribal boundaries. Early white 
settlers were border crossers, whether motivated by the prospect of 
gold in the interior of B.C. and the Yukon or work in the canneries in 
Bellingham or points south. Workers in the woods and mines moved back 
and forth for jobs, and industry set up shop wherever it made economic 
sense, with little or no consideration given to national boundaries. 
The Pacific salmon fishery, a traditional source of livelihood for 
Native and non-Native people alike, defied territorial boundaries and 
only forced the setting of boundaries when white fishers and political 
officials insisted on ensuring shares of the resource and, later, 
implemented environmental controls and planning. Persons from 
neighboring border communities often inter-marry and, as a result, form 
strong social networks that require routine back and forth crossings. 
Cross-border shopping and recreation has spurred creation of numerous 
malls, resorts and expanded airports (eg., Bellingham, WA and 
Abbotsford, BC) in border communities.
    The Cascadia border region is well known for its ``culture of 
cooperation.'' Many binational informal and formal alliances have 
sprung up to promote economic cooperation, improve the environment, 
foster academic links and work for efficiencies and greater security in 
border infrastructure. In recent years many of these groups have sought 
to provide a regional voice on border security matters. Perhaps the 
largest and best known of these groups is the Pacific Northwest 
Economic Region (PNWER), formed in the early 1990s, and viewed as a 
regional model for other parts of North American and Europe. PNWER, an 
alliance of elected officials and businesspersons from Alaska, 
Washington Oregon, Idaho, Montana, British Columbia, Alberta and the 
Yukon seeks cooperative approaches to enhance the economic potential of 
the region. Among its accomplishments is a Bi-national Energy Planning 
Initiative focused on integrated planning for cross border energy 
corridors. Another success story is the Blue Cascades binational 
planning process for regional critical infrastructure security. The 
Cascadia Project, based in Seattle and Vancouver, is the nucleus of 
many cooperative transportation and tourism cross border projects 
involving Oregon, Washington and British Columbia. The International 
Mobility and Trade Corridor Project (IMTC), located in Bellingham, is a 
U.S.-Canada coalition of government agencies with the shared goal of 
promoting cross border transportation and security through improvements 
to infrastructure, operations and technology. The IMTC has been viewed 
nationally and internationally as a highly effective regional model. In 
the academic realm, more than 35 Canadian and U.S. universities and 
colleges form the Pacific Northwest Canadian Studies Consortium, a 
unique entity in North American and possibly the world. In media, KCTS, 
the public television station in Seattle, draws upwards of 30% of its 
viewers from Canada. The Seattle Mariners are viewed by many in B.C. as 
the ?home team,? and thousands cross the border to attend baseball 
games. B.C. resorts such as Whistler, Sun Peaks and Campbell River 
conduct major advertising campaigns in Washington cities including 
Bellingham, Seattle and Bellevue. These organizations and linkages, 
along with numerous others, are illustrative of the web of cross border 
relationships that have evolved at the regional level, linking 
Canadians and Americans in many different walks of life and endeavor.
    As problem solvers, entrepreneurial regional leaders in Cascadia 
have excelled and often shown the way for both nations. For example, 
the dedicated border lane for low-risk automobile travel (first PACE 
and CANPASS, then NEXUS) was conceived by Canadians and Americans 
working together in this region. The NEXUS program has about 100,000 
members with approximately 50% coming from this region. Law enforcement 
officials here piloted the security projects resulting in International 
Border Enforcement Teams (IBETS), later implemented along the entire 
northern border.
    The border, therefore, needs to be contextualized historically, 
geographically and culturally to adequately understand its meaning and 
functions in the lives of people and communities--all highly relevant 
to effective border management. The border has been heavily influenced 
by the habits, understandings and folkways of the region. Although the 
Canada-U.S. border in the NW region has always represented a barrier in 
some respects, the ability of people to manage and traverse it to 
engage in normal societal and economic interactions has rarely been in 
question. One could say that people in the region have always 
appreciated the border for what it fundamentally means--a demarcation 
of sovereignty between two countries which allows each to control its 
own economy and social policies, whether it be handgun restriction, 
national medicare or capital punishment. In short, within the border 
communities the border is seen as vitally important because it 
magnifies national identity while encouraging international contact and 
diversity.
    What are the implications that can be drawn from this overview for 
border security planning in this region?
        1. Local, state and provincial business interests, civic 
        groups, public-private partnerships and other relevant 
        constituencies should be regularly called upon to play a 
        significant role in shaping workable programs. More resources 
        should be targeted to the regional level where cooperation, 
        teamwork and entrepreneurship are ongoing and effective. If the 
        overriding objective is to make the border as secure, efficient 
        and transparent as possible, border policies and processes 
        should reflect and respond to the ideas, interests and 
        pragmatic realities of stakeholders who are most involved with 
        them.
        2. Highly effective programs such as IBETS, FAST and NEXUS work 
        well and really need little more than wider application and 
        full funding to both improve security and speed-up border 
        crossings. The cooperative work that goes into NEXUS and IBETS 
        is crucial to making these programs work. These programs rely 
        upon and reinforce teamwork and trust which in the final 
        analysis are the most important ingredients in effective border 
        management and enforcement. More resources need to go into 
        these programs which have proven themselves on the ground.
        3. In partnership with Canadians, there should be a high 
        priority effort to move clearance procedures away from the 
        border. In the short term, this would involve accelerating the 
        process of pre-clearance of freight and people at the point of 
        departure outside North America. This kind of `perimeter 
        clearance' involves harmonized clearance procedures, but does 
        not require the two countries to harmonize their visas or 
        external tariffs. What is required is a ``NORAD-like'' data and 
        information system which would allow for the accessing and 
        sharing of intelligence data related to threats, whether in the 
        form of people or material. It seems evident that if we trust 
        each other enough to allow for intelligence and operations' 
        sharing at the highest level of North American security, why 
        should we be any less trustful when it comes to data necessary 
        to determine if freight or people qualify to be cleared into 
        Canadian and U.S. territory? It should be noted that there are 
        significant regional actors such as Intervistas Consulting, 
        based in Vancouver, and Western Washington University's Border 
        Policy Research Institute that are actively involved in 
        advocating and studying the implications of perimeter 
        clearance.
        4. A binational regional team of stakeholders, including 
        representatives from the Department of Homeland Security and 
        the Ministry of Public Safety in Canada should be constituted 
        to assess what we do at the border, and how what we do might be 
        improved, changed or harmonized (including appropriate 
        legislation, regulations or MOUs). The team would be ongoing 
        and meet at least once a year. Assessment of this kind would 
        help to build a stronger sense of cross-border teamwork and 
        esprit de corps, and of course likely produce valuable 
        recommendations to the respective national governments.
        5. Border management and control in this region needs to be 
        systematically evaluated in terms of specified intended 
        objectives, to include indicators for determining whether or 
        not such objectives have been attained. The evaluation process 
        must be binational and should be led by a team of Canadian and 
        U.S. universities in the region. Such evaluations are common in 
        other realms. The Georgia Basin-Puget Sound Ecosystem 
        Indicators Report (2002) identified key indicators for 
        assessing the stressors and human responses that account for 
        the state of the shared ecosystem. Similarly, numerous studies 
        involving Canadian and American researchers have been conducted 
        on contaminants in the shared marine waters of the region and 
        in the rivers and watersheds of the Columbia Basin. Such an 
        evaluation process should form the basis of a cross-border 
        Border Studies Consortium (or Center of Excellence) made up of 
        universities and think tanks with the capacity to engage in 
        wide ranging border studies, and maintain a neutral site for 
        serious discussions, teaching and research on the Canada-U.S. 
        border.
        6. Finally, implementation of the WHTI should be delayed until 
        Canada and the U.S. agree on what each country will accept as 
        secure identification, whether it be a pass card, new form of 
        driver license or passport. Ultimately, like in Europe, the 
        countries will need to agree on what constitutes national 
        identification to assure that people and freight continue to 
        move efficiently back and forth. It would be costly, 
        economically disruptive and a source of needless antagonism in 
        the Canada-U.S. relationship to proceed in accordance with pre-
        determined deadlines without a firm agreement by both countries 
        to establish mutually acceptable identification.
    Nobody can deny that the border generates seemingly opposing 
imperatives (security must be reconciled with ease of crossing) that 
require balance. Because of historical social relationships, locals and 
regional stakeholders are probably more aware of this than bureaucrats 
and policy makers in national capitals. Border communities are deeply 
invested in making the border work; they have the most to lose and gain 
if the process isn't working. Their involvement in the border 
management process is vital and needs to be expanded. This conclusion 
is not new. The most comprehensive study of the northern border by 
Demetrios Papademetriou and Deborah Waller Myers in 2000 concluded that 
in light of the speed of social and economic transformations on 
borders, ``the public sector in the capital city may be the least well-
prepared entity to effectively shape and manage such changes.'' The 
requirements of security and mobility must be a cooperative process 
that effectively bridges, not divides, our two societies and one in 
which local stakeholders are called upon for maximum input.

Prepare Statement of the Honorable Maria Cantwell, a Representative in 
                 Congress from the State of Washington

    I want to begin by thanking members of the House Homeland Security 
Committee for holding this hearing today. Washington state faces unique 
security challenges and this field hearing allows for a focused 
discussion on these challenges and ways we may work together to 
overcome them.
    Those of us who live in America's border-states know that border 
security is our first line of defense. It's especially difficult to 
secure our 4,0000 mile-long northern border--nearly twice as long as 
our southern border with vast, rural and rugged terrain between many 
official points of entry.
    Yet today, only 10 percent of our nation's border patrol agents and 
resources are deployed along the northern border, despite the fact that 
we have apprehended terrorists attempting to cross via northern points 
of entry.
    This fact has been demonstrated by two relatively well-known cases 
here in Washington state over the past decade. Abu Mezer was stopped 
three times at the U.S./Canada border in Whatcom County. On his final 
attempt, he came through the wilderness at Ross Lake, was picked up, 
held by INS and subsequently released. In 1997, he was arrested in New 
York and charged with plotting to bomb the subways.
    In 1999, Ahmed Ressan entered the country at Port Angeles, 
Washington, where he was caught and arrested for plotting to attack Los 
Angeles International Airport.
    Ressam was able to exploit a loophole in the Visa Waiver Program to 
move from Algeria to France, from France to Canada and from Canada into 
the U.S. At each stop, he created a false identity and attempted to 
enter the United States without a visa by using a false Canadian 
passport. He was apprehended thanks to the vigilance of one our customs 
agents. But it is clear he should have not have gotten so far.
    In 2004, I introduced legislation to require countries 
participating in the Visa Waiver Program to use biometric fingerprint 
identifiers for third-country nationals just like Reseam. This would 
make it much more difficult to falsify identities and much easier to 
discover illegitimate documentation. Under my legislation, the 
Secretary of State must certify to Congress, by the end of October, the 
progress that Visa Waiver Program countries have made to comply with 
this requirement.
    In both the instances I've described, we were fortunate to 
apprehend these individuals. However, it's clear we have far more work 
to do to secure our northern border. The Government Accountability 
Office (GAO) further underscored this fact in testimony provided just 
last week before the Senate Finance Committee. The GAO found that 
undercover agents were able to use commercially available software and 
other materials to produce counterfeit identification, used to gain 
entry into the U.S. at nine land ports of entry.
    In these under cover exercises, GAO also reported that Customs and 
Border Protection (CBP) agents were unable to identify the fake 
documents presented to them.
    Last week's GAO report followed similar testimony the agency 
offered before the Senate's Permanent Subcommittee on Investigations 
this March, stating that in 2005 two teams of undercover agents 
successfully smuggled radioactive material--Cesium 137--through points 
of entry in Texas and Washington.
    Mr. Chairman, the status quo is clearly unacceptable. We must 
implement a smart system that uses best available , interoperable 
technology, which will ensure our CBP officers' ability to verify the 
identity of an individual and the authenticity of the documents they 
possess.

Western Hemisphere Travel Initiative
    This is why I supported the Intelligence Reform Act of 2004, which 
directed the Department of Homeland Security (DHS) and State Department 
to establish a system that would require an individual to possess a 
secure, tamper-proof document to gain entry into the U.S.
    In 2005, the departments announced a proposed plan entitled the 
Western Hemisphere Travel Initiative (WHTI) to implement this 
requirement in two phases beginning in 2007. While I support the 
general goal of this initiative, there are smarter, more efficient ways 
to go about it. Implementing the program on the northern border as 
proposed would have a detrimental impact on the legitimate trade, 
tourism and travel on which the economies of northern border 
communities rely.
    For citizens of Washington state, it is absolutely critical that 
WHTI be implemented in a manner that minimizes any adverse effects on 
our citizens and economy. It must be proven to work. It must strike the 
right balance. With the best technologies and an appropriate plan for 
implementation, border security and efficient, cross-border commerce 
can work in tandem.
    That's why the costs for obtaining any new credential must be 
affordable so that those Americans who live in our border communities 
and travel frequently between the U.S. and Canada are not unduly 
restricted in their travels.
    In addition, tourism in Washington state is a major industry. 
Businesses providing transportation services to British Columbia make 
up a significant segment of this industry. We have both private and 
public ferries operating between Vancouver Island and Washington state. 
Washingtonians understand our ferries serve as an extension of our 
highways. As we move to implement WHTI, we must ensure that information 
is disseminated well ahead of implementation so that individuals may 
become familiar with new travel requirements. This is why I support 
including ferries in the roll out of WHTI as it applies to land border 
crossings.
    Finally, as the most trade dependent state in the U.S., our economy 
depends on a smooth and seamless international transition that does not 
adversely affect the movement of goods across our border.
    For these reasons, I've supported pushing the WHTI implementation 
date back to June 2009. While we continue to work on better securing 
our borders through the deployment of additional agents and resources, 
we must also ensure we establish the most intelligent system possible, 
to minimize any impact to legitimate travel, tourism and trade.

Combating International Drug smuggling
    I also want to highlight another aspect of border security we 
understand well here, in Washington state. Border security also means 
keeping our communities safe from international drug smuggling.
    In 2005, just north of Lynden, Canadian customs agent discovered a 
360-foot tunnel between the U.S. and Canada, which was being used to 
smuggle drugs. U.S. and Canadian authorities worked together and 
apprehended three individuals smuggling 93 pounds of marijuana into the 
U.S. They estimate that hundreds of pounds of drugs had been smuggled 
through the tunnel.

Crimilizing the Construction of Smuggling Tunnels
    Currently there is no federal statute permitting law enforcement to 
punish individuals who have constructed tunnels on their property 
smuggling and other illegal activities.
    That is why I was proud to introduce the Border Tunnel Prevention 
Act (S.2355) with Senators Feinstein and Kyl.
    This vital legislation, included in the DHS Appropriations Bill for 
next year, criminalizes the construction or financing of any tunnel 
across the border into the U.S. used to smuggle drugs, weapons, and 
even terrorist. Law enforcement agencies all along our borders need 
this additional tool to help them keep our borders safe and combat the 
influx of drugs into our communities.
    It is becoming increasingly clear that drug smuggling organizations 
are willing to use illegal, dangerous, and increasingly sophisticated 
schemes, to enter the U.S., especially along our northern border.
    Just last month, the U.S. Department of Homeland Security announced 
the results of a two-year clandestine program, Operation Frozen Timber.
    The effort targeted and dismantled a British Columbia-based 
smuggling organization that used helicopters and airplanes to transport 
large quantities of drugs across the border into the North Cascades. 
Local Law Enforcement stepped up as well, with sheriff's departments 
from Whatcom, Skagit and Okanagan Counties playing their part.
    In all, Operation Frozen Timber intercepted more than 17 drug load, 
seizing 8,000 lbs of marijuana, 800 lbs of cocaine, three aircraft and 
$1.5 in cash. Forty-five indictments and 40 arrests have been made in 
connection with this operation.

Unmanned Aerial Vehicles (UAVs)
    Operation Frozen Timber showed that we need to continue to develop 
and deploy new technologies to assist our personnel surveying and 
securing our borders. These technologies have the potential to save 
taxpayers millions of dollars and reduce the loss of life.
    UAVs are already deployed in limited using along the Southern 
border and have proven an effective resources to expand the reach and 
overall capability of agents as they respond to incidents. With 
extended range, UAVs can conduct prolonged surveillance sweeps over 
remote border areas, relaying information to border agents on the 
ground and closing surveillance gaps that currently exist.
    These efficient and effective UAVs, have proven to be an invaluable 
asset in Operation Iraqi Freedom having flown more than 14,000 combat 
hours in the Iraqi theatre.
    I sponsored an amendment also included in the FY2007 Department of 
Homeland Security Appropriations bill calling on DHS to work with the 
Federal Aviation Administration (FAA) to conduct a pilot project at 
Northern Border Air Wing sites to test UAV's along the northern border 
for border security purposes.
    Assessing the use of UAV's in this role is critical to modernizing 
our patrol capabilities to secure our borders.

    Supporting Local Law Enforcement_Northern Border Prosecution 
Initiative
    The last issue I'd like to touch on is the critical need to support 
our local law enforcement jurisdictions in the important role they play 
securing our borders. Every year hundreds of criminal cases and their 
soaring costs are thrust onto our northern border communities by 
federal entities.
    It's all too clear that our state and local governments are bearing 
an unfair financial burden. In Washington state, and between 80 and 90 
percent of criminal cases initiated by federal authorities are 
ultimately handled by local prosecutors. This has a significant impact 
on the entire criminal justice system in communities along Washington's 
northern border.
    In 2004, Whatcom County was forced to prosecute more than 85 
percent of the criminal apprehensions made by federal law enforcement 
officers at or near the border. It cost the county more than $2.5 
million.
    That's why I'm working with Congressman Larsen to establish a 
federal program to reimburse northern border communities for the cost 
of prosecuting and detaining individuals suspected of border crimes. 
This program would be authorized under legislation we've introduced in 
the House and Senate entitled the Northern Border Prosecution 
Initiative Reimbursement Act.
    Washingtonians deserve accountability when it comes to they're own 
tax dollars and they deserve confidence when it comes to their safety. 
when our resources are stretched thin, law enforcement must do more 
with less and ultimately, the safety of our communities is compromised. 
An in this era of record deficits, federal policy makers are often 
forced to make tough decisions. That's why it is absolutely imperative 
that we make the smart choices that invest in the new technologies, the 
personnel and other resources that will make our borders more secure.
    In closing, I believe we are all here today because everyone agrees 
the security risk posed by our nearly 6,000 miles of porous borders is 
simply unacceptable. We have long needed a more effective border 
security plan. I want to thank the members and other participants for 
their steadfast commitment to securing our borders and I look forward 
to working with all of you in the future as we continue to identify 
better ways to protect our nation.

 Prepared Statement of the Honorable Rick Larsen, a Representative in 
                 Congress from the State of Washington

    Dear Mr. Chairman:
    Thank you for providing me with this opportunity to submit comments 
for the record and for holding this important hearing today on security 
along the Northern Border.
    In Washington state border security is backyard security and border 
news is local news. This hearing is important as it will focus on the 
unique concerns and issues that face the Northern border and the 
citizens of Washington state. Nationally, the border security debate 
has focused on immigration. Here at the Blaine Peace Arch and along the 
border in Washington state we face the unique challenge of protecting 
ourselves from drug interdiction and organized crime while maintaining 
an economically productive traffic crossing with our Canadian 
neighbors.
    Canada is America's number one trading partner. With over $1.6 
billion worth of goods crossing the border every day and 16 million 
Canadians visiting the U.S each year it is now more important than ever 
to keep our northern border safe, open and secure.
    The United States needs a policy that allows good traffic to flow 
into our country across the northern border while keeping the bad 
traffic out. We need to increase the number of border patrol personnel 
and customs and border protection officials at the northern border. We 
need to ensure that local law enforcement receive the resources they 
need to prosecute those that are caught along the northern border. We 
also need to make sure that changes in federal law do not create log 
jams at our border. This will become a particular concern as Washington 
looks to benefit from the tremendous economic opportunity that the 2010 
Olympic and Paralympics games in Vancouver, British Columbia will 
bring.
    During the time that I have represented Washington state's 2nd 
district we have seen the northern border grow stronger and our 
government grow more aware of the challenges the border faces. Some of 
the positive developments along the border under my watch have been:

        <bullet> We tripled the number of federal agents along Whatcom 
        County's northern Border since 9-11.
        <bullet> The Department of Homeland Security opened a new 
        Northern Border Air Wing in Blaine to counter terrorism, 
        narcotics and human smuggling.
        <bullet> Customs and Border Protection successfully shut down a 
        drug smuggling tunnel along the border in Whatcom County.
        <bullet> We secured $300,000 for purchasing and upgrading radio 
        equipment for Sumas, Lynden and Blaine police.
        <bullet> I introduced the Northern Border Prosecution 
        Initiative Reimbursement Act that, if implemented, will 
        reimburse Whatcom County and other counties along the northern 
        border for the annual costs prosecuting and disposing of 
        federally initiated and deferred cases.
        <bullet> We helped secure $1 million for Whatcom County for a 
        countywide criminal data integration project to support law 
        enforcement efforts to track and identify criminals and keep 
        them off the street.
        <bullet> We helped expand the Nexus commuter program to provide 
        dedicated lanes for access to and from Canada for Washington 
        residents.

Increasing Border Security
    Since 2004 Congress has authorized 10,000 new border agents--20 
percent of which were slated to protect the Northern Border. Since that 
time, however, Customs and Border Protection has added less than 1,000 
new agents across both the southern and northern borders. If it were 
not for Congressional intervention, the number of appropriated border 
agents would have been even lower. Congress must continue to push for 
more agents on our borders, and we need to ensure that the appropriate 
numbers of agents are placed here in Washington state.

Northern Border Prosecution Reimbursement
    Another issue of great importance to the safety of northern border 
communities is the reimbursement of northern border states and counties 
for costs incurred while prosecuting and federally initiated and 
deferred cases on border-related crimes. Southwest states currently 
have a Southwest Border Prosecution Initiative reimbursement program, 
yet there is no comparable program for the Northern Border. I have 
introduced legislation that would correct this injustice. The Northern 
Border Prosecution Initiative Reimbursement Act would return to states 
and communities along the U.S./Canada border the resources they spend 
prosecuting and detaining people apprehended for federal border-related 
crimes.
    Northern border communities are forced to cover the extreme costs 
of handling cases deferred by federal agencies. These cases place an 
enormous burden on all aspects of the criminal justice system, 
especially after September 11th. When such cases are declined by the 
U.S. Attorney's Office, the impact on local police forces, court 
systems, prosecutors, and public defenders is significant. Here in 
Whatcom County, these cases are referred at a cost of around $2 million 
per year. That is too large a burden to bear for our local communities.
    Local police departments and county prosecutors provide the first 
line of defense to protect our citizens from criminal activity in 
border communities. Our law enforcement, prosecutor's and public 
defenders--in partnership with U.S. Customs, U.S. Border Patrol and the 
Drug Enforcement Administration--play an invaluable role in keeping our 
country secure. As Congress works to increase support for federal 
agencies that fight to protect our country, we cannot neglect the needs 
of our local communities that are dedicated to securing our border and 
putting criminals behind bars.

Travel Restrictions
    I am also concerned about the effect that new government travel 
restrictions and policies will have on cross border travel in commerce. 
The Western Hemisphere Travel Initiative (WHTI) that is set to be fully 
implemented in 2008 will require those crossing the border to carry new 
forms of documentation or a passport. Cities across our northern border 
like Blaine, Sumas, Lynden, and Bellingham will be hurt economically by 
WHTI unless the Departments of Homeland Security and State ensure that 
commerce, travel and tourism flow freely during implementation. These 
travel restrictions could create a logistical nightmare for Washington 
state and slow the economic benefits we hope to gain from the 2010 
Olympics. I am not convinced that the Department of Homeland Security 
will be able to effectively implement WHTI by their 2008 deadline. We 
need to take a serious look at delaying implementation and setting up 
milestones so that DHS and the Department of State can show that the 
program works before it is fully implemented.
    The Department of Homeland Security's recent announcement that it 
will expand US-VISIT to a wider range of Canadian citizens, even those 
that live in the U.S. is also raising concerns here in the 2nd. I hope 
that the committee can fully address this issue.

2010 Winter Olympics
    Finally, as Co-Chairman of Governor Christine Gregoire's 2010 
Olympics task force, I have worked at the federal level to communicate 
the opportunities and challenges that the 2010 Olympics in Vancouver, 
B.C. will bring to Washington state. Washington state will face 
monumental security and traffic challenges in 2010. The world's eyes 
will be focused on Vancouver B.C., but these Olympics will be easily 
accessible to all Americans. Many of those American citizens will 
travel across the northern border at the Blaine checkpoint. We need to 
take advantage of the economic opportunities that these Olympics will 
bring to the United States and we need to ensure that federal agencies 
are working with each other, Washington state and Canadian officials on 
security in the region.
    Thank you for providing me with this opportunity to provide 
testimony. We are uniquely attuned in Washington state to the benefits 
and the dangers of living along our border. I also want to thank my 
other Washington state colleagues for working hard on these important 
issues, particularly Congressman Norm Dicks and Senator Maria Cantwell.

  Prepared Statement of David S. McEachran, Prosecuting Attorney for 
                       Whatcom County, Washington

    Mr. Chairman and members of the Committee, I am David S. McEachran, 
Prosecuting Attorney for Whatcom County, Washington. I am writing about 
the impact that the U.S./Canadian Border has on the criminal justice 
system in Whatcom County. I am submitting this letter in lieu of 
testimony before your committee.
    I have been the elected Prosecuting Attorney for Whatcom County for 
nearly 32 years and have dealt with the effect of the U.S./Canadian 
Border on our criminal justice system since I took office. In Whatcom 
County we have five ports of entry into the United States, including 
the Peace Arch Port of Entry in Blaine, which is one of the busiest 
ports of entry in the United States. Interstate 5, which begins on the 
United States/Mexican Border goes through Whatcom County and ends its 
northern terminus at the United States/Canadian Border. These factors 
combine to create a great deal of impact on the criminal justice system 
in Whatcom County. The four main areas in which we feel the impact from 
our proximity to the Border are: drug smuggling cases; fugitive cases; 
``bounce back effect''; and general criminal cases. I will outline the 
challenges that all of these categories present to our local criminal 
justice system.

                      Border Drug Smuggling Cases

    Due to our Border position we see huge quantities of drugs flowing 
back and forth between the United States and Canada. Marihuana appears 
to be the largest ``cash crop'' that is exported from British Columbia 
and has been estimated to be a 7 billion dollar industry. Marihuana 
hemorrhages across the Border into Whatcom County in multi pound lots 
by land, sea and air. ``B.C. Bud'' is worth $3,000 per pound in Whatcom 
County, close to $4,000 per pound in Oregon, and as much as $6,000 per 
pound in California. The prices fluctuate depending on supply. In order 
for the payment of ``B.C. Bud'' shipments, drug smugglers ship cocaine 
north through Whatcom County into British Columbia. This causes huge 
amounts of drugs to travel though Whatcom County from the north and 
south as well as a very active money laundering system. We have 
recently seen a bundling of ``ecstasy'' with marihuana coming from 
British Columbia into Whatcom County.\1\ Due to the active transporting 
of ``B.C. Bud'' was well as cocaine on Interstate 5, the Washington 
State Patrol has recently trained drug sniffing dogs and handlers to 
work on Interstate 5. This has resulted in many cases stopping drugs 
from getting to Canada and also stopping the drugs once they have 
entered the United States from Canada. All of these cases are handled 
in Whatcom County and increase the pressure on our criminal justice 
system. Many of the smuggling cases that are stopped at the Border by 
federal Customs and Border Protection Officers and Immigrations and 
Customs Officers are handled through our local court system, due to an 
inability for these cases to be processed through the federal system. 
At one point my office was prosecuting approximately 90% of these cases 
instead of the U.S. Attorney's Office in Seattle. We are now doing 60-
70% of these cases.
---------------------------------------------------------------------------
    \1\ My office filed a case involving the smuggling of 1.25 lbs of 
``ecstasy'' yesterday that was discovered when the smuggler was stopped 
and searched at the Border and prosecuted in our criminal justice 
system.

                             Fugitive Cases

    All of the defendants in this category are wanted in other states 
when they are apprehended in Canada or at the Border. If these 
individuals are apprehended in Canada they are deported and turned over 
to federal officers at the Ports of Entry. The Whatcom County Sheriff's 
Office then is contacted by the CBP officers and the defendants are 
turned over to sheriff's deputies. I file Fugitive Complaints on these 
defendants and process them through our Superior Courts for extradition 
to the demanding states in the United States. We handle 100-136 of 
these cases each year. The defendants average over 30 days in our jail 
and have at least three court appearances and often are provided 
Whatcom County Public Defender services. All of these cases are done at 
the sole expense of Whatcom County.

                         ``Bounce Back Effect''

    We have a number of cases that are generated by people who are 
trying to go to Canada through Ports of Entry in Whatcom County and are 
denied entry. Canada will not allow people to enter who have felony 
records, mental problems or no money. Consequently, we have people that 
``bounce back'' from the Border that are felons, have mental problems 
and no funds and remain in Whatcom County. These individuals have 
caused us many problems in criminal justice and are present in Whatcom 
County solely because of the Border. In 2004 I filed homicide charges 
on two men for committing separate murders in the City of Bellingham 
who had just been turned back from entry in Canada.\2\ These are 
examples of the most serious crimes committed by ``Bounced Back'' 
defendants, but we have many other felonies that are committed by this 
category of defendant.
---------------------------------------------------------------------------
    \2\ State v. Manuel Bacallo #04-1-00942-4; State v. Mark Downey 
#04-1-00999-8; Mr. Bacallo was a Cuban citizen that came to the United 
States as a refugee when the Cuban prisons and mental facilities were 
emptied. He was on inactive federal parole due to his status in this 
country when he killed a young woman in Bellingham.

                         General Criminal Cases

    We have cases involving stolen cars, firearms, credit cards, and 
drunk drivers that are discovered at the Border trying to enter or 
leave the United States. We have also had the City of Blaine used in 
fraud cases as a mail drop by Canadian citizens. I just finished 
prosecuting a case in July, 2006, in which two homicide suspects were 
fleeing from the State of California and drove north on Interstate 5 to 
enter Canada. They were tracked through cell phone usage to Seattle, 
then Bellingham and finally to a rest stop on I-5 one mile from the 
Peace Arch Port of Entry. A Whatcom County Sheriff's Deputy working 
with an ICE agent spotted the suspects and ended up in a high-speed 
chase to the Peace Arch Port of Entry. CBP officers had set up an 
``Outbound Checkpoint'' just prior to entry in Peace Arch Park. The 
suspect was driving at speeds over 100 mph and slowed to approximately 
50 when he approached the checkpoint. CBP officers had to flee for 
their lives when the vehicle drove directly at them at the checkpoint. 
They opened fire on the driver, wounding him in the neck. An ICE agent 
was able to strike the suspect vehicle with his truck, after it drove 
through the ``Outbound Checkpoint'' entering Peace Arch Park, causing 
the vehicle to spin and go onto the grassy area of the Park. The 
suspect continued driving his vehicle over the park lawn in an attempt 
to enter the incoming lanes from Canada and then drive in the wrong 
direction to enter Canada. A Whatcom County Sheriff's Deputy was able 
to force the suspect car into a curb and stop it short of entry into 
Canada. During this pursuit the Peace Arch Monument was actually struck 
by the suspects' vehicle. The driver got out of the vehicle and ran on 
foot into Canada before he was run down and captured by ICE agents. The 
initial information about the suspects indicated that they were wanted 
for a homicide case in California and were believed to be armed and 
dangerous. The Canadian Customs officers were so concerned that they 
abandoned their posts just prior to this assault and chase, claiming 
that they were not armed and would not be able to protect themselves. 
The driver, Ishtiaq Hussain was charged in Whatcom County Superior 
Court with Attempting to Elude a Pursuing Police Vehicle, and two 
counts of Assault in the Second Degree on Federal officers. He has been 
convicted and was sentenced to prison in the State of Washington.\3\ 
This is an example of a ``general case'' relating to the Border and 
gives insight into the role that local law enforcement plays in Border 
security and prosecution of these cases.
---------------------------------------------------------------------------
    \3\ State v. Ishtiaq Hussain #06-1-00125-0
---------------------------------------------------------------------------
    I have created a table that outlines the above-described types and 
numbers of cases.

--------------------------------------------------------------------------------------------------------------------------------------------------------
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
Case Types                                                          1999         2000         2001         2002         2003         2004         2005
--------------------------------------------------------------------------------------------------------------------------------------------------------
Fugitives                                                            136           94          116          124          139          108          118
--------------------------------------------------------------------------------------------------------------------------------------------------------
Drug Cases                                                           132          138          126          146          143          113          121
--------------------------------------------------------------------------------------------------------------------------------------------------------
General                                                              230          113          151          150          143           87           66
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The impact from the Border has been very profound on the criminal 
justice system in this county and has taken many of our criminal 
justice resources. I have listed these expenses that we incur on a 
yearly basis below:\4\
---------------------------------------------------------------------------
    \4\ These figures were based on cases in 2002 numbers and are 
definitely higher today.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
District Court                                                   $54,433
------------------------------------------------------------------------
Superior Court                                                  $146,585
------------------------------------------------------------------------
Prosecuting Attorney                                            $215,962
------------------------------------------------------------------------
Sheriff's Office                                                $756,372
------------------------------------------------------------------------
Public Defender                                                 $176,895
------------------------------------------------------------------------
Jail                                                            $945,336
------------------------------------------------------------------------
Total Costs                                                   $2,295,817
------------------------------------------------------------------------

    We have been impacted through law enforcement, jail services, court 
time, prosecutors, and criminal defenders. I believe strongly that this 
is a problem for the United States to address in the form of funding 
for our county to do this work. We are staggering under this load and 
need, and should receive assistance from the federal government. In 
Whatcom County we are providing the first line of defense to protect 
our citizens from criminal activity in Whatcom County, the State of 
Washington, and the United States. We deal with federal officers every 
day in my office as they present cases and develop them for 
prosecution. We still handle the bulk of cases generated from the 
federal agencies on the Border as opposed to the United States 
Attorneys Office. We are well situated and capable of handling these 
prosecutions, but we need to have financial assistance to maintain this 
effort.
    On the Southern Border with Mexico local prosecutors have been 
faced with the same problem and, after refusing to handle these case, 
were given financial support from the federal government. I believe 
these cases are critical to us locally and to the country, and have not 
refused to handle them. However, the federal government must provide us 
support. I have always felt that the federal government has been behind 
our efforts to handle these cases, but so far behind us we can?t even 
see or feel them. We need financial support to continue with this work, 
which is vital to the United States.

                                 <all>

</pre></body></html>
